No. ________________

IN THE SUPREME COURT OF THE UNITED STATES
_______________________
DAMEN RABB,
Petitioner,
- v. CHRISTIAN PFEIFFER, Warden,
Respondent.
_______________________
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
APPENDIX VOLUME I
________________________

BRIAN M. POMERANTZ (Bar #: 291976)*
P.O. Box 853
Carrboro, NC 27510
Habeas@protonmail.com
(323) 630-0049
Attorney for Defendant-Petitioner
*Counsel of Record

INDEX OF APPENDICES
page
VOLUME I
Petitioner’s Appendix A
Order Denying Certificate of Appealability (Jan. 14, 2021) . . . . . . . . . . . . . . 1
Petitioner’s Appendix B
Judgment Dismissing the Petition for Writ of Habeas Corpus,
District Court Case No. 2:17-cv-09318-JAK-JPR (Jan. 30, 2020) . . . . . . . . . . 2
Petitioner’s Appendix C
Order Accepting Findings and Recommendation (Jan. 30, 2020) . . . . . . . . . . 3
Petitioner’s Appendix D
Report and Recommendation of U.S. Magistrate Judge (Sept. 24, 2019). . . 20
Petitioner’s Appendix E
Order Denying Motion for Reconsideration (59(e)) (Apr. 1, 2020) . . . . . . . . 82
Petitioner’s Appendix F
Documents Proving Petitioner’s Innocence . . . . . . . . . . . . . . . . . . . . . . . . . . 86
Petitioner’s Appendix G
Order Granting Respondent’s Motion for Reconsideration;
Accepting Findings and Recommendations of United States
Magistrate Judge (Oct. 25, 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91
Petitioner’s Appendix H
Opinion of the Ninth Circuit Court of Appeals, Rabb v. Sherman,
Case No. 13-55057 (Mar. 29, 2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 94
Petitioner’s Appendix I
Application for Leave to File Second or Successive Petition (Mar. 1, 2017). 97
Petitioner’s Appendix J
Authorization For Successive Petition (Jul. 13, 2018). . . . . . . . . . . . . . . . . 103
Petitioner’s Appendix K
California Court of Appeal Opinion (Feb. 10, 2010) . . . . . . . . . . . . . . . . . . 105

i

INDEX OF APPENDICES
page
VOLUME II
Petitioner’s Appendix L
Excerpts of Reporter’s Transcript . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 133
Petitioner’s Appendix M
D.A.’s Informal Response to State Petition for Writ of Habeas Corpus . . . 166
Petitioner’s Appendix N
Petitioner’s Request for Leave of the Court to Request
Motion for Evidentiary Hearing (May 29, 2012) . . . . . . . . . . . . . . . . . . . . . 168
Petitioner’s Appendix O
Motion for Appointment of Counsel (May 10, 2012) . . . . . . . . . . . . . . . . . . 175
Petitioner’s Appendix P
Petitioner’s Request for Discovery (Aug. 23, 2012) . . . . . . . . . . . . . . . . . . . 182
Petitioner’s Appendix Q
Minute Order re: Videotape (Sept. 18, 2012) . . . . . . . . . . . . . . . . . . . . . . . . 193
Petitioner’s Appendix R
Judgment (Case No. 2:11-cv-05110-JAK-JPR) (Oct. 25, 2012) . . . . . . . . . . 194
Petitioner’s Appendix S
Notice of Appeal (Case No. 2:11-cv-05110-JAK-JPR) (Jan. 8, 2013). . . . . . 195
Petitioner’s Appendix T
Order re: Remand (Sept. 26, 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 199
Petitioner’s Appendix U
Request for Certificate of Appealability (Mar. 30, 2020) . . . . . . . . . . . . . . . 201
Petitioner’s Appendix V
Motion to Alter, Set Aside, or Vacate the Judgment and Order
Denying a Certificate of Appealability Pursuant to Federal Rule of
Civil Procedure 59(e) (Feb. 27, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 224

ii

INDEX OF APPENDICES
page
VOLUME III
Petitioner’s Appendix W
Successive Petition for Writ of Habeas Corpus (Mar. 1, 2017) . . . . . . . . . . 229
Petitioner’s Appendix X
28 U.S.C. § 2244 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 324

iii

Petitioner’s Appendix A

Case: 20-55204, 01/14/2021, ID: 11964621, DktEntry: 4, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JAN 14 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DAMEN RABB,
Petitioner-Appellant,
v.
M. ELIOT SPEARMAN, Warden,

No.

20-55204

D.C. No. 2:17-cv-09318-JAK-JPR
Central District of California,
Los Angeles
ORDER

Respondent-Appellee.
Before:

THOMAS, Chief Judge, and BRESS, Circuit Judge.

The request for a certificate of appealability (Docket Entry Nos. 2 & 3) is
denied because appellant has not shown that “jurists of reason would find it
debatable whether the petition states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable whether the district court
was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484
(2000); see also 28 U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41
(2012).
Any pending motions are denied as moot.
DENIED.

Pet. App. A-1

Petitioner’s Appendix B

Case 2:17-cv-09318-JAK-JPR Document 46 Filed 01/30/20 Page 1 of 1 Page ID #:2913

1
2
3
4
5
6
7
8
9

UNITED STATES DISTRICT COURT

10

CENTRAL DISTRICT OF CALIFORNIA

11
12

DAMEN RABB,
Petitioner,

13
v.

14
15

M. ELIOT SPEARMAN, Warden,
Respondent.

16
17

) Case No. CV 17-9318-JAK (JPR)
)
)
)
J U D G M E N T
)
)
)
)
)
)

Pursuant to the Order Accepting Findings and Recommendations

18 of U.S. Magistrate Judge, IT IS HEREBY ADJUDGED that Respondent’s
19 motion to dismiss is granted and this action is dismissed with
20 prejudice.
21
22 DATED: January 30, 2020
23

JOHN A. KRONSTADT
U.S. DISTRICT JUDGE

24
25
26
27
28

Pet. App. B-2

Petitioner’s Appendix C

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 1 of 17 Page ID #:2896

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
DAMEN RABB,

11
Petitioner,

12
v.

13
M. ELIOT SPEARMAN, Warden,

14
Respondent.

15
16

)
)
)
)
)
)
)
)
)
)

Case No. CV 17-9318-JAK (JPR)
ORDER ACCEPTING FINDINGS AND
RECOMMENDATIONS OF U.S.
MAGISTRATE JUDGE

The Court has reviewed the Successive Petition, records on

17 file, and Report and Recommendation of U.S. Magistrate Judge,
18 which recommends that Respondent’s motion to dismiss the
19 Successive Petition be granted. Petitioner filed objections to
20 the R. & R. through counsel on December 2, 2019, and two pro se
21 letters asserting his innocence, on October 1 and December 11,
22 2019; Respondent did not reply. Having reviewed de novo those
23 portions of the R. & R. to which Petitioner objects, see 28
24 U.S.C. § 636(b)(1)(C), the Court accepts the findings and
25 recommendations of the Magistrate Judge.
26

Petitioner challenges the Magistrate Judge’s analytical

27 approach in determining that the Successive Petition should be
28 dismissed because none of its claims meet the requirements of 28

Pet. App. C-3

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 2 of 17 Page ID #:2897

1 U.S.C. 2244(b).

According to Petitioner, because the Ninth

2 Circuit already “saw fit to send the case back” to the district
3 court (Objs. at 7), the Magistrate Judge had no business
4 reviewing the record as if she were an “appellate court,” drawing
5 inferences from the record, assessing the strength of the
6 evidence of his guilt, or “posit[ing] abstract doubts regarding
7 the veracity or trustworthiness of the evidence [he] submitted”
8 (id. at 4, 7).
9

But the Magistrate Judge’s thorough examination of the

10 record to determine whether Petitioner met § 2244(b)’s dictates
11 was not just warranted but required.

It is a “misnomer” to say

12 that the Circuit “grants leave to file” a successive petition
13 after it finds that an application makes a prima facie showing
14 under § 2244(b).

Edwards v. Koehn, No. CV 14-00390 VBF-SH, 2014

15 WL 11980006, at *2 n.1 (C.D. Cal. Apr. 14, 2014).

A prima facie

16 showing is “simply a sufficient showing of possible merit to
17 warrant a fuller exploration by the district court.”

Woratzeck

18 v. Stewart, 118 F.3d 648, 650 (9th Cir. 1997) (per curiam)
19 (citation omitted).

The district court then “must,” as the

20 Magistrate Judge did here, “conduct a thorough review of all
21 allegations and evidence presented by the prisoner to determine
22 whether the [petition] meets the statutory requirements.”

United

23 States v. Villa–Gonzalez, 208 F.3d 1160, 1165 (9th Cir. 2000)
24 (per curiam); see § 2244(b)(4) (providing that “district court
25 shall dismiss any claim presented in a second or successive
26 application that the court of appeals has authorized to be filed
27 unless the applicant shows that the application satisfies the
28 requirements of this section”).

In doing so, it “must not defer
2

Pet. App. C-4

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 3 of 17 Page ID #:2898

1 to [the circuit court’s] preliminary determination.”

Case v.

2 Hatch, 731 F.3d 1015, 1029 (10th Cir. 2013).
3

Petitioner’s objections to the Magistrate Judge’s findings,

4 many of which simply reiterate arguments he raised in the
5 Successive Petition and his opposition to the motion to dismiss,
6 are not persuasive.

Although he takes issue with practically all

7 of the R. & R.’s footnotes — which by their nature are not
8 critical to the analysis — he does not challenge many of the
9 Magistrate Judge’s key conclusions in finding that he has not
10 acted diligently in bringing his claims and that the facts
11 underlying those claims, even if true, would not establish his
12 actual innocence.
13

§ 2244(b)(2)(B).

For instance, he does not anywhere dispute that the

14 Successive Petition’s fourth claim must be dismissed because it
15 was already raised in his initial Petition.
16 30 (citing § 2244(b)(1)).)

(See R. & R. at 28-

Nor does he address the Magistrate

17 Judge’s conclusion that many of his ineffective-assistance
18 subclaims, including those concerning counsel’s failure to object
19 to hearsay testimony, move to prohibit reference to the guns
20 recovered from the Camry, or seek to introduce Petitioner’s
21 girlfriend’s 2007 statement to the defense investigator, must be
22 dismissed because they are based on factual predicates that were
23 known to him at the time of trial.
24

(See id. at 31-38.)

Petitioner repeatedly references Farmer’s and Chappell’s

25 2016 statements that Petitioner was not the man who robbed them
26 as new evidence supporting his actual innocence (see, e.g., Objs.
27 at 1, 23-24, 29-31), but he does not convincingly object to the
28 Magistrate Judge’s finding that he “was or should have been
3

Pet. App. C-5

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 4 of 17 Page ID #:2899

1 aware” much earlier of the substance of those statements (R. & R.
2 at 35).

He argues that they are not the same as their 2007

3 statements that they could not identify him as the robber in a
4 photo lineup (see Objs. at 24), but he does not dispute that the
5 2007 statements, which were discussed during trial in his
6 presence, put him on notice that Farmer and Chappell potentially
7 had more exculpatory identification information to provide (see
8 id. at 34-37).1
9

And although the Magistrate Judge pointed out in a footnote

10 that the record was unclear on whether Petitioner’s photograph
11 was even included in the 2007 photo lineup (see Objs. at 8
12 (citing R. & R. at 16 n.4)), her analysis makes plain that she
13 assumed it was — and that the lineup therefore put Petitioner on
14
15

1

The Magistrate Judge also correctly observed that the

16 victims’ 2007 statements would not likely have been admitted at
trial (see R. & R. at 50 n.22) and that it was unclear how

17 counsel could have been ineffective for allegedly not obtaining
the information shared by them in 2016 when he requested and

18 received court authorization for an investigator and sent that
19 investigator to speak to them back in 2007 (see id. at 46 n.20).
20
21
22
23
24
25
26
27
28

Further, just as in Gentry v. Sinclair, 705 F.3d 884, 899-900
(9th Cir. 2012) (as amended Jan. 15, 2013), Petitioner submitted
evidence concerning trial counsel’s strategy only on certain
subclaims — here, in the form of habeas counsel’s declaration
conveying trial counsel’s answers to questions habeas counsel
asked him during several interviews (see Opp’n, Ex. 15) — but no
evidence as to other subclaims, likely because habeas counsel
didn’t ask him about them. That may well bar those subclaims, as
the Magistrate Judge noted. (See R. & R. at 32 n.12 (citing
Gentry, 705 F.3d at 899-900), 34 n.14 (same).) Petitioner now
asserts that unlike in Gentry, trial counsel refused to submit a
declaration or to “speak with habeas counsel further about the
case” (Objs. at 10), but that information is not in his
declaration, and although trial counsel apparently could not
recall many of the “strategies related to the issues . . .
raised,” he at least initially cooperated with habeas counsel
(Opp’n, Ex. 15 at 5-7).
4

Pet. App. C-6

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 5 of 17 Page ID #:2900

1 notice of any potential claims stemming from the victims’
2 inability to identify him in it.

Of course, as the Magistrate

3 Judge pointed out (see R. & R. at 36), the best evidence that
4 Petitioner was in fact on notice of those claims is that
5 immediately after being appointed and years before the victims
6 made their 2016 statements, habeas counsel filed a superior-court
7 habeas petition raising most of the Successive Petition’s claims
8 (see generally Lodged Doc. 21).
9

Petitioner identifies three factual predicates that he

10 claims the Magistrate Judge incorrectly determined he could have
11 discovered before he filed the initial Petition.

First, he

12 asserts that he could not have earlier known that trial counsel
13 allegedly failed to watch a surveillance videotape collected from
14 the crime scene and so learned only several years after the
15 initial Petition was filed, when habeas counsel interviewed trial
16 counsel.

(Objs. at 11-12.)

But as Petitioner has acknowledged

17 (see Opp’n, Ex. 15 at 6) and the Magistrate Judge outlined (see
18 R. & R. at 33), although trial counsel told habeas counsel during
19 that interview that “he was not aware of any surveillance tape
20 and . . . never viewed it or sought to view it” (Opp’n, Ex. 15 at
21 6), the record makes plain that he in fact knew about it before
22 trial (see, e.g., Lodged Doc. 2, 3 Rep.’s Tr. at 1335).

His

23 cross-examination of a police witness at trial made clear that he
24 knew of the surveillance tape, and the particular questions he
25 asked suggested that he had watched it.

(See R. & R. at 33

26 (citing Lodged Doc. 2, 3 Rep.’s Tr. at 1335).)

Thus, there is no

27 credible newly discovered evidence that trial counsel never
28 watched the surveillance tape.

Rather, he just didn’t remember,
5

Pet. App. C-7

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 6 of 17 Page ID #:2901

1 seven years later, what had happened at trial.

(See Opp’n, Ex.

2 15 ¶ 13 (habeas counsel noting that trial counsel said he could
3 not remember much about Petitioner’s trial).)

In any event,

4 Petitioner was clearly aware of the facts underlying this
5 ineffective-assistance subclaim when he filed his initial
6 Petition and yet failed to raise it, instead claiming that his
7 counsel allegedly never watched the tape because the prosecution
8 didn’t produce it in discovery.
9

(See Objs. at 12.)

Second, Petitioner claims the Magistrate Judge misapplied

10 relevant law in finding that he could have earlier challenged
11 trial counsel’s failure to procure the testimony of an
12 eyewitness-identification expert.

(Id. at 19-23.)

The

13 Magistrate Judge did not “create[] a higher standard for
14 [Petitioner]” or find that “a petitioner must instruct their
15 counsel on how to do their job as counsel or they cannot have
16 been diligent.”

(Id. at 20.)

Rather, her analysis correctly

17 noted that Petitioner’s claim boiled down to counsel allegedly
18 having been ineffective for failing to ask the expert whether he
19 would have accepted less to testify.

(See R. & R. at 42-44.)

20 And she correctly concluded that Petitioner, who was present
21 during the court’s colloquies with counsel about the expert’s fee
22 and aware that counsel believed he would not be able to testify
23 because his full fee had not been authorized, could have — just
24 as habeas counsel did after being appointed — discovered, or at
25 least tried to, that the expert would have accepted less and
26 challenged counsel’s effectiveness for not asking him to do so.2
27
28

2

Petitioner has never cited any authority to support his
(continued...)
6

Pet. App. C-8

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 7 of 17 Page ID #:2902

1 (Id.)
2

The Magistrate Judge also properly distinguished Rudin v.

3 Myles, 781 F.3d 1043 (9th Cir. 2015), on which Petitioner relies.
4 (See Objs. at 20-22.)

As an initial matter, Rudin has nothing to

5 do with successive petitions or the standards governing them.
6 Moreover, as the Magistrate Judge explained (see R. & R. at 44
7 n.19), the Ninth Circuit held in that case that the petitioner
8 was entitled to equitable tolling of the AEDPA limitation period
9 because she could have raised her ineffective-assistance claim
10 only after learning of and being prejudiced by counsel’s
11 abandonment of her, 781 F.3d at 1054 n.13.

That holding does not

12 help Petitioner because he was prejudiced by counsel’s alleged
13 deficiencies when he was convicted and therefore could have
14 raised his ineffective-assistance claim immediately thereafter.
15 See Gimenez v. Ochoa, Civil No. 12-1137 LAB (BLM)., 2013 WL
16 8178829, at *5 (S.D. Cal. Nov. 22, 2013) (finding § 2244(b)’s
17 due-diligence requirement not satisfied when petitioner had been
18 aware since trial of counsel’s failure to have radiologist
19 testify concerning certain evidence), accepted by 2014 WL 1302463
20 (S.D. Cal. Mar. 28, 2014), aff’d, 821 F.3d 1136 (9th Cir. 2016).
21
22
23
24
25
26
27
28

2

(...continued)
suggestion that trial counsel, who informed the court of the
expert’s fee but was not granted the full amount requested,
performed deficiently in not negotiating with the expert to take
less. Counsel’s failure to do so, when no evidence shows that
the expert had ever even suggested he would consider a lower fee,
did not likely “f[a]ll below an objective standard of
reasonableness.” Strickland v. Washington, 466 U.S. 668, 688
(1984); see Babbitt v. Calderon, 151 F.3d 1170, 1174 (9th Cir.
1998) (finding that counsel’s failure to consult with certain
experts was not unreasonable when experts he did retain did not
tell him to do so).
7

Pet. App. C-9

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 8 of 17 Page ID #:2903

1 Petitioner claims the Magistrate Judge misconstrued Rudin because
2 the case is not about “learning of prejudice, but experiencing
3 it.”

(Objs. at 21.)

The Court is not certain what semantic

4 difference Petitioner seeks to draw, but in any event, he
5 “experienced” prejudice when he was convicted after no
6 identification expert testified at trial.
7

Finally, Petitioner claims the Magistrate Judge wrongly

8 decided — based on Chappell’s 2007 statement that he wasn’t
9 scared during the robbery — that he was on notice from before his
10 conviction that police descriptions of the victims as being
11 scared and agitated immediately after the robbery were allegedly
12 inaccurate.

(Id. at 12-13.)

The Magistrate Judge rightly

13 concluded that Chappell’s 2007 denial of being scared during, as
14 opposed to immediately after, the robbery should have alerted him
15 to the claim.

Indeed, Chappell himself spoke of one continuous

16 time frame, claiming in 2016 that it was “completely untrue” that
17 he was “under stress and acting excited” when talking to the
18 police a few minutes after the robbery because he had had “plenty
19 of guns pulled on [him] before.”
20

(Opp’n, Ex. 11 at 1.)

And if Chappell wasn’t afraid during the robbery, as he said

21 in 2007, he presumably would have had no reason to be right after
22 it either, calling into question the officers’ testimony to the
23 contrary.

As the Magistrate Judge pointed out (see R. & R. at

24 40), the best evidence that Chappell’s 2007 statement put
25 Petitioner on notice of his claim is habeas counsel’s argument in
26 a superior-court petition filed years before Farmer’s and
27 Chappell’s 2016 statements that trial counsel should have used
28 Chappell’s statement about not being scared to prevent his crime8

Pet. App. C-10

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 9 of 17 Page ID #:2904

1 scene statements to the police officers from being admitted into
2 evidence as excited utterances.3
3 22.)4

(See Lodged Doc. 21 at 18, 21-

Therefore, contrary to Petitioner’s suggestion (Objs. at

4 14-15), the Magistrate Judge properly determined that Hasan v.
5 Galaza, 254 F.3d 1150, 1154 (9th Cir. 2001), holding as to an
6 initial, not a successive, petition that a petitioner could not
7 have discovered an ineffective-assistance claim until he was
8 aware of the prejudice he had allegedly suffered, was inapposite.
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

3

Petitioner claims, without any evidence or citation to
supporting authority, that a “victim might experience
psychological shock when facing a gun, but then deal with the
flood of repressed emotions once the dangerous situation abated”
and therefore “there was no reason to disbelieve [the officers’]
testimony” that Chappell was “emotionally agitated” when he spoke
to them despite his 2007 statement that during the robbery itself
he wasn’t scared. (Objs. at 14.) But Petitioner clearly was
earlier aware of his claim because he raised it in the state
petition years before his initial federal Petition and the
victims’ 2016 statements.
4

Petitioner argues that the Magistrate Judge failed to
appreciate that he was not in a position to conduct the sort of
investigation necessary to uncover most of his claims. (Objs. at
16-18.) But as discussed, he possessed most of the information
he needed to challenge counsel’s effectiveness when he filed the
initial Petition. Further, although his pro se status certainly
hampered his ability to reach out to Farmer and Chappell, he was
not without options. For example, he could have asked a family
member or friend to contact them. Beyond that, courts have not
excused the failure to exercise due diligence based on a
petitioner’s pro se status, including in cases when a petitioner
has not timely obtained statements from codefendants or
witnesses. See, e.g., Johnson v. Williams, 650 F. App’x 508, 511
(9th Cir. 2016) (holding that petitioner failed to make prima
facie showing of diligence when he did not satisfactorily explain
delay in obtaining codefendant’s declaration); Gant v. Barnes,
No. CV 14-2618-CJC (SP), 2017 WL 3822063, at *7 (C.D. Cal. July
19, 2017) (“Petitioner’s inability to locate, rather than
discover [alibi] witnesses due to his previous pro se litigant
status does not undermine the conclusion that he knew the factual
predicate for his IAC claim by the conclusion of his trial.”).
9

Pet. App. C-11

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 10 of 17 Page ID #:2905

1 (See R. & R. at 40-41); West v. Ryan, 652 F.3d 1071, 1078 (9th
2 Cir. 2011) (denying application for leave to file successive
3 petition because evidence of abuse was not “newly discovered”
4 given that petitioner’s counsel was aware “of at least some of
5 the allegations” when petitioner filed his first state habeas
6 petition).
7

Petitioner suggests he exercised due diligence in presenting

8 his claims because habeas counsel filed an unsuccessful motion to
9 stay the appellate proceedings based on newly discovered
10 evidence, see Mot., Rabb v. Sherman, No. 13-55057 (9th Cir. June
11 20, 2014), ECF No. 29, and an unsuccessful motion under Crateo,
12 Inc. v. Intermark, Inc., 536 F.2d 862 (9th Cir. 1976), asking
13 this Court to indicate that it would “entertain or grant” a Rule
14 60(b) motion for relief from judgment based on newly discovered
15 evidence in the event the Ninth Circuit remanded the case, see
16 Mot., Rabb v. Lopez, No. CV 11-5110-JAK (JPR) (C.D. Cal. Dec. 21,
17 2014), ECF No. 63.

(See Objs. at 21.)

But those motions were

18 filed after this Court had denied the initial Petition, and it is
19 well settled that in those circumstances a petitioner seeking to
20 “present newly discovered evidence” or “add a new ground for
21 relief” must satisfy § 2244(b)’s requirements to file a
22 successive petition and cannot raise the claim in a Rule 59(e) or
23 60(b) motion.

Rishor v. Ferguson, 822 F.3d 482, 491 (9th Cir.

24 2016) (citing Gonzalez v. Crosby, 545 U.S. 524, 531 (2005)).
25 Counsel’s having filed stay motions that were almost certain to,
26 and did, fail does not demonstrate diligence.
27

Even if any of Petitioner’s claims could not have been

28 discovered earlier, the Magistrate Judge correctly found that
10

Pet. App. C-12

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 11 of 17 Page ID #:2906

1 “the facts underlying [them], if proven and viewed in light of
2 the evidence as a whole,” would be “[in]sufficient to establish
3 by clear and convincing evidence that, but for constitutional
4 error, no reasonable factfinder would have found [Petitioner]
5 guilty of the underlying offense.”
6 § 2244(b)(2)(B)(ii)).)5

(R. & R. at 46 (citing

Petitioner cannot seriously contend that

7 the surveillance video or the eyewitness-identification expert’s
8 testimony would have established that he was actually innocent.
9 He presents no nonspeculative basis to question Detective
10 Williams’s testimony that no particular person or vehicle in the
11 video could be identified.

(See id. at 12 n.3, 33 (citing Lodged

12 Doc. 2, 3 Rep.’s Tr. at 1328-29).)

Indeed, he elsewhere proffers

13 Williams’s testimony as being truthful, noting that he
14 specifically declined to label Petitioner a gang member.
15 at 39.)

(Objs.

And although the expert’s testimony would have served to

16 undermine Banuelos’s identification of Petitioner, that
17 identification was already called into question by trial
18 counsel’s extensive cross-examination about its circumstances and
19 the inconsistencies in it (see R. & R. at 55-56 (discussing
20 counsel’s cross-examination)), as Petitioner acknowledges (see
21 Objs. at 44-49, 51-53), and nonetheless was credited by the jury.
22
23
24
25
26
27
28

5

The Magistrate Judge did not hold Petitioner to an
improperly high “unquestionably” innocent standard. (See Objs.
at 43-44.) She noted that standard — which governs a stand-alone
actual-innocence claim in a successive petition (see R. & R. at
50 (citing Morales v. Ornoski, 439 F.3d 529, 533-34 (9th Cir.
2006) (per curiam))) — most likely because Petitioner in fact
raised such a claim in the Successive Petition, although he later
clarified that he did not seek relief on it (see Opp’n at 6).
She elsewhere consistently applied § 2244(b)(2)(B)(ii)’s actualinnocence standard in recommending dismissal of Petitioner’s
claims. (See, e.g., R. & R. at 25-26, 46, 61.)
11

Pet. App. C-13

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 12 of 17 Page ID #:2907

1

The crux of Petitioner’s actual-innocence claim and his

2 objections to the Magistrate Judge’s analysis of it is that she
3 undervalued the significance of the victims’ 2016 statements that
4 the police officers’ testimony about their emotional state was
5 untrue.

According to Petitioner, that testimony would have

6 prevented admission of their crime-scene statements to the
7 officers as excited utterances and established that the officers
8 were lying.

(Objs. at 15.)

But as the Magistrate Judge

9 explained, that the victims claimed they were not scared would
10 not likely have resulted in their descriptions of the suspects
11 being excluded from evidence because the trial judge could have
12 determined that they were acting scared or excited, as the
13 officers perceived, even if they genuinely believed they hadn’t
14 felt those emotions.

(See R. & R. at 39 n.17, 55.)

Further,

15 that the Magistrate Judge offered this insight was not improper
16 “extrapolat[ion]” (Objs. at 14) but rather appropriate analysis
17 of how a reasonable factfinder would consider that evidence.
18 Beyond that, whether the victims’ statements would have rendered
19 certain parts of the officers’ testimony inadmissible has no
20 bearing on whether they establish Petitioner’s factual innocence.
21 Indeed, in assessing actual innocence the Court must consider
22 “‘all the evidence, old and new, incriminating and exculpatory,’
23 admissible at trial or not.”

Lee v. Lampert, 653 F.3d 929, 938

24 (9th Cir. 2011) (en banc) (citation omitted) (assessing more
25 lenient actual-innocence standard for equitable exception to time
26 bar); see also King v. Trujillo, 638 F.3d 726, 732 (9th Cir.
27 2011) (finding that although counsel could have used new evidence
28 to object to admission of certain evidence at trial, that was
12

Pet. App. C-14

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 13 of 17 Page ID #:2908

1 “irrelevant as to [petitioner’s] actual innocence”).
2

The Magistrate Judge also correctly determined that the

3 victims’ statements about their demeanor the night of the crime
4 would not have led any reasonable factfinder to conclude that
5 each of the police officers was lying and that they had all
6 conspired to frame Petitioner, which is what Petitioner
7 essentially claims.

(See Objs. at 42-43.)

As noted, the

8 officers’ testimony and the victims’ statements were not
9 inconsistent; the jury could have believed that the officers saw
10 the victims as excited while the victims themselves thought they
11 were calm, at least from the vantage point of a decade later.
12 More significantly, an impartial witness testified that shortly
13 after the crimes the victims told her they had been scared (see
14 Lodged Doc. 2, 3 Rep.’s Tr. at 1509), which corroborates the
15 officers’ accounts.

And Petitioner’s suggestion that the

16 officers’ testimony was perjured is undermined by his own
17 extensive analysis of the contradictions and weaknesses in it.
18 (See, e.g., Objs. at 45-48, 52-53.)

If the officers were in fact

19 lying and conspiring with one another to frame Petitioner, their
20 accounts likely would have been more consistent and inculpatory.
21 See United States v. Nacoechea, 986 F.2d 1273, 1279 (9th Cir.
22 1993) (noting that prosecutor’s argument that witness “told the
23 truth because, if she were lying, she would have done a better
24 job” was proper “inference from evidence in the record”).6
25
26
27
28

6

There is no merit to Petitioner’s claim that the
“Magistrate Court wrongly believes that perjury by the state’s
witnesses only matters if the prosecutor knowingly put on the
testimony.” (Objs. at 49.) That legal conclusion is nowhere in
(continued...)
13

Pet. App. C-15

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 14 of 17 Page ID #:2909

1

Nor did the victims’ 2007 failure to identify Petitioner in

2 a lineup as the man who robbed them and their 2016 statements
3 that he was not the man who robbed them establish his actual
4 innocence.

Petitioner claims that the Magistrate Judge

5 improperly rejected those statements as “incredible” (Objs. at 2)
6 without holding a hearing.

But although he is correct that the

7 Magistrate Judge identified reasons to question their credibility
8 and factors that undermined the exculpatory value of the
9 statements, the R. & R. makes plain that she accepted for the
10 purposes of her analysis that the victims genuinely believed what
11 they said.
12

That does not mean, however, that the Magistrate Judge was

13 precluded from considering how much weight those statements would
14 carry with reasonable factfinders.

Indeed, she was required to

15 do so in assessing whether any newly discovered evidence was
16 sufficient to establish clearly and convincingly that Petitioner
17 was actually innocent.

§ 2244(b)(2)(B)(ii).

She properly

18 identified the many reasons why the victims’ statements had
19 limited exculpatory value and did not establish Petitioner’s
20 actual innocence.

Likewise, she persuasively identified the

21
22
23
24
25
26
27
28

6

(...continued)
the R. & R. In a footnote, the Magistrate Judge cited Hayes v.
Brown, 399 F.3d 972, 974 (9th Cir. 2005) (en banc), to point out
that Petitioner could not establish prosecutorial misconduct, a
claim raised in ground five of the Successive Petition (see
Successive Pet. at 74-78), without evidence that the prosecution
knowingly acted improperly. (R. & R. at 54-55 n.24.) She did
not decide that a petitioner convicted based on false evidence
could not pursue a due-process claim unless the prosecutor himor herself knew the evidence was false (see Objs. at 49-51) and
had no reason to do so given that no such claim was raised by
Petitioner.
14

Pet. App. C-16

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 15 of 17 Page ID #:2910

1 ample evidence of Petitioner’s guilt that blunted what little
2 exculpatory value the victims’ statements had.

Indeed, contrary

3 to Petitioner’s assertion that “[n]ot one piece of tangible
4 evidence points to [him]” (Objs. at 42), the R. & R. outlines the
5 compelling proof of Petitioner’s guilt that corroborates
6 Banuelos’s identification testimony, including convicted
7 codefendants Parron and Brown both identifying him as their
8 accomplice, a statement from his girlfriend that she lent him the
9 car used during the robbery, and his resemblance to Chappell’s
10 and Farmer’s crime-scene descriptions of the gunman and
11 Banuelos’s description of the man he saw that night.

(R. & R. at

12 49-50.)
13

Although Petitioner points out various inaccuracies and

14 inconsistencies in those descriptions, the jury heard all of them
15 and nonetheless credited Banuelos’s and the other officers’
16 testimony.

See Johnson, 650 F. App’x at 511 (finding that

17 petitioner did not make prima facie showing that codefendant’s
18 declaration established his actual innocence even though it
19 undermined some evidence of his guilt).

And Petitioner fails to

20 acknowledge that as the Magistrate Judge noted, in assessing his
21 showing of actual innocence the Court must consider all the
22 evidence — including Parron’s and Brown’s identifications of him
23 as their accomplice — and not just the evidence admitted at
24 trial.
25

(See R. & R. at 27 (citing Lee, 653 F.3d at 938).)

Under these circumstances, the Magistrate Judge was not

26 required to hold a hearing before recommending dismissal of the
27 Successive Petition.

Just as in Cox v. Powers, assuming that

28 Farmer and Chappell were credible “in the sense that [they were]
15

Pet. App. C-17

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 16 of 17 Page ID #:2911

1 stating what [they] believed [they] saw,” that did not
2 “‘clear[ly] and convincing[ly]’ show[] that no reasonable
3 factfinder would find [Petitioner] guilty.”

525 F. App’x 541,

4 543 (9th Cir. 2013) (citing § 2244(b)(2)(B)(ii)).

Although

5 “there would then be directly contradictory eyewitnesses, the
6 jury could have continued to believe that the prosecution
7 witness’ testimony was more accurate than that of the defense
8 witnesses.”

Id.

Although Petitioner posits that “[s]imply by

9 reading the transcript, it is obvious that Sgt. Banuelos
10 presented false evidence” (Objs. at 51), apparently the jury did
11 not think so.

The R. & R. explains why any reasonable factfinder

12 would have had ample reason to give little weight to Farmer’s and
13 Chappell’s statements even if the witnesses believed them to be
14 true and how what weight they did deserve was outweighed by the
15 robust other evidence of guilt.

See, e.g., McDermott v. Soto,

16 No. CV 16-1888-GW (AGR), 2018 WL 4501170, at *8-9, *11 n.12 (C.D.
17 Cal. Jan. 5, 2018) (dismissing successive petition without
18 holding hearing because even assuming statements in exculpatory
19 declaration were true, “they do not show, clearly and
20 convincingly, that no reasonable jury would have convicted
21 [p]etitioner”), accepted by 2018 WL 4471096 (C.D. Cal. Sept. 17,
22 2018); Bryant v. Gonzalez, No. CV 10-5137-CAS (SH)., 2012 WL
23 6012868, at *7 & n.8 (C.D. Cal. Nov. 28, 2012) (same when
24 witness’s recantation of identification testimony and allegations
25 of police misconduct did not establish actual innocence),
26 accepted by 2012 WL 6012862 (C.D. Cal. Nov. 30, 2012).
27
28
16

Pet. App. C-18

Case 2:17-cv-09318-JAK-JPR Document 45 Filed 01/30/20 Page 17 of 17 Page ID #:2912

1

IT THEREFORE IS ORDERED that Respondent’s motion to dismiss

2 is granted and judgment be entered dismissing this action with
3 prejudice.
4
5
6

DATED: January 30, 2020
JOHN A. KRONSTADT
U.S. DISTRICT JUDGE

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
17

Pet. App. C-19

Petitioner’s Appendix D

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 1 of 62 Page ID #:2747

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

DAMEN RABB,
Petitioner,

12
v.

13
14

M. ELIOT SPEARMAN, Warden,1

15

Respondent.

16

) Case No. CV 17-9318-JAK (JPR)
)
)
) REPORT AND RECOMMENDATION OF U.S.
) MAGISTRATE JUDGE
)
)
)
)
)
)

17

This Report and Recommendation is submitted to the Honorable

18

John A. Kronstadt, U.S. District Judge, under 28 U.S.C. § 636 and

19

General Order 05-07 of the U.S. District Court for the Central

20

District of California.

21
22
23
24
1

25
26
27
28

Petitioner is incarcerated at High Desert State Prison,
see Cal. Dep’t Corr. & Rehab. Inmate Locator, https://
inmatelocator.cdcr.ca.gov (search for “Damen” with “Rabb”) (last
visited Sept. 20, 2019), whose warden is M. Eliot Spearman.
Spearman is therefore substituted in as the proper Respondent.
See Fed. R. Civ. P. 25(d); see also R. 2(a), Rs. Governing § 2254
Cases in U.S. Dist. Cts.
1

Pet. App. D-20

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 2 of 62 Page ID #:2748

1

PROCEEDINGS

2

On March 1, 2017, Petitioner, through counsel, submitted a

3

Successive Petition for Writ of Habeas Corpus by a Person in

4

State Custody, which the Ninth Circuit Court of Appeals

5

subsequently gave him permission to file.

6

Respondent moved to dismiss the Successive Petition, arguing that

7

it does not meet the requirements of 28 U.S.C. § 2244(b) and

8

alternatively that it is untimely and raises mostly unexhausted

9

claims.

On October 8, 2018,

On February 1, 2019, Petitioner filed opposition; on May

10

2, Respondent filed a reply.

11

the Court recommends that judgment be entered granting

12

Respondent’s motion to dismiss and dismissing the Successive

13

Petition with prejudice.

14

For the reasons discussed below,

BACKGROUND

15

On June 13, 2007, Petitioner was convicted by a Los Angeles

16

County Superior Court jury of two counts each of carjacking and

17

second-degree robbery.

18

The jury further found true several firearm and gang

19

enhancements.

20

suffered two prior “strike” convictions and sentenced him to

21

prison for 75 years to life.

22

I.

23

(Id.)

(Lodged Doc. 1, Clerk’s Tr. at 198-201.)

The court found that Petitioner had

(Id. at 237-41, 244-45.)

Summary of the Evidence at Trial
The factual summary in a state appellate-court decision is

24

entitled to a “presumption of correctness” under § 2254(e)(1).

25

See Crittenden v. Chappell, 804 F.3d 998, 1010 (9th Cir. 2015).

26

But see Murray v. Schriro, 745 F.3d 984, 1001 (9th Cir. 2014)

27

(noting “state of confusion” in circuit’s law concerning

28

interplay of § 2254(d)(2) and (e)(1)).

Nonetheless, because

2

Pet. App. D-21

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 3 of 62 Page ID #:2749

1

Petitioner claims that newly discovered evidence establishes his

2

innocence, the Court has independently reviewed the state-court

3

record.

4

2017).

5

statement of facts from the California Court of Appeal decision

6

affirming his convictions fairly and accurately summarizes the

7

relevant evidence.

Cf. Nasby v. McDaniel, 853 F.3d 1049, 1054-55 (9th Cir.
Based on that review, the Court finds that the following

8

On September 19, 2005, at approximately 1:30 a.m.,

9

Los Angeles Police Department (LAPD) Officer David Ashley

10

received a radio call broadcast that possible crimes had

11

occurred at a gas station on the corner of Figueroa

12

Street

13

receiving the radio call, Officer Ashley arrived at the

14

location and was flagged down by Maurice Farmer (Farmer)

15

and DeShawn Chappell (Chappell).

16

nervous and upset, told Officer Ashley that a man had

17

pointed a gun at him, asked him where he was from, and

18

then took his car.

19

Black male wearing a light blue T-shirt, medium build,

20

five feet six inches tall, with light skin, braids in his

21

hair, a tattoo of a teardrop under his right eye, and a

22

tattoo of a hand and finger on his forearm.

23

told

24

involved in the incident.

25

broadcasted the information he received from Farmer to

26

LAPD units and stayed at the gas station with Farmer and

27

Chappell.

and

Vernon

Officer

Avenue.

Within

five

minutes

of

Farmer, who appeared

Farmer described the assailant as a

Ashley

that

a

green

Toyota

Farmer also
Camry

was

Officer Ashley immediately

28
3

Pet. App. D-22

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 4 of 62 Page ID #:2750

1

Around the same time, at approximately 1:30 a.m.,

2

LAPD Sergeant Frank Banuelos was on routine patrol.

3

saw a green Camry speeding with its lights off.

4

the green Camry failed to stop at a red light, Sergeant

5

Banuelos initiated a traffic stop.

6

West 45th Street, approximately one mile away from the

7

gas station where Farmer’s car had been taken.

8

Banuelos parked approximately 30 feet away from the

9

stopped Camry and illuminated the area with his police

10

He

After

The stop occurred on

Sergeant

vehicle’s overhead lights and spotlight.

11

The driver and a passenger exited the green Camry.

12

The passenger stared at Sergeant Banuelos for two to four

13

seconds and then ran away.

14

Sergeant Banuelos had the opportunity to observe that the

15

passenger was a heavyset Black male wearing a light blue

16

long sleeved shirt, and had light skin, braided hair, and

17

a tattoo of a teardrop on his right cheek.

18

Banuelos radioed for assistance in setting up a perimeter

19

and then detained the driver, who was later identified as

20

Kendra Brown (Brown).

21

into custody, Brown spontaneously asked him whether her

22

detention was related to what happened “at the gas

23

station.” Sergeant Banuelos asked Brown what gas station

24

she was referring to, and she identified the gas station

25

on Figueroa Street and Vernon Avenue.

26

Sergeant

Before the passenger fled,

Sergeant

As the sergeant was placing Brown

Banuelos

immediately

called

the

LAPD

27

communications division to inquire about whether there

28

had been a request for service at a gas station on
4

Pet. App. D-23

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 5 of 62 Page ID #:2751

1

Figueroa Street and Vernon Avenue and was connected

2

through to Officer Ashley. Officer Ashley explained that

3

he was at that location investigating a carjacking and

4

that the suspect vehicle was a green Camry.

5

Banuelos left Brown with another unit at the 45th Street

6

location and drove to the gas station. He arrived at the

7

gas station approximately 15 minutes after the incident

8

had occurred.

Sergeant

9

According to Sergeant Banuelos, both Farmer and

10

Chappell appeared under “stress” from the incident. They

11

were pacing back and forth and appeared “excited . . .

12

mad,

13

testified that he had difficulty calming them down in

14

order to speak with them.

15

Farmer first, who told Sergeant Banuelos that he had been

16

robbed of his vehicle and some personal property at

17

gunpoint.

18

him the following: Farmer was pumping gas into his

19

Chevrolet Equinox when a green Camry, driven by a woman,

20

approached him.

21

pointed a gun at Farmer, and asked Farmer where he was

22

from. Meanwhile, another man carrying a gun[] exited the

23

Camry from the rear right passenger door and acted as a

24

lookout.

25

gang member.

26

said to Farmer “It’s that 40’s life,” and then took $15

27

from Farmer’s person.

28

from Farmer, the assailant instructed Chappell to get out

[and]

physically

shaken.”

Sergeant

Banuelos

Sergeant Banuelos spoke with

Sergeant Banuelos testified that Farmer told

A man (the assailant) exited the Camry,

Farmer told the assailant that he was not a
The assailant pointed the gun at Farmer,

After the assailant took the $15

5

Pet. App. D-24

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 6 of 62 Page ID #:2752

1

of the Equinox.

The assailant asked Chappell whether

2

Chappell had any property and Chappell responded in the

3

negative.

4

Chappell told Sergeant Banuelos that the assailant

5

had pointed a gun at him and had instructed him to get

6

out of the Equinox.

7

boarded the Equinox and drove off. The lookout reentered

8

the green Camry and that car drove off as well. Chappell

9

stated that during the incident, he was afraid that he

10

Chappell complied and the assailant

would die.

11

According to Sergeant Banuelos, both Farmer and

12

Chappell described the assailant as a Black male with a

13

blue shirt, braids, a tattoo on his face, and a tattoo on

14

his forearm of a hand making a gang sign.

15

Back at the 45th Street location, LAPD Officer Eddie

16

Martinez was standing by with Brown in custody.

17

later identified as Earl Parron (Parron), walked up to

18

the scene and asked the officers “what was going on.”

19

Parron, who is Black, had broken leaves on his sweater.

20

Officer Martinez and his partner decided to detain Parron

21

because Sergeant Banuelos had told them that a Black male

22

had fled from the scene earlier and Parron appeared as

23

though he might have been running or possibly hiding

24

based on the broken leaves on his sweater. When Sergeant

25

Banuelos

26

indicated that Parron was not the man that he saw fleeing

27

from him earlier when he pulled over the green Camry.

returned

to

the

45th

Street

A man,

location,

he

28
6

Pet. App. D-25

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 7 of 62 Page ID #:2753

1

Around the same time, Officer Ashley transported

2

Farmer and Chappell to the 45th Street location for a

3

field showup.

4

Farmer and Chappell approached the location, they saw the

5

green Camry and yelled: “That’s the car, that’s the car.”

6

Farmer and Chappell also told Officer Ashley that they

7

recognized Brown as the driver of the green Camry and

8

Parron as the lookout.

9

that Parron and the assailant were carrying blue steel

According to Officer Ashley, as soon as

They further told Officer Ashley

10

revolvers.

Officers searched the green Camry and found

11

three loaded blue steel revolvers in the trunk.

12

That night, Sergeant Banuelos learned that the green

13

Camry was registered to a person named Tequila Richmond

14

(Richmond).

15

address. The officers asked her about the whereabouts of

16

her vehicle and she told them that the green Camry

17

belonged to her and that she had loaned it to “Damen

18

Rabb,” her boyfriend.

19

officers to run a check on that name and they sent him a

20

booking photograph of [Petitioner].

21

Banuelos

22

photograph, i.e., [Petitioner], was the person that fled

23

from him on the night of the incident.2 [FN2]

He sent two officers to Richmond’s home

testified

Sergeant Richmond asked station

that

the

At trial, Sergeant

person

in

the

booking

24
25
26
27
28

2

The court of appeal’s summary of the evidence does not
explain how Petitioner could have been riding in the Camry with
Brown when Sergeant Banuelos stopped the car, just a couple of
minutes after the robbery, when only a few minutes earlier he was
seen driving away in the Equinox. It appears from the evidence
(continued...)
7

Pet. App. D-26

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 8 of 62 Page ID #:2754

1

[FN2] The booking photograph depicts a teardrop

2

tattoo on the left side of [Petitioner’s] face, and

3

not

4

originally recalled.

5

was shown the booking photograph and testified that

6

with the benefit of the photograph, he recalled

7

that the tear drop was indeed on the left side of

8

[Petitioner’s] face.

9

On

the

right

September

side

20,

as

Sergeant

Banuelos

had

At trial, Sergeant Banuelos

2005,

the

next

day,

officers

10

located the Equinox in an area where Brown had told them

11

they would find it.

12
13
2

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

(...continued)
presented at trial that Petitioner would have had time to switch
cars. The Equinox was found “a few blocks” from the intersection
of Vernon and Van Buren, where Banuelos pulled over the Camry and
saw Petitioner jump out and run away; that location in turn was
less than a mile west of where the robbery and carjacking took
place, at the gas station on Vernon and Figueroa. (See Lodged
Doc. 2, 3 Rep.’s Tr. at 1282, 1284, 1310.) The victims observed
both cars drive west on Vernon after the incident. (Id. at
1293.) Thus, it is plausible that as the prosecution argued at
trial, Petitioner, Brown, and Parron had time to “swap drivers,
swap passengers” and “give Mr. Parron a couple chances to move,
park the Equinox a couple blocks away from his house” before
coming back to meet Petitioner and Brown near the intersection of
Vernon and Van Buren. (Id. at 1530.) Petitioner contends that
other evidence — for instance, that when Banuelos first saw the
Camry it was traveling back toward the gas station — shows that
he hadn’t been inside it. (See Opp’n at 41-42.) But the jury
found otherwise, and on habeas review a court “must respect the
province of the jury to determine the credibility of witnesses,
resolve evidentiary conflicts, and draw reasonable inferences
from proven facts by assuming that the jury resolved all
conflicts in a manner that supports the verdict.” Walters v.
Maass, 45 F.3d 1355, 1358 (9th Cir. 1995). In any event, as
discussed in Section II.B of the Discussion, ample evidence
corroborates Petitioner’s guilt.
8

Pet. App. D-27

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 9 of 62 Page ID #:2755

1

Also, on that day, LAPD Detective Theodore Williams

2

interviewed Parron, who was in custody, after Parron had

3

waived

4

Williams, Parron told him the following: On the day of

5

the incident, Parron, Brown, and [Petitioner] were at the

6

gas station on Figueroa Street and Vernon Avenue when

7

they saw Farmer and Chappell.

8

he

9

instructed Parron to act as his “backup” in case problems

his

Miranda

wanted

to

talk

with

According

Detective

[Petitioner] stated that

Farmer

[Petitioner]

to

Chappell,

11

handguns at the time.

12

Farmer and Chappell, board the Equinox, and drive off.

13

Detective

14

display that contained [Petitioner]’s photograph and

15

presented it to Parron.

16

photograph and identified [Petitioner] as the individual

17

who took Farmer’s Equinox at gunpoint.

18

interview

19

nervous and scared.

20

of no contest to one count of carjacking.

21

was arrested sometime after the incident in question.

with

Parron

were

and

arose.

Williams

and

and

10

22

Both

rights.

carrying

Parron saw [Petitioner] approach

prepared

a

six-pack

photographic

Parron circled [Petitioner]’s

Detective

Williams,

During the

Parron

appeared

Parron subsequently entered a plea
[Petitioner]

At the time of trial, Farmer and Chappell were in

23

custody

on

murder

charges

24

Outside

the

25

invoked

26

self-incrimination and the trial court ruled that they

27

would not be required to take the witness stand at

28

[Petitioner]’s trial. Brown, who was in custody pursuant

presence

their

of

Fifth

for

the

unrelated

jury,

Amendment

both

incidents.
individuals

right

against

9

Pet. App. D-28

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 10 of 62 Page ID #:2756

1

to a plea agreement, also invoked her Fifth Amendment

2

right against self-incrimination outside the presence of

3

the jury and refused to testify.

4

At trial, Parron testified that he did not recall

5

who he was with on September 19, 2005, nor did he recall

6

being at the gas station on Figueroa Street and Vernon

7

Avenue on that date.

8

acquainted with [Petitioner] and did not recognize [him].

9

Parron denied ever speaking with Detective Williams and
identifying

Parron testified that he was not

10

denied

[Petitioner]

in

11

display.

12

Rolling 40’s Neighborhood Crips gang.

a

photographic

Parron admitted to being a member of the

13

LAPD Officer Brian Richardson, the prosecution’s

14

gang expert, testified that the Rolling 40’s Neighborhood

15

Crips is a criminal street gang whose primary activities

16

include the commission of various crimes that are listed

17

in section 186.22, subdivision (e). According to Officer

18

Richardson, [Petitioner] was a member of the Rolling 40’s

19

Neighborhood Crips on September 19, 2005 . . . .

20

prosecution showed Officer Richardson photographs of

21

tattoos on [Petitioner]’s face, torso, and arms. Officer

22

Richardson confirmed that [Petitioner] had a tattoo of a

23

teardrop underneath his left eye and a tattoo of a hand

24

making a gang sign on his arm.

25

. . .
On

26

behalf

of

the

defense,

private

The

investigator

27

Daniel Mendoza (Mendoza) testified that in May of 2007,

28

he

interviewed

Parron

while

Parron

was

in

custody.

10

Pet. App. D-29

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 11 of 62 Page ID #:2757

1

During the interview, Parron told Mendoza the following:

2

On the night of September 19, 2005, Parron consumed two

3

grams of marijuana, two ecstasy pills, and a bottle of

4

vodka at a party.

5

coerced him into making certain incriminating statements.

6

Parron denied knowing [Petitioner] and stated that he did

7

not recognize [Petitioner]’s photograph.

After Parron was detained, the police

8

(Lodged Doc. 8 at 3-8 (some footnotes omitted).)

9

II.

10

Original Proceedings in Federal Court
On June 17, 2011, Petitioner filed a federal habeas petition
See Pet. & Traverse, Rabb v. Lopez,

11

challenging his convictions.

12

No. CV 11-5110-JAK (JPR) (C.D. Cal. June 17, 2011 & May 10,

13

2012), ECF Nos. 1 & 33.

14

relief: (1) the trial court violated Petitioner’s constitutional

15

right to confront the witnesses against him when it allowed the

16

two victims to invoke their Fifth Amendment privilege against

17

self-incrimination and refuse to testify without first requiring

18

them to be questioned about it under oath (Pet. at 5; Traverse at

19

8, 18-20, 24-25); (2) the trial court violated his right to

20

confront witnesses when it allowed Banuelos to testify to

21

out-of-court statements made by the victims 15 minutes after the

22

crimes (Pet. at 5; Traverse at 8, 18-20, 24-25); (3) the trial

23

court violated his Eighth and 14th amendment rights when it

24

sentenced him separately for carjacking and robbery (Pet. at 6;

25

Traverse at 9-13, 28-29); and (4) the trial court violated his

26

Sixth and 14th amendment rights when it denied the defense’s

27

request for additional funds for an eyewitness-identification

The Petition raised four grounds for

28
11

Pet. App. D-30

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 12 of 62 Page ID #:2758

1

expert, thus precluding the expert from testifying at trial (Pet.

2

at 6; Traverse at 15-17, 21-23, 26-27).

3

On May 29, 2012, Petitioner requested an evidentiary hearing

4

to resolve “major factual disputes . . . including issues of

5

ineffective assistance of counsel, professional misconduct, and

6

the trial courts [sic] rulings.”

7

v. Lopez, No. CV 11-5110-JAK (JPR) (C.D. Cal. May 29, 2012), ECF

8

No. 35.

9

withheld” a surveillance tape that would prove his innocence and

10

requested that the Court order production of the tape, attaching

11

to his request a property receipt for a tape received by the LAPD

12

one hour after the crimes.

13

he followed up with a “Request for Discovery” of the tape.

14

Req. for Disc., id., ECF No. 42.

15

denied both requests, finding that the tape pertained exclusively

16

to unexhausted — albeit “serious” — claims of prosecutorial

17

misconduct and actual innocence.

18

Req. for Evid. Hr’g at 1, Rabb

He claimed that the prosecution had “maliciously

Id. at 3-4, 6.

On August 23, 2012,
See

On October 25, 2012, the Court

Order at 2, id., ECF No. 47.3

Meanwhile, on July 2, 2012, the Court issued a Report and

19

Recommendation, recommending that the Petition be denied on the

20

merits; on October 25, the Honorable John A. Kronstadt, U.S.

21
22
23
24
25
26
27
28

3

On December 4, 2012, Petitioner filed a habeas petition in
the superior court, claiming that the tape was wrongly withheld
by the prosecution. (Lodged Doc. 16 at 3.) On March 8, 2013,
the District Attorney’s Office filed an informal response,
reporting that “the [LAPD] ha[d] searched for the . . .
surveillance tape . . . but ha[d] been unable to locate it.”
(Lodged Doc. 17 at 2.) The petition was denied on April 9, 2013.
(Lodged Doc. 15 at 27.) On December 6, 2013, Petitioner raised
the same claim in the court of appeal (see Lodged Doc. 19), which
summarily denied it on April 1, 2014 (see Lodged Doc. 20). He
does not appear to have raised it in the supreme court.
12

Pet. App. D-31

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 13 of 62 Page ID #:2759

1

District Judge, accepted the Report and Recommendation.

2

Lopez, No. CV 11-5110-JAK (JPR), 2012 WL 5289576 (C.D. Cal. July

3

2, 2012), accepted by 2012 WL 5289593 (C.D. Cal. Oct. 25, 2012),

4

aff’d Rabb v. Sherman, 646 F. App’x 564 (9th Cir. 2016).

5

Rabb v.

On November 28, 2012, Petitioner moved for relief from the

6

Judgment under Federal Rule of Civil Procedure 60(b), claiming

7

that the Petition was erroneously denied.

8

Relief from J., id., ECF No. 50.

9

denied the motion.

See Nov. 28, 2012 Mot.

On December 11, 2012, the Court

See Order, id., ECF No. 52.

Petitioner

10

appealed, and on November 25, 2013, construing his filing as a

11

request for a certificate of appealability, the Ninth Circuit

12

granted the request as to his two Confrontation Clause claims.

13

Order at 1, Rabb v. Sherman, No. 13-55057 (9th Cir. Nov. 25,

14

2013), ECF No. 11.

It also granted his request that he be

15

appointed counsel.

Id. at 2.

16

Court’s judgment.

17

Cir. 2016).

18

III. Subsequent Developments

19

On March 29, 2016, it affirmed the

Rabb v. Sherman, 646 F. App’x 564, 565 (9th

On September 9, 2014, while his appeal was pending,

20

Petitioner, through his recently appointed counsel, filed a

21

habeas petition in Los Angeles County Superior Court.

22

Lodged Doc. 21.)

23

for failing to (1) introduce into evidence Farmer’s and

24

Chappell’s pretrial statements to a defense investigator that

25

they did not recognize Petitioner as the man who robbed them as

26

well as an alibi witness’s pretrial statement that Petitioner was

27

with her the night of the crimes (id. at 13-18); (2) capitalize

28

on Chappell’s admission that he and Farmer were gang members and

(See

He claimed that trial counsel was ineffective

13

Pet. App. D-32

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 14 of 62 Page ID #:2760

1

that he was not scared during the crimes and on the

2

inconsistencies between their statements to the investigator and

3

Banuelos’s account of their statements to him (id. at 18-26); (3)

4

hire an eyewitness-identification expert despite obtaining

5

sufficient funds from the court to do so (id. at 26-35); (4)

6

object on hearsay grounds to Banuelos’s testimony that Richmond

7

told police officers that she had loaned him the Camry used

8

during the crimes (id. at 35-38); (5) request or review the

9

surveillance tape collected from the scene of the crime (id. at

10

38-41); (6) challenge the LAPD’s destruction of the tape and of

11

the guns recovered from the Camry and seek suppression of any

12

reference to the guns at trial (id. at 41-44); and (7)

13

investigate Petitioner’s innocence by searching for other Rollin’

14

40’s Crips members who matched the victims’ description of the

15

perpetrator (id. at 45).

16

appellate counsel was ineffective for failing to challenge trial

17

counsel’s effectiveness (id. at 49-50); newly discovered evidence

18

demonstrated that he was actually innocent (id. at 50-51); the

19

prosecution engaged in misconduct (id. at 52-56); and the

20

cumulative trial errors required that his convictions be

21

overturned (id. at 56-59).

22

He raised four other claims as well:

On August 11, 2015, the superior court denied the petition,

23

finding that Petitioner’s actual-innocence claim was not

24

cognizable on habeas review because it was based on arguments

25

that “either could have been . . . or were raised on appeal” and

26

that the rest of his claims were procedurally barred because they

27

relied exclusively on facts that “were known at the time of the

28

conviction or shortly thereafter” and could have been raised in
14

Pet. App. D-33

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 15 of 62 Page ID #:2761

1

his previous state habeas petitions.

(Lodged Doc. 15 at 27-28.)

2

Further, he “had failed to justify the significant delay in

3

seeking habeas relief.”

(Id. at 27.)

4

claims on their merits.

(Id. at 27-28.)

5

the California Appellate Courts Case Information website shows

6

that the only state-court filing Petitioner has made since was a

7

habeas petition in the supreme court on April 4, 2019; it is

8

unclear what claims he raised in that petition, which is still

9

pending.

It also rejected his
The Court’s review of

See Cal. App. Cts. Case Info., https://

10

appellatecases.courtinfo.ca.gov/search.cfm?dist=0 (search for

11

“Damen” with “Rabb”) (last visited Sept. 20, 2019).

12

On December 21, 2014, Petitioner filed a second Rule 60(b)

13

motion for relief from the Petition’s denial.

Dec. 21, 2014 Mot.

14

Relief from J., Rabb v. Lopez, No. CV 11-5110-JAK (JPR) (C.D.

15

Cal. Dec. 21, 2014), ECF No. 63.

16

supporting [his] innocence” — Farmer’s, Chappell’s, and the alibi

17

witness’s pretrial statements to the defense investigator — had

18

been in trial counsel’s possession but “ha[d] not previously been

19

presented” to any court and supported an “extremely strong

20

ineffective assistance of counsel claim.”

21

explained that he wished to “coalesce” the issues raised in the

22

September 2 state habeas petition with those in the initial

23

federal Petition “rather than being forced to pursue a successive

24

petition.”

25

A, id., ECF No. 70.

26

motion as a veiled successive petition.

27

No. 72.

He argued that “information

Id. at 1, 7-13.

He

Id. at 1; see Reply to Supp. 60(b) Mot. at 4 & Add.
On August 10, 2015, the Court denied the
Order at 10-13, id., ECF

28
15

Pet. App. D-34

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 16 of 62 Page ID #:2762

1

On March 1, 2017, Petitioner sought the Ninth Circuit’s

2

permission to file the Successive Petition.

Appl., Rabb v.

3

Spearman, No. 17-70600 (9th Cir. Mar. 1, 2017), ECF No. 1.

4

Respondent filed opposition on April 2, 2018, and Petitioner

5

filed a reply on May 23.

6

On July 13, 2018, the Ninth Circuit granted his motion, finding

7

that he had made a “prima facie showing for authorization under

8

§ 2244(b)(2)(B).”

9

“express[ed] no opinion as to the merits of [his] claims or

Opp’n & Reply, id., ECF Nos. 11 & 14.

Order, id., ECF No. 16.

The court

10

whether the procedural requirements of 28 U.S.C. §§ 2244(d) and

11

2254 are satisfied.”

12

IV.

Id.

Relevant Record

13

A.

14

Before Petitioner’s June 2007 trial, a defense investigator

15

separately interviewed Farmer and Chappell, showing each of them

16

a photo lineup to see whether they recognized anyone who was

17

involved in the carjacking.

18

Neither man did.4

19

Contemporaneous Evidence Not Presented at Trial

(Opp’n, Exs. 9 at 1 & 10 at 1-2.)

(Id.)

Specifically, on April 18, 2007, the defense investigator

20

met with Farmer at the Los Angeles County Jail, where he was in

21

custody for charges stemming from an unrelated crime.5

(Opp’n,

22
23
24
25
26
27
28

4

The record fails to establish that the lineup actually
contained Petitioner’s photograph. The lineup itself is not
attached to the investigator’s 2007 reports, which do not say
that Petitioner’s photo was included in it. (See Opp’n, Exs. 910; cf. id., Exs. 1-2 (Farmer’s 2016 statement with photograph of
Petitioner shown to him attached).)
5

Farmer told the investigator that he was “in custody for
PC 187.” (Opp’n, Ex. 9 at 1.) California Penal Code section
(continued...)
16

Pet. App. D-35

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 17 of 62 Page ID #:2763

1

Ex. 9 at 1.)6

2

and “asked if he observed anyone . . . that was involved in the

3

carjacking incident.”

4

seconds” and “could not identify anyone that looked like the

5

person(s) that were involved.”

6

police report and indicated that it was “correct” except as

7

follows:

The investigator showed him the “photo line-up”

(Id.)

He looked at it for “several

(Id.)

Farmer also reviewed the

8

Farmer related that at the gas station he didn’t get a

9

real good look at the main suspect because he was always

10

behind

him.

He

recall[ed]

the

main

suspect

had

a

11

ponytail and not braids.

12

if he had any tattoos. [Farmer] said that he recalls

13

being taken to the location of a traffic stop and doesn’t

14

think he could identify the suspect vehicle or anyone at

15

the scene. . . .

16

doesn’t remember if he had a gun.

17

standing far away and it was dark and he didn’t get a

18

good look at him.

Further, he could not remember

Regarding the second suspect, [Farmer]

19

(Id.)

20

he did not view a lineup.

The suspect was

The police never showed him photographs of suspects, and
(Id.)

Farmer added that it had “been

21
22
23
5

24
25
26
27
28

(...continued)
187(a) defines murder.
6

The Successive Petition references 18 exhibits. These
were attached to the petition when it was filed in the Ninth
Circuit but were not docketed when it was subsequently filed in
this Court. Petitioner has filed them as attachments to his
Opposition to the motion to dismiss, and the Court cites to them
accordingly.
17

Pet. App. D-36

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 18 of 62 Page ID #:2764

1

a long time since the incident took place and he [didn’t] want to

2

get anyone in trouble.”

(Id.)

Six days later, on April 24, 2007, the investigator met with

3
4

Chappell, a minor at the time, at Sylmar Juvenile Hall.

(Opp’n,

5

Ex. 10 at 1.)

6

identified Farmer as his codefendant in that case.

7

were longtime friends and members of the same gang.

8

investigator showed him the photo lineup, and he could not

9

identify anyone who “looked like any of the suspects in the

Chappell was also “in custody for a PC 187” and
They

(Id.)

The

10

carjacking incident.”

11

driven a friend’s SUV to a gas station.

12

pumping gas into the SUV, Chappell noticed a man and woman

13

standing by a Toyota Camry that was parked at an adjacent pump.

14

(Id.)

15

“braided hair to the shoulders and a tattoo of an arm and hand

16

with two fingers and a thumb sticking out” on his “inerarm [sic]

17

area . . . extend[ing] from his elbow to the wrist”; Chappell

18

believed the tattoo identified him as a member of the

19

Neighborhood Crips.

20

(Id.)

(Id.)

That night, he and Farmer had
(Id.)

While Farmer was

Subsequently, the SUV’s door was opened by a man with

(Id.)

The man pointed a revolver at him and demanded money; when

21

he responded that he did not have any, the man ordered him out of

22

the SUV.

23

man and woman standing by the Camry got back in that car and

24

followed suit.

25

scared when the suspect pointed the gun at him.”

26

responded that “he wasn’t scared but thought he might get shot if

27

he didn’t do what he was told.”

(Id.)

The man then got in the SUV and drove off; the

(Id.)

The investigator asked Chappell “if he was
(Id. at 2.)

He

(Id.)

28
18

Pet. App. D-37

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 19 of 62 Page ID #:2765

1

Subsequently, the police took Farmer and him “to the

2

location of a traffic stop to try and identify possible

3

suspects.”

4

if he identified the car or not”; “[h]e did not identify the

5

female but thinks he identified the male as the lookout.”

6

He was “ask[ed] some questions about the incident” by officers,

7

who did not “tak[e] any notes.”

8

(Id. at 1.)

“On arrival Maurice7 said he wasn’t sure

(Id.)

(Id.)

Before trial, the defense investigator also interviewed

9 Penn.

(Opp’n, Ex. 12 at 1.)

She stated that she was

10 Petitioner’s girlfriend8 and that on September 18, 2005, at
11 “about” 5 or 6 p.m., he “arrived at her house with Kendra Brown
12 and another friend only known as ‘Baby S’” in a “small”
13 “burgundy” car.

(Id.)

At midnight, Brown and “Baby S” left on

14 foot; Petitioner “stayed the night and didn’t leave until the
15 next day . . . at around noon.”

(Id.)

The investigator asked

16 Penn if she recalled Petitioner’s car “being stolen or missing
17 that night,” presumably to support a claim that someone else was
18 using the Camry the night of the crimes.

(Id.)

She responded

19 that she “remember[ed] something like that happening but she
20 [wa]s not sure if it was that night or a different night.”
21

(Id.)

At a pretrial proceeding at which Petitioner was present,

22 counsel informed the court that his investigator had interviewed
23
24
25
26
27
28

7

Farmer’s first name is Maurice and Chappell’s is DeShawn.
It’s unclear whether the investigator was summarizing Chappell’s
statement about Farmer’s observations or about his own and simply
referred to him by the wrong name.
8

Richmond, who told police officers that she had loaned the
Camry used in the crimes to Petitioner that night, said she was
Petitioner’s girlfriend. (Lodged Doc. 2, 3 Rep.’s Tr. at 1311.)
19

Pet. App. D-38

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 20 of 62 Page ID #:2766

1 Farmer and Chappell and that they “did not identify” Petitioner
2 as the perpetrator of the carjacking and robbery “when a six-pack
3 photo was shown to them.”

(Lodged Doc. 2, 2 Rep.’s Tr. at 7.)

4 Petitioner was also present when counsel later reiterated that
5 the victims had “not identified [Petitioner] through the six
6 packs that were presented to them by [the] investigator.”
7 at 601, 604.)

(Id.

Later, during a break in the trial testimony, the

8 prosecutor objected to the introduction into evidence of Farmer’s
9 and Chappell’s statements or of their “failure to identify”
10 Petitioner in a six-pack photo lineup.
11 Tr. at 1501.)

(Lodged Doc. 2, 3 Rep.’s

Defense counsel responded that he wished to ask

12 the “victim who testified” about his failure to identify
13 Petitioner.

(Id. at 1502.)

The prosecutor pointed out that

14 neither of the victims had testified, to which defense counsel
15 responded, “This is not going to be any kind of testimonial
16 statement” and “is for the purpose of whether any of the
17 witnesses identified [Petitioner] from a six-pack photo.”

(Id.)

18 The court denied the request, finding that the proposed testimony
19 constituted inadmissible hearsay.
20
21
22

B.

(Id. at 1502-03.)

New Evidence
1.

Farmer’s and Chappell’s 2016 declarations

Habeas counsel met with Farmer on March 4, 2016, and

23 Chappell on April 21.

(Opp’n, Exs. 2, 12.)

He obtained

24 declarations made under penalty of perjury from both men, who
25 were each incarcerated: Farmer for involuntary manslaughter and
26 robbery, see Farmer v. Biter, No. CV 16-589 DMG(JC), 2016 WL
27 447793, at *1 (C.D. Cal. Feb. 3, 2016), and Chappell for murder
28 (a crime in which Farmer also participated) (see Opp’n, Ex. 13).
20

Pet. App. D-39

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 21 of 62 Page ID #:2767

1

Farmer stated that he “remember[ed]” the man who robbed and

2 carjacked him and that Petitioner — whose photograph habeas
3 counsel showed him — was not that man.9

(Opp’n, Ex. 2 at 1.)

He

4 recalled that he was “carrying a gun” when he spoke to police
5 officers the night of the crimes.

(Id.)

Habeas counsel informed

6 him that police officers had testified that he was “stress[ed],”
7 “pacing back and forth,” “acting excited,” “mad,” and “physically
8 shaken.”

(Id.)

Farmer stated that “none” of those things were

9 “true” — “[he] was not scared” and “was calm.”

(Id.)

The man

10 who robbed him “never said this is Forty Crip or any thing [sic]
11 about gangs.”
12

(Id.)

Chappell recounted that “[t]he person who carjacked [Farmer

13 and him] had a tattoo on his right arm,” and he “never saw one on
14 his left arm”; he did not “recall the tattoo being of a hand
15 making any kind of sign” and did not remember seeing any other
16 tattoos.

(Opp’n, Ex. 11 at 1.)

17 white t-shirt.”

(Id.)

The perpetrator was “wearing a

Police officers “never took” Farmer and

18 him “to see the Camry,” and he “never identified any car.”

(Id.)

19 He was “told” that officers claimed Farmer and he “were under
20 stress and acting excited.”

(Id.)

He stated that that was

21 “completely untrue” — he had “had plenty of guns pulled on [him]
22 before” as that was “part of [his] lifestyle as a member of
23 Broadway Crips.”

(Id.)

24
25
26
27
28

9

Nothing in the record indicates when the photo of
Petitioner that Farmer was shown in 2016 was taken. It may have
been taken as many as 10 years after the crimes.
21

Pet. App. D-40

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 22 of 62 Page ID #:2768

1
2

2.

Dr. Shomer’s 2014 declaration

Habeas counsel also obtained a declaration from Dr. Robert

3 Shomer, a practicing psychologist and professor of psychology
4 previously qualified as an expert witness in eyewitness
5 perception and identification.

(Opp’n, Ex. 4 at 1.)

In early

6 2007, he was contacted by trial counsel to “consider appointment
7 as an expert witness in eyewitness identification” in
8 Petitioner’s case.

(Id.)

He quoted counsel his “usual and

9 customary rate for Los Angeles local cases,” which was then $2000
10 for “review, evaluation, consultation, and testimony.”
11 2.)

(Id. at

He “reviewed the case file” and prepared an “evaluation” —

12 services for which he billed $999 — and was “ready to testify”
13 but was never asked to do so.

(Id. at 3.)

He “only recently

14 learned” that the trial court had authorized $1800 for his
15 services.

(Id.)

Although “$2000 was [his] standard fee[,] . . .

16 [he] ha[d] made exceptions in numerous cases.”

(Id.)

In some

17 instances, trial counsel or a defendant’s family would “cover a
18 small shortfall”; sometimes he had “simply taken less.”

(Id.)

19 If counsel had asked him to accept $1800 to testify in
20 Petitioner’s case, he “would have done so.”
21

(Id.)

He explained that “[e]yewitness identification was a

22 significant piece of evidence in [Petitioner’s] case.”

(Id.)

23 His testimony would have addressed the weaknesses in Banuelos’s
24 identification of Petitioner as the man he saw flee from the
25 Camry, including “problems with lighting, distance, and
26 duration,” “cross-racial identification[s],” and identifying
27 strangers.

(Id. at 2.)

He would also have testified that

28 Banuelos’s identification may have been affected by
22

Pet. App. D-41

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 23 of 62 Page ID #:2769

1 postobservation information he received, identifications made by
2 experienced police officers are no more accurate than those by
3 civilians, and a witness’s confidence in an identification has no
4 correlation to its accuracy.

PETITIONER’S CLAIMS10

5
6

I.

Newly discovered evidence demonstrates that Petitioner

7 is “factually innocent.”
8

(Id. at 3.)

II.

(Successive Pet. at 21-26.)

Petitioner’s trial counsel was ineffective for failing

9 to (1) introduce into evidence Farmer’s, Chappell’s, and Penn’s
10 pretrial statements to a defense investigator (id. at 26-33); (2)
11 capitalize on Chappell’s admission that he and Farmer were gang
12 members and on the inconsistencies between their statements to
13 the investigator and Banuelos’s testimony (id. at 33-37); (3)
14 “highlight” why Banuelos’s testimony was not credible (id. at 3715 41); (4) hire an eyewitness-identification expert despite
16 obtaining sufficient funds from the trial court to do so (id. at
17 41-50); (5) object to testimony that Richmond loaned Petitioner
18 the Toyota Camry as inadmissible hearsay (id. at 50-53); (6)
19 request or review the surveillance tape collected from the scene
20 of the crime (id. at 53-57); (7) challenge the LAPD’s destruction
21
22
23
24
25
26
27
28

10

In his Opposition, Petitioner clarifies that the first
claim of the Successive Petition, asserting his actual innocence
(see Successive Pet. at 21-26), “is not intended to be the
vehicle upon which [he] satisfies section 2244(b)’s
constitutional error requirement” (Opp’n at 6). Rather, he
relies on the arguments laid out in that claim to “explain[] the
major flaws in the testimony of some of the officers at trial.”
(Id.) He also concedes that the third claim of the Successive
Petition, which challenges appellate counsel’s performance (see
Successive Pet. at 67-69), should be dismissed (Opp’n at 19).
Accordingly, the Court does not directly address either claim.
23

Pet. App. D-42

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 24 of 62 Page ID #:2770

1 of the tape and of the guns recovered from the Camry and seek
2 suppression of any reference to the guns during trial (id. at 573 60); and (8) investigate Petitioner’s innocence by searching for
4 other Rollin’ 40’s Crips members who matched the victims’
5 descriptions of the perpetrator (id. at 60-61).
6

III. Appellate counsel was ineffective for failing to

7 challenge trial counsel’s effectiveness.
8

IV.

(Id. at 67-69.)

The trial court violated Petitioner’s constitutional

9 right to confront witnesses when it admitted Banuelos’s testimony
10 about the victims’ statements to him.
11

V.

(Id. at 69-73.)

The prosecution intentionally misled the jury, the

12 court, and the defense about the victims’ gang membership.

(Id.

13 at 74-79.)
14

VI.

The cumulative trial errors require that his

15 convictions be overturned.
16
17

(Id. at 79-83.)

STANDARD OF REVIEW
“The Antiterrorism and Effective Death Penalty Act (‘AEDPA’)

18 instituted a ‘gatekeeping’ procedure for screening second or
19 successive federal habeas corpus petitions.”

Henry v. Spearman,

20 899 F.3d 703, 705 (9th Cir. 2018) (quoting Felker v. Turpin, 518
21 U.S. 651, 657 (1996)).
22

AEDPA “greatly restricts the power of federal courts to

23 award relief to state prisoners who file second or successive
24 habeas corpus applications.”
25 (2001).

Tyler v. Cain, 533 U.S. 656, 661

Specifically, § 2244(b), which governs second or

26 successive habeas petitions, provides:
27
28
24

Pet. App. D-43

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 25 of 62 Page ID #:2771

1

(1) A claim presented in a second or successive habeas

2

corpus application under section 2254 that was presented

3

in a prior application shall be dismissed.

4

(2) A claim presented in a second or successive habeas

5

corpus

6

presented in a prior application shall be dismissed

7

unless

application

under

section

2254

that

was

not

8

(A) the applicant shows that the claim relies on a

9

new rule of constitutional law, made retroactive to

10

cases on collateral review by the Supreme Court,

11

that was previously unavailable; or

12

(B)(i) the factual predicate for the claim could

13

not have been discovered previously through the

14

exercise

15

underlying the claim, if proven and viewed in light

16

of the evidence as a whole, would be sufficient to

17

establish by clear and convincing evidence that,

18

but

19

factfinder would have found the applicant guilty of

20

the underlying offense.

21

for

of

due

diligence;

constitutional

and

(ii)

error,

no

the

facts

reasonable

Thus, under § 2244(b)(1), a claim raised in a successive

22 petition that was “presented in a previous federal habeas
23 petition . . . must be dismissed.”

Tyler, 533 U.S. at 661.

A

24 claim was “previously presented” if “the basic thrust or gravamen
25 of the legal claim is the same, regardless of whether the basic
26 claim is supported by new and different legal arguments . . .
27 [or] proved by different factual allegations.”

Babbitt v.

28 Woodford, 177 F.3d 744, 746 (9th Cir. 1999) (per curiam)
25

Pet. App. D-44

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 26 of 62 Page ID #:2772

1 (citation omitted).

Under § 2244(b)(2), “absent a showing of

2 intervening constitutional law, a successive habeas petitioner
3 must overcome two obstacles to invoke the district court’s
4 jurisdiction.”

Brown v. Muniz, 889 F.3d 661, 668 (9th Cir.

5 2018), cert. denied sub nom. Brown v. Hatton, 139 S. Ct. 841
6 (2019).

First, he must show that the factual predicate for his

7 habeas claim “could not have been discovered at the time of his
8 initial habeas petition” through the “exercise of due diligence.”
9 Id. at 667-68 (citation omitted).

“A petitioner must exercise

10 due diligence in investigating new facts where he is on notice
11 that new evidence might exist” and does not satisfy the due12 diligence requirement “simply by showing he did not know of the
13 new evidence earlier.”

Solorio v. Muniz, 896 F.3d 914, 920 (9th

14 Cir.) (as amended) (emphasis in original), cert. denied, 139 S.
15 Ct. 608 (2018).

Thus, the due-diligence inquiry “turns on two

16 factors: (1) whether the petitioner was on inquiry notice to
17 investigate further, and, if so, (2) whether the petitioner took
18 reasonable steps to conduct such an investigation.”
19

Id. at 921.

If the first requirement is satisfied, a petitioner must

20 then demonstrate that the previously undiscovered facts, if shown
21 to be true, suffice to prove his “actual innocence by clear and
22 convincing evidence.”

Id.

“‘[A]ctual innocence’ means factual

23 innocence, not mere legal insufficiency.”
24 States, 523 U.S. 614, 623 (1998).

Bousley v. United

“The evidence of innocence

25 must be ‘so strong that a court cannot have confidence in the
26 outcome of the trial unless the court is also satisfied that the
27 trial was free of nonharmless constitutional error.’”

Lee v.

28 Lampert, 653 F.3d 929, 937–38 (9th Cir. 2011) (en banc) (quoting
26

Pet. App. D-45

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 27 of 62 Page ID #:2773

1 Schlup v. Delo, 513 U.S. 298, 316 (1995)).

The court must

2 consider “‘all the evidence, old and new, incriminating and
3 exculpatory,’ admissible at trial or not.”

Lee, 653 F.3d at 938

4 (quoting House v. Bell, 547 U.S. 518, 538 (2006)).
5

These requirements are conjunctive, so if either is not

6 satisfied the claim must be dismissed.

West v. Ryan, 652 F.3d

7 1071, 1078 (9th Cir. 2011) (per curiam).

Satisfying the test in

8 § 2244(b)(2) is the only avenue to prosecute a claim of trial
9 error in a successive petition.

See Gage v. Chappell, 793 F.3d

10 1159, 1168-69 (9th Cir. 2015) (holding that miscarriage-of11 justice gateway from Schlup, 513 U.S. at 315, does not apply
12 under § 2244(b)(2) (citing McQuiggin v. Perkins, 569 U.S. 383,
13 394-400 (2013))).
14

Obtaining the appellate court’s permission to file a

15 successive petition, as Petitioner did here, does not
16 automatically entitle the petitioner to merits review of the
17 claims in it.

Instead, the district court must independently

18 determine if each claim in fact satisfies § 2244(b); this
19 requires a petitioner to make more than a prima facie showing.
20 See Tyler, 533 U.S. at 661 n.3 (court of appeals may authorize
21 filing of second or successive petition upon prima facie showing,
22 “[b]ut to survive dismissal in district court, the applicant must
23 actually ‘sho[w]’ that the claim satisfies the standard”).

If

24 the petitioner does not make such a showing, the district court
25 must dismiss the claim.

See § 2244(b)(4).

For the reasons

26 discussed below, Petitioner has failed to make the necessary
27 showing as to any of his claims.
28
27

Pet. App. D-46

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 28 of 62 Page ID #:2774

1

DISCUSSION

2 I.

Petitioner’s Confrontation Clause Claim Must Be Dismissed

3

Because It Was Presented in the Initial Petition

4

The Successive Petition’s fourth claim is an amalgamation of

5 the initial Petition’s first two claims: the trial court erred in
6 permitting Farmer and Chappell to invoke their Fifth Amendment
7 privilege and violated Petitioner’s right to confront them by
8 permitting Banuelos to testify to their statements the night of
9 the crimes.

The claim’s heading reads, “The Trial Court Violated

10 Petitioner’s Constitutional Right to Confront Witnesses When it
11 Admitted the Victims’ Alleged Statements Through Sergeant
12 Banuelos” (Successive Pet. at 69), and Petitioner repeats that
13 assertion in the claim’s body (id. at 72).

But he also argues

14 throughout the claim that Farmer and Chappell were erroneously
15 permitted to invoke their Fifth Amendment privilege.

(Id. at 69-

16 70, 73 (Chappell); id. at 70, 73 (Farmer).)
17

To the extent Petitioner challenges admission of the

18 victims’ statements through Banuelos’s trial testimony, that
19 claim is identical to the second claim of the initial Petition.
20 (See Pet. at 5; Traverse at 8, 18-20, 24-25.)

The Court rejected

21 it, finding that the victims’ statements were nontestimonial and
22 therefore Banuelos’s testimony relaying them did not violate
23 Petitioner’s Confrontation Clause rights, see Rabb, 2012 WL
24 5289576, at *13-16, and the Ninth Circuit affirmed, see 646 F.
25 App’x at 564-65.

Similarly, his claim that the trial court

26 should have questioned the victims under oath before permitting
27 them to invoke their Fifth Amendment privilege was presented in
28 the first claim of the initial Petition.

(See Pet. at 5;

28

Pet. App. D-47

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 29 of 62 Page ID #:2775

1 Traverse at 8, 18-20, 24-25.)

The Court rejected that challenge

2 as well, finding that Farmer was properly permitted to invoke the
3 privilege and that even if Chappell should have been questioned
4 further, any error was harmless, see Rabb, 2012 WL 5289576, at
5 *12-13, and the Ninth Circuit again affirmed, see 646 F. App’x at
6 564.

Because these claims were presented in a prior petition,

7 they must be dismissed under § 2244(b)(1).

See Gonzalez v.

8 Crosby, 545 U.S. 524, 529-30 (2005); Babbitt, 177 F.3d at 746.
9

Petitioner acknowledges that he raised the claims in the

10 initial Petition but attempts to get around § 2244(b)(1) by
11 contending that newly discovered evidence undermines the courts’
12 harmlessness finding.
13 21.)

(See Successive Pet. at 71; Opp’n at 20-

As noted above, the denial of Petitioner’s Confrontation

14 Clause claims relating to Banuelos and to Farmer’s invocation of
15 the Fifth Amendment did not rely on a harmlessness analysis.

And

16 even though the privilege-invocation claim as to Chappell was
17 denied on that basis, any potential impact the newly discovered
18 evidence might have had on the state court’s, this Court’s, and
19 the Ninth Circuit’s harmless-error analysis does not render the
20 claim new for purposes of § 2244(b)(1).

See Cooper v. Brown, 510

21 F.3d 870, 931 (9th Cir. 2007) (“New factual grounds in support of
22 a legal claim that has already been presented . . . are not
23 sufficient to evade the mandatory dismissal requirement of 28
24 U.S.C. § 2244(b).”).

The reason a claim was denied is irrelevant

25 to the § 2244(b)(1) analysis; indeed, even one denied on
26 procedural grounds may not be repeated in a successive petition
27 despite being bolstered by new factual or legal arguments.

See

28 Pizzuto v. Blades, 673 F.3d 1003, 1007–08 (9th Cir. 2012).
29

Pet. App. D-48

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 30 of 62 Page ID #:2776

1 Petitioner may not use new evidence to collaterally attack the
2 record previous courts relied on in resolving his old claims.
3 See Gimenez v. Ochoa, 821 F.3d 1136, 1141 (9th Cir. 2016)
4 (dismissing previously raised ineffective-assistance claim under
5 § 2244(b)(1) even though petitioner may have obtained “additional
6 documents supporting his argument” when “basic thrust or
7 gravamen” is “same” as before (citation omitted)); see also
8 LePage v. Idaho, No. CV 04-0261-E-BLW., 2005 WL 2152882, at *6
9 (D. Idaho Sept. 7, 2005) (rejecting petitioner’s argument that
10 ineffective-assistance claims were not successive because “newly
11 discovered evidence alter[ed] the legal analysis of those
12 claims”).
13

Accordingly, ground four of the Successive Petition must be

14 dismissed.
15 II.

Petitioner’s Remaining Claims Fail Because He Can’t Satisfy

16

Either of § 2244(b)(2)(B)’s Requirements

17

A.

18
19

Petitioner Has Failed to Meet the Due-Diligence
Standard of § 2244(b)(2)(B)(i)

The Successive Petition’s claims rest on evidence that was

20 available but never presented at Petitioner’s 2007 trial as well
21 as on “new evidence” of his innocence and trial counsel’s
22 ineffectiveness.

For the reasons discussed below, Petitioner has

23 failed to show that “the factual predicate[s] for [his] claim[s]
24 could not have been discovered previously through the exercise of
25 due diligence.”
26
27

1.

§ 2244(b)(2)(B)(i).
Ineffective assistance of counsel

Petitioner’s ineffective-assistance claim is divided into

28 eight subclaims.

As a threshold matter, several of these
30

Pet. App. D-49

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 31 of 62 Page ID #:2777

1 subclaims are not based on new factual predicates.

As the

2 superior court found in denying virtually identical claims in
3 Petitioner’s 2014 state habeas petition, they are based entirely
4 on facts “known at the time of [his] conviction or shortly
5 thereafter.”
6
7

(Lodged Doc. 15 at 27-28.)
a.

Old evidence

Petitioner claims that trial counsel was ineffective for

8 failing to object to Banuelos’s testimony that Richmond — the
9 registered owner of the Camry used during the crimes — told two
10 police officers she had loaned the car to Petitioner.
11 Successive Pet. at 50-53.)

(See

According to Petitioner, counsel

12 should have objected because neither Richmond nor the police
13 officers to whom she spoke testified at trial, and Banuelos’s
14 testimony was therefore inadmissible double hearsay.

(See id.)

15 That his hearsay analysis may be correct, and that counsel may
16 have performed deficiently in not objecting, doesn’t change that
17 Petitioner was aware of the factual predicate for this subclaim
18 from the moment counsel failed to object.11
19

Likewise, his claim that “trial counsel was ineffective in

20 failing to investigate [his] innocence” because he didn’t “obtain
21 the Rollin’ 40’s Crips gang book and search[] for other
22 individuals who better matched” Banuelos’s description of the
23 suspect (Successive Pet. at 60-61) could have been raised at any
24
25
26
27
28

11

When habeas counsel asked trial counsel in 2014 about his
“failure to object to double hearsay,” counsel apparently stated
that he could not “recall any strategies” for not objecting
because “the case was a long time ago.” (Opp’n, Ex. 15 ¶ 13.)
But as discussed on page 59 below, at least one such strategy is
apparent on the face of the record.
31

Pet. App. D-50

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 32 of 62 Page ID #:2778

1 point since trial.12

See Jones v. Ryan, 733 F.3d 825, 844–45 (9th

2 Cir. 2013) (holding that ineffective-assistance claim did not
3 satisfy § 2244(b)(2)(B)(i) when petitioner “offered no indication
4 that the factual predicate,” which “occurred . . . at
5 [petitioner’s] trial and sentencing” and “was known to
6 him . . . and could have been raised then,” could not have been
7 discovered previously through exercise of due diligence).
8

Petitioner’s claim that counsel was ineffective for

9 allegedly failing to request or watch the surveillance tape
10 collected from the scene of the crimes (see Successive Pet. at
11 53-57) and for failing to move to suppress any reference to the
12 guns recovered from the Camry (see id. at 57-60) must be
13 dismissed for the same reason.
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

12

Petitioner’s suggestion that this subclaim encompasses
his argument that trial counsel deficiently failed to uncover the
substance of the victims’ 2016 statements, which he claims
established that Banuelos and Ashley lied in their trial
testimony, is unavailing. (See Opp’n at 12-14.) It’s not clear
that habeas counsel even asked trial counsel about his strategy
behind this subclaim. (See id., Ex. 15 ¶¶ 11-13 (listing other
claims he asked counsel about and stating that they also
discussed “other matters”)). That alone would be reason to deny
the claim and demonstrates that Petitioner still has not acted
diligently. See Gentry v. Sinclair, 705 F.3d 884, 899-900 (9th
Cir. 2012) (as amended Jan. 15, 2013) (holding that state court
was not unreasonable in finding counsel’s performance not
deficient as to particular ineffective-assistance-of-counsel
claim when petitioner presented counsel’s affidavit only to
“support claims of deficient performance for other ineffective
assistance claims”). In any event, the subclaim is plainly
limited to counsel’s failure to search for other suspects.
Petitioner may not amend his Petition at this stage to blunt the
force of Respondent’s arguments. Cf. Cacoperdo v. Demosthenes,
37 F.3d 504, 507 (9th Cir. 1994) (without court’s permission, new
habeas claims are not properly raised outside of petition).
32

Pet. App. D-51

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 33 of 62 Page ID #:2779

1

As to the tape, during trial, Detective Williams testified

2 that he had “review[ed] a surveillance video from the gas
3 station.”

(Lodged Doc. 2, 3 Rep.’s Tr. at 1328.)

The video was

4 not “clear,” and he “couldn’t identify any particular person or
5 any particular vehicle” in it.

(Id. at 1329.)

On cross-

6 examination, Petitioner’s counsel implied that he had watched the
7 tape and it was indeed unclear; in a line of questioning designed
8 to show that the police had pressured Parron into identifying
9 Petitioner as his fellow carjacker, he asked Williams about
10 officers allegedly lying to Parron by telling him that “everybody
11 [was] on tape, and they knew who had done this robbery and
12 carjacking.”

(Id. at 1335.)

Nonetheless, on May 29, 2012, less

13 than a year after he filed the initial Petition, Petitioner
14 requested that the Court hold an “evidentiary hearing” to
15 determine whether the prosecution “maliciously withheld” the
16 tape.13

See Req. for Evid. Hr’g at 1, 3-4, 6, Rabb v. Lopez, No.

17 CV 11-5110-JAK (JPR) (C.D. Cal. May 29, 2012), ECF No. 35.

At

18 least as of that time, then, and almost certainly before,
19 Petitioner knew of the factual predicate for this claim.
20

Petitioner also knew at the time of trial that two of the

21 three guns recovered from the Camry had been accidently destroyed
22 because the prosecutor said so in his opening statement (Lodged
23 Doc. 2, 2 Rep.’s Tr. at 928), and Detective Williams testified to
24
25
26
27
28

13

When asked about the tape, trial counsel apparently said
that “he was not aware of any surveillance tape and . . . never
viewed it or sought to view it.” (Opp’n, Ex. 15 ¶ 11.) But as
habeas counsel acknowledges, the record “makes . . . clear that
he was aware of the surveillance tape” at the time of trial.
(Id.) Thus, trial counsel’s memory had apparently simply faded.
33

Pet. App. D-52

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 34 of 62 Page ID #:2780

1 that effect (Lodged Doc. 2, 3 Rep.’s Tr. at 1329-30).

He also

2 knew that counsel did not object to any references to the three
3 guns.14

Thus, Petitioner knew of these issues years ago, that

4 counsel was in a position to raise them, and that he failed to do
5 so.

Accordingly, he was aware of the factual predicates for

6 these subclaims well before he filed the initial Petition and has
7 not exercised due diligence in bringing them.

See Hernandez v.

8 Tampkins, No. SACV 14-764 JLS (FFM), 2015 WL 304794, at *7 (C.D.
9 Cal. Jan. 20, 2015) (finding petition successive when “alleged
10 failings of petitioner’s trial counsel would have been apparent
11 to petitioner at the time of his trial”).
12

Finally, the first two subclaims of Petitioner’s

13 ineffective-assistance claim focus on counsel’s failure to offer
14 into evidence and effectively use the victims’ and Penn’s 2007
15 pretrial statements to the defense investigator.15

(See

16
14

17
18
19
20
21
22
23
24
25
26

Nothing demonstrates that habeas counsel asked trial
counsel about his decision not to object to the sole nondestroyed
gun being admitted into evidence or to references to the other
two guns. (Opp’n, Ex. 15 ¶¶ 11-13 (listing claims he asked
counsel about and stating that they also discussed “other
matters”).) A reasonable attorney could have believed that any
objection would be pointless because ample testimony from
multiple witnesses established that all three guns were recovered
from the Camry, that they matched the descriptions of the guns
used by the perpetrators, and that one of the guns had been
preserved for trial. (See Lodged Doc. 2, 3 Rep.’s Tr. at 123031, 1251, 1263-65, 1298-99, 1329, 1335-36); Strickland v.
Washington, 466 U.S. 668, 690 (1984) (“[S]trategic choices made
after thorough investigation of law and facts relevant to
plausible options are virtually unchallengeable.”). The absence
of a declaration from counsel concerning the decision not to
object would again be reason enough to deny the claim. Gentry,
705 F.3d at 899-900.

27
15

28

When habeas counsel inquired why trial counsel did not
(continued...)
34

Pet. App. D-53

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 35 of 62 Page ID #:2781

1 Successive Pet. at 26-37.)

Particularly, Petitioner claims that

2 those statements established his innocence and could have been
3 used to impeach the police witnesses.

(Id. at 28-33.)

He also

4 asserts that Chappell’s admission that he and Farmer were gang
5 members could have impacted the trial court’s Fifth Amendment
6 analysis.

(Id. at 35-37.)

Even though the statements were not

7 presented at trial, Petitioner was or should have been aware of
8 them and could have used them to mount an ineffective-assistance
9 claim in the initial Petition.
Indeed, Petitioner concedes that counsel possessed the

10

11 defense investigator’s pretrial summaries of Chappell’s,
12 Farmer’s, and Penn’s 2007 statements.
13 6.)

(See Successive Pet. at

Notably, he does not claim that he was ignorant of the

14 statements at the time of trial or deny that he gained possession
15 of them sometime ago.

See Cooper v. Calderon, 274 F.3d 1270,

16 1275 (9th Cir. 2001) (per curiam) (finding § 2244(b)(2)(B)(i) not
17 satisfied when allegedly new evidence was “presented to
18 [petitioner’s] trial counsel during trial” and petitioner did not
19 claim “he recently became aware of trial counsel’s failure to
20 investigate it”).

After all, he was present in court during

21 trial when counsel repeatedly alluded to the victims’ statements
22 to the investigator, emphasizing that they had not identified
23 Petitioner when shown a photo lineup.

(See Lodged Doc. 2, 2

24 Rep.’s Tr. at 1, 7, 601-04, 3 Rep.’s Tr. at 1501-03.)

Moreover,

25
26
27
28

15

(...continued)
“present evidence of [Petitioner’s] innocence” — presumably the
victims’ and Penn’s statements to the investigator — trial
counsel stated that he could not remember because “the case was a
long time ago.” (Opp’n, Ex. 15 ¶ 13.)
35

Pet. App. D-54

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 36 of 62 Page ID #:2782

1 after he was convicted, he obtained trial counsel’s file, which
2 he does not dispute contained copies of their and Penn’s
3 statements.

(See Opp’n, Ex. 15 ¶ 2 (explaining that in his

4 efforts to obtain “trial counsel’s file,” habeas counsel learned
5 that it had been passed along to Petitioner).)
6

And because Petitioner was present during trial, he also was

7 aware that counsel tried but failed to introduce the victims’
8 statements into evidence and did not call Penn as an alibi
9 witness.

Therefore, he was in a position to challenge counsel’s

10 effectiveness on these grounds long before he filed even the
11 initial Petition.

Tellingly, almost immediately after obtaining

12 the trial file from Petitioner, habeas counsel raised the claims
13 Petitioner presses in these two subclaims in his 2014 state
14 habeas petition (see Lodged Doc. 21), thereby erasing any doubt
15 that they could have been raised earlier in this Court.

See

16 Williams v. Soto, No. CV 15-1275-MWF (FFM), 2018 WL 2208041, at
17 *11 (C.D. Cal. Feb. 20, 2018) (dismissing petitioner’s successive
18 petition challenging counsel’s failure to interview and present
19 testimony of two exculpatory witnesses when “years before he
20 filed his first federal habeas petition” he “knew the facts to
21 which they purportedly would have testified” and “knew that, in
22 fact, neither of the proposed witnesses testified at trial”),
23 accepted by 2018 WL 2215977 (C.D. Cal. May 10, 2018), certificate
24 of appealability denied by 2018 WL 6041663 (9th Cir. Sept. 25,
25 2018); Gant v. Barnes, No. CV 14-2618-CJC (SP), 2017 WL 3822063,
26 at *7 (C.D. Cal. July 19, 2017) (“[P]etitioner should have been
27 aware that his trial counsel attempted to have one of his alibi
28 witnesses . . . testify” because he “was present when his
36

Pet. App. D-55

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 37 of 62 Page ID #:2783

1 attorney explained her efforts”), accepted by 2017 WL 3738384
2 (C.D. Cal. Aug. 28, 2017); Evans v. Galaza, No. CV 98-8536-WDK
3 (MLG)., 2012 WL 6193859, at *8 (C.D. Cal. Oct. 2, 2012)
4 (“[H]aving sat through the trial, Petitioner was clearly aware
5 that the persons who could allegedly establish his alibi were not
6 called as witnesses.”), accepted by 2012 WL 6201209 (C.D. Cal.
7 Dec. 12, 2012).
8

Under these circumstances, it is irrelevant that the

9 statements were “never presented” to the jury.

(See Opp’n at 1,

10 35-36); Sims v. Subia, No. CV 08-3295-JLS (MAN), 2015 WL 3750450,
11 at *24 (C.D. Cal. June 14, 2015) (petitioner “confuses the act of
12 acquiring evidentiary support for a known claim with the act of
13 discovering the factual predicate for a new claim” (emphasis in
14 original)); Taylor v. Scribner, No. CV 12-7409-CAS (PJW), 2014 WL
15 6609299, at *3 (C.D. Cal. Oct. 20, 2014) (holding that
16 petitioner’s “proffer[] [of] affidavit to support” successive
17 petition’s claim “does not change the fact that the underlying
18 factual premise of [his] argument is not new”), accepted by 2014
19 WL 6609316 (C.D. Cal. 2014).16

Section 2244(b)(2)(B)(i) requires

20 the exercise of diligence in discovering “the factual predicate”
21 of a claim and not simply particular evidence to support it or a
22 lawyer to ferret it out.

Cf. Gant, 2017 WL 3822063, at *7

23
24
25
26
27
28

16

Notably, Petitioner’s now-abandoned argument that
appellate counsel had “trial counsel’s file and was therefore on
notice as to the things he knew” and was thus in a position to
challenge his effectiveness (Successive Pet. at 67-69) betrays
that the factual predicate for this subclaim could have been
discovered with due diligence well before Petitioner filed the
initial Petition and even more so the successive one at issue
here.
37

Pet. App. D-56

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 38 of 62 Page ID #:2784

1 (“Petitioner’s inability to locate, rather than discover, . . .
2 witnesses due to his previous pro se litigant status does not
3 undermine the conclusion that he knew the factual predicate for
4 his IAC claim by the conclusion of his trial.”).
5

Thus, Petitioner did not act diligently in bringing any of

6 his ineffective-assistance-of-counsel claims based on old
7 evidence.
8
9

b.

“New” evidence

The Successive Petition’s third ineffective-assistance

10 subclaim is ostensibly about trial counsel’s inadequate efforts
11 to undermine Banuelos’s testimony.
12 41.)

(See Successive Pet. at 37-

Petitioner claims that counsel failed to explore myriad

13 factors undermining Banuelos’s identification of him as the man
14 who fled the Camry, relying primarily on the victims’ 2016
15 statements.

(Id. at 37, 39-40.)

But trial counsel’s allegedly

16 ineffective cross-examination of Banuelos could have been
17 challenged from immediately after trial.

Indeed, Petitioner

18 raised almost all the same arguments he now makes in his 2014
19 state habeas petition, well before the 2016 declarations even
20 existed.
21

(See Lodged Doc. 21 at 22-26.)

Petitioner suggests that Farmer’s and Chappell’s 2016

22 declarations contained information that would have helped counsel
23 undermine Banuelos’s testimony had he elicited it from them
24 earlier.

For example, he points out that Banuelos described the

25 suspect who fled from him as wearing a long-sleeved blue t-shirt
26 but that Chappell stated in 2016 that the perpetrator was wearing
27 a white t-shirt.

(Successive Pet. at 40.)

Elsewhere in the

28 Successive Petition, he claims that the victims’ 2016 statements
38

Pet. App. D-57

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 39 of 62 Page ID #:2785

1 that they were not scared and thus that the police officers’
2 testimony about their demeanor wasn’t true would have impeached
3 Ashley and Banuelos and potentially prevented the victims’
4 statements to them from being introduced into evidence as excited
5 utterances.

(Id. at 8, 24-26.)

But the 2016 statements do not

6 constitute a new factual predicate for purposes of § 2244(b)(1)
7 because they do not contain any information that could not have
8 been — and indeed for the most part was — “discovered previously
9 through the exercise of due diligence.”17
10

§ 2244(b)(2)(B)(i).

Petitioner knew all along that the victims had seen the real

11 perpetrator — presumably the same person Banuelos saw flee from
12 the Camry — and could be ripe sources of additional information.
13 He also was aware at least as of 2007 of what information the
14 investigator had managed to extract from them.

Thus, if

15 Petitioner felt that counsel was not diligent in obtaining
16 additional information from them, or that the victims had more to
17 offer than what they shared with the investigator, he had ample
18 notice to raise those concerns earlier.

See King v. Trujillo,

19 638 F.3d 726, 728, 730-31 (9th Cir. 2011) (per curiam) (finding
20 that recantation was not “new” factual predicate or newly
21 discovered evidence because it merely corroborated matters
22 addressed at trial); Babbitt, 177 F.3d at 747 (disallowing
23 successive petition because black petitioner had not exercised
24
25
26
27
28

17

As Respondent points out (see Reply at 14), the victims’
statements concerning their demeanor are not even necessarily
inconsistent with the officers’ testimony in that regard. As
discussed below, Farmer and Chappell may not have felt scared but
may have appeared so, or the officers could have interpreted
excitement and agitation as fear.
39

Pet. App. D-58

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 40 of 62 Page ID #:2786

1 due diligence when his white counsel’s failure to question
2 all-white jury about potential race bias had put him on notice
3 that counsel might himself harbor racial animus).
4

In any event, most of the information in the 2016

5 declarations was not new.

Chappell told the defense investigator

6 in 2007 that he “wasn’t scared” when the perpetrator “pointed the
7 gun at him.”

(Opp’n, Ex. 10 at 2.)

Petitioner acknowledges that

8 “trial counsel knew” this and faults him for not using the
9 statement to “challenge the excited utterance ruling.”
10 (Successive Pet. at 36-37.)

Indeed, Petitioner raised counsel’s

11 failure to capitalize on this statement in 2014, two years before
12 he obtained Chappell’s 2016 statement to the same effect.
13 Lodged Doc. 21 at 17-18.)

(See

To be sure, Farmer’s 2007 statement

14 did not mention his demeanor after the crimes.

But Petitioner

15 did not need to be “present at the crime scene” (Opp’n at 10) to
16 know that if Banuelos’s assessment of Chappell’s demeanor was
17 inaccurate, his assessment of Farmer’s may have been as well.
18 Further, during trial, counsel twice sought to exclude the
19 victims’ statements on the basis that they did not qualify as
20 excited utterances, further alerting Petitioner to the issue.
21 Thus, to the extent Petitioner now claims that evidence of the
22 victims’ account of their demeanor the night of the crimes
23 demonstrated that Banuelos was exaggerating or fabricating
24 testimony to get their statements admitted into evidence,
25 Chappell’s 2007 statement put Petitioner on notice way back then
26 that he could raise that claim.
27

Accordingly, this case is not like Hasan v. Galaza, 254 F.3d

28 1150 (9th Cir. 2001), to which Petitioner attempts to analogize.
40

Pet. App. D-59

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 41 of 62 Page ID #:2787

1 (Opp’n at 8-9.)

In Hasan, although petitioner “knew . . . that

2 there may have been jury tampering and that his counsel did not
3 properly investigate it,” he “did not know at that time — nor did
4 he have reason to know — what he later learned: the added facts
5 that such an investigation would have revealed,” which
6 established that he was prejudiced by counsel’s ineffective
7 assistance.

Id. at 1154.

Here, Petitioner was aware of all the

8 pertinent facts needed to challenge counsel’s effectiveness for
9 failing to investigate whether the police accounts of the
10 victims’ demeanor and descriptions of the perpetrator were
11 accurate.

And he knew that he was prejudiced by counsel’s

12 purported ineffectiveness because he was found guilty.
13

Given Farmer’s and Chappell’s willingness to speak to the

14 defense investigator in 2007 and again to habeas counsel in 2016,
15 it appears that they were prepared to assist Petitioner from
16 shortly after the crimes occurred.

See Walton v. Ryan, No. CV-

17 11-00578-PHX-ROS (SPL), 2014 WL 1713625, at *3 (D. Ariz. May 1,
18 2014) (finding that petitioner failed to exercise due diligence
19 in presenting witness recantations because although “it is
20 difficult to determine when they could have been first uncovered,
21 . . . they could have been uncovered earlier than twenty years
22 after trial”).

He doesn’t dispute that he didn’t attempt to

23 contact either victim in between the two sets of statements, or
24 have a surrogate do so, but claims that any effort would have
25 been futile.

(See Opp’n at 10.)

But a petitioner’s pro se

26 status does not alter § 2241(b)(2)’s due-diligence requirement.
27 Cf. Mays v. Madden, No. CV 18-10678 PSG (SS), 2019 WL 2424539, at
28 *6 (C.D. Cal. May 16, 2019) (holding that petitioner was not
41

Pet. App. D-60

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 42 of 62 Page ID #:2788

1 entitled to later start date for limitation period under
2 § 2254(d)(1)(D) because his “lack of legal sophistication does
3 not explain his failure to recognize false evidence and seek a
4 legal remedy until decades later”), accepted by 2019 WL 2424104
5 (C.D. Cal. June 6, 2019); Gant, 2017 WL 3822063, at *7; see also
6 Johnson v. United States, 544 U.S. 295, 311 (2005) (“[W]e have
7 never accepted pro se representation alone or procedural
8 ignorance as an excuse for prolonged inattention when a statute’s
9 clear policy calls for promptness.”).
10

Petitioner also challenges counsel’s failure to procure the

11 testimony of an eyewitness-identification expert despite
12 allegedly obtaining sufficient funds from the court to do so.
13 (See Successive Pet. at 41-50.)18
14

In order to distinguish this claim from the one he raised in

15 the initial Petition — that the trial court failed to provide
16 funding for an expert witness (see Pet. at 6; Traverse at 15-17,
17 21-23, 26-27) — Petitioner now points the finger at counsel for
18 not adequately deploying the funds that were authorized by the
19 trial court.

Specifically, he claims that counsel incorrectly

20 represented to the trial court that another judge had approved
21 only $1500 for the witness when in fact $1800 had been approved
22 (Successive Pet. at 42), did “nothing to contest or correct the
23 errors” made by the prosecutor in arguing that an eyewitness
24
18

25
26
27
28

When asked about his “attempt to hire” Dr. Shomer, trial
counsel apparently “explained his frustration at not receiving
the $2000 he had requested from the Court,” “said that he thought
Dr. Shomer would have made a difference in the outcome of the
case,” and explained that he had not approached him about
testifying for less money because “his price was $2,000.”
(Opp’n, Ex. 15 ¶ 12.)
42

Pet. App. D-61

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 43 of 62 Page ID #:2789

1 expert was not necessary in the case (id. at 45), and did not
2 effectively advocate for more funds (id. at 45-46).

Further,

3 relying on the 2014 affidavit from Dr. Shomer, Petitioner claims
4 that trial counsel was ineffective for failing to ask the expert
5 to accept $1800 to testify, a request Dr. Shomer states he would
6 have granted.
7

(Id.)

To start, Petitioner was present for each of the colloquies

8 between counsel and the trial court about securing Dr. Shomer’s
9 testimony.

In one such instance, counsel explained to the court

10 that Dr. Shomer had requested $2000 to review the case and
11 testify in court but that only $1500 was approved.
12 2, 2 Rep.’s Tr. at 9-10.)

(Lodged Doc.

The court noted that $1800 had been

13 approved, but counsel maintained that the judge who had ordered
14 that amount had made a mistake and had called him to clarify that
15 the authorized amount was just $1500.

(Id. at 11-12.)

Counsel

16 stressed that “it was very crucial” for Dr. Shomer to testify but
17 that the court had approved only “a partial amount” of his fee,
18 “caus[ing] Doctor Shomer not to be present in court today.”
19 (Lodged Doc. 2, 2 Rep.’s Tr. at 9-10.)

Petitioner was also

20 present when the issue was revisited, when the parties discussed
21 whether an identification expert was necessary.

(Id. at 601,

22 607.)
23

As an initial matter, Petitioner has presented no evidence

24 that trial counsel was incorrect when he asserted that the $1800
25 initially authorized was a mistake and that only $1500 would be
26 approved, and no evidence that Dr. Shomer would have accepted
27 that lower amount.

He thus has still not exercised diligence in

28 presenting this claim.

But in any event, he clearly long ago
43

Pet. App. D-62

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 44 of 62 Page ID #:2790

1 understood counsel’s discussions with the prosecution and judge
2 about the funds available for Dr. Shomer’s testimony given that
3 he detailed each of these exchanges in his Traverse in support of
4 the initial Petition, in 2012.

(See Traverse at 26-27.)

And he

5 possessed the two ex parte applications trial counsel filed, to
6 obtain funds to retain an expert witness and then to secure
7 additional funds to cover Dr. Shomer’s fee.

See Objs. to July 2,

8 2012 R. & R., Rabb v. Lopez, No. CV 11-5110-JAK (JPR) (C.D. Cal.
9 Aug. 27, 2012), ECF No. 43 (attaching applications).
10

Accordingly, to the extent “trial counsel failed to

11 diligently work to secure the necessary resources to support the
12 defense case” (Opp’n at 17), Petitioner was aware of counsel’s
13 efforts and could have challenged them sooner if he felt they
14 were inadequate.

Likewise, if he believed that counsel should

15 have done more to convince Dr. Shomer to accept a smaller
16 payment, he was on notice of what the numbers being discussed
17 were and could have asked counsel to follow up with Dr. Shomer to
18 ask him if he would have accepted less; he does not claim that he
19 did so.

That habeas counsel in 2014 reached out to Dr. Shomer,

20 who was forthcoming, further shows that Petitioner could have
21 discovered the factual predicate for the claim earlier.

See

22 Johnson, 544 U.S. at 311.19
23
24
25
26
27
28

19

Petitioner’s attempt to analogize to Rudin v. Myles, 781
F.3d 1043 (9th Cir. 2015), to demonstrate that he only recently
learned of the factual predicate for this subclaim is unavailing.
(See Opp’n at 18-19.) In Rudin, the petitioner claimed
ineffective assistance of habeas counsel stemming from his
failure to timely file a state habeas petition. 781 F.3d at 1054
n.13. The Ninth Circuit noted that, assuming petitioner had a
(continued...)
44

Pet. App. D-63

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 45 of 62 Page ID #:2791

1

Thus, Petitioner’s “newly discovered” evidence could have

2 been uncovered and presented far earlier through the exercise of
3 due diligence.
4
5

2.

Petitioner’s remaining claims

Petitioner acknowledges that the factual predicates

6 underlying his Confrontation Clause and prosecutorial-misconduct
7 claims (see Successive Pet. at 69-72, 74-78) are the same as
8 those girding the ineffective-assistance claim (see Opp’n 20-21).
9 Thus, they too must be dismissed because they could have been
10 discovered and raised earlier through the exercise of due
11 diligence.

And because Petitioner could have discovered the

12 factual predicates for all those claims through the exercise of
13 due diligence, his cumulative-error claim fails for the same
14 reason.
15

B.

Petitioner Has Failed to Meet the Actual-Innocence
Standard of § 2244(b)(2)(B)(ii)

16
17

The Successive Petition’s reliance on factual predicates

18 that could have been (and in most cases were) discovered well
19 before Petitioner filed the initial Petition compels its
20 dismissal.

But even if they could not have been raised earlier,

21 Petitioner’s claims must still be dismissed because he has not
22
23
19

24
25
26
27
28

(...continued)
constitutional right to effective postconviction counsel, her
claim was not time barred because she learned about the prejudice
resulting from counsel’s mistake only when the state court denied
her petition as untimely. Id. Here, Petitioner was aware that
he suffered prejudice from counsel’s alleged failure to secure
Dr. Shomer’s testimony because he was convicted based in part on
identification testimony. At that point, he knew the factual
predicate for this subclaim.
45

Pet. App. D-64

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 46 of 62 Page ID #:2792

1 shown that “the facts underlying [them], if proven and viewed in
2 light of the evidence as a whole, would be sufficient to
3 establish by clear and convincing evidence that, but for
4 constitutional error, no reasonable factfinder would have found
5 [him] guilty of the underlying offense.”
6

§ 2244(b)(2)(B)(ii).

The main thrust of the Successive Petition is that

7 Petitioner would have been acquitted had trial counsel presented
8 to the jury the victims’ 2007 statements and discovered and
9 presented the contents of their 2016 statements.20

But neither

10 set of statements satisfies § 2244(b)(2)(B)(ii)’s stringent
11 actual-innocence standard.
12

Petitioner argues that “[w]hat sets this case apart” is that

13 Farmer and Chappell did not testify at trial.

(Opp’n at 16.)

14 But both trial counsel and the prosecutor told the jury that
15 Petitioner was never identified by the victims as the perpetrator
16 in any kind of lineup or photo array.
17 3 Rep.’s Tr. at 1523, 1529.)

(See, e.g., Lodged Doc. 2,

The jury convicted Petitioner

18 knowing that he was never identified by the victims.

Therefore,

19 that they were unable (or unwilling) to identify him in a photo
20 lineup before or 10 years after trial does not carry the same
21 impeachment weight as it would have had they took the stand and
22 identified him at trial.

Moreover, Farmer told the investigator

23 in 2007 that “he didn’t get a real good look” at the perpetrator
24 and “[didn’t] want to get anyone in trouble.”

(Opp’n, Ex. 9 at

25
26
27
28

20

It’s unclear how counsel could have been ineffective for
not obtaining the information shared by the victims in 2016 when
before trial he obtained court authorization for an investigator
(see Lodged Doc. 1, Clerk’s Tr. at 130) and sent that
investigator to speak to them.
46

Pet. App. D-65

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 47 of 62 Page ID #:2793

1 1.)

Thus, even if the jury had heard testimony about the 2007

2 photo lineup or been told of his 2016 statement that the person
3 depicted in an undated photo of Petitioner was not the carjacker,
4 his failure to identify Petitioner would have been easy for the
5 prosecution to explain.
6

There was also ample reason to doubt the veracity of the

7 2007 statements.

After all, both Farmer and Chappell were in

8 custody when they made them and stood to gain from letting their
9 fellow inmates know that they were not cooperating with the
10 prosecution.

See Cano v. Beard, No. CV 14-5677 (JLS) (FFM), 2015

11 WL 4940406, at *6 (C.D. Cal. Apr. 27, 2015) (“[A] juror could
12 rationally and reasonably conclude that [declarant] had nothing
13 to lose in exculpating [p]etitioner and that he could, indeed,
14 enhance his status among his fellow prison inmates by doing
15 so.”), accepted by 2015 WL 4932816 (C.D. Cal. Aug. 17, 2015).
16 And Farmer’s admission to the defense investigator that he didn’t
17 “want to get anyone in trouble” casts doubt on the veracity of
18 both his 2007 and 2016 statements.

(Opp’n, Ex. 9 at 1); see

19 generally House, 547 U.S. at 552 (eyewitness testimony by
20 disinterested witness with no motive to lie “has more probative
21 value” than “testimony from inmates, suspects, or friends or
22 relations of the accused”).
23

Critically, as the Court recognized in denying the initial

24 Petition, even if the victims’ testimony would have been
25 exculpatory, “the other evidence against Petitioner was so strong
26 as to outweigh its impact.”

Rabb, 2012 WL 5289576, at *13.

27 Before Banuelos was even involved, Farmer described the
28 perpetrator to Ashley as a light-skinned black man wearing a
47

Pet. App. D-66

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 48 of 62 Page ID #:2794

1 light blue t-shirt, about five feet six inches tall, with braided
2 hair, a teardrop tattoo under his right eye, and a hand-and3 finger tattoo on his forearm.
4 1248.)

(Lodged Doc. 2, 3 Rep.’s Tr. at

Farmer further described the suspects’ vehicle as a dark

5 green 1990s Toyota Camry and the gunman’s weapon as a blue-steel
6 revolver.

(Id. at 1249, 1251.)

Notably, although Farmer claimed

7 in his 2007 statement that the suspect had a “ponytail and not
8 braids” and that he “could not remember if he had any tattoos”
9 (Opp’n, Ex. 9), he did not deny supplying Ashley with the above10 described contemporaneous description of the perpetrator, his
11 car, and his gun.

And Chappell’s 2007 statement confirmed that

12 the perpetrator had “braided hair” and a “tattoo of an arm and
13 hand with two fingers and a thumb sticking out” on his
14 “i[n]nerarm area.”
15

(Id., Ex. 10 at 1.)

While Ashley was with the victims taking their accounts of

16 the crimes and descriptions of the perpetrators, Banuelos
17 apprehended a green Camry traveling at high speed near the scene
18 of the carjacking, after it had run a red light.
19 3 Rep.’s Tr. at 1277, 1279, 1285.)

(Lodged Doc 2,

That was clearly the same car

20 that had been at the gas station minutes earlier because the
21 driver — later identified as Brown — asked Banuelos whether the
22 stop had “anything to do with what transpired at the gas station”
23 at “Vernon and Figueroa” (id. at 1282), and three blue-steel
24 revolvers were found in the trunk (id. at 1230-31, 1298-99,
25 1329).21

Further, the man whom Banuelos saw flee from the Camry —

26
27
28

21

That Banuelos immediately contacted dispatch to inquire
whether there had been a request for service at that gas station
(continued...)
48

Pet. App. D-67

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 49 of 62 Page ID #:2795

1 whom he described as a heavyset light-skinned black man with
2 braided hair, a light-blue long-sleeved t-shirt, and a teardrop
3 tattoo on his right cheek (id. at 1278, 1307, 314-15) — mostly
4 matched the description Farmer gave Ashley.
5

Of course, Banuelos ultimately identified that man as

6 Petitioner (id. at 1299-301), which was corroborated by
7 Richmond’s statement to police officers that she had lent
8 Petitioner the Camry that night (id. at 1300-01, 1311).

Further,

9 Parron, who pleaded no contest to carjacking in connection with
10 the case and identified Petitioner in a photo lineup by circling,
11 dating, and signing his photo, told Williams that he and Brown
12 were with Petitioner when he committed the armed carjacking (id.
13 at 1207, 1322–28, 1334).

On top of that, the tattoo on

14 Petitioner’s forearm generally matched the description of the
15 tattoo supplied to Ashley by Farmer and confirmed by Chappell in
16 his 2007 statement.

(Id. at 1315.)

Further, although Brown did

17 not testify at trial, according to a police report attached to
18 the prosecution’s response to Petitioner’s 2014 state habeas
19 petition, at one point during the investigation she apparently
20 identified Petitioner in a photo lineup as the person who was in
21 the Camry with her when Banuelos stopped it and had committed the
22 carjacking with Parron.

(Lodged Doc. 17 at 23); see Lee, 653

23 F.3d at 938 (in determining whether petitioner has established
24 his actual innocence, court must consider “‘all the evidence,’
25
26
27
28

21

(...continued)
(Lodged Doc. 2, 3 Rep.’s Tr. at 1286) confirms that Brown
implicated herself in the robbery and that the Camry she was
stopped in was the perpetrators’ car.
49

Pet. App. D-68

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 50 of 62 Page ID #:2796

1 . . . admissible at trial or not” (citation omitted)).

Lastly,

2 Parron, Brown, and Petitioner were all known members of the
3 Rolling 40’s Crips and thus likely to have worked together to
4 commit a crime.

(See Lodged Doc. 2, 2 Rep.’s Tr. at 938-39, 941-

5 42.)
6

Under these circumstances, even if Farmer’s and Chappell’s

7 statements bolstered Petitioner’s misidentification claim, they
8 do not “unquestionably” establish his actual innocence.

Morales

9 v. Ornoski, 439 F.3d 529, 533-34 (9th Cir. 2006) (per curiam)
10 (holding that to be successful in second or successive habeas
11 petition based on factual innocence, petitioner must convince
12 court that new facts “unquestionably” establish his innocence
13 (citation omitted)); see Cox v. Powers, 525 F. App’x 541, 543
14 (9th Cir. 2013) (finding that although petitioner’s new evidence
15 might have bolstered defense theory, it was insufficient to
16 satisfy § 2244(b)(2)(B)(ii) because he did not establish that “no
17 reasonable factfinder would find him guilty,” as “jury could have
18 continued to believe that the prosecution witnesses’ testimony
19 was more accurate than that of the defense witnesses”).22
20
21
22
23
24
25
26
27
28

22

Although the Court assumes for purposes of its analysis
that the victims’ 2007 interviews would have been admissible at
trial, it is doubtful that their statements that neither of them
recognized Petitioner as the perpetrator would have been
admitted, let alone for the truth of the matter asserted.
Petitioner argues that they should have been admitted under
Evidence Code section 1202. (See Opp’n at 11-12 n.8.) Under
that section, “[e]vidence of a statement or other conduct by a[n
unavailable] declarant that is inconsistent with a statement by
such declarant received in evidence as hearsay evidence” is
admissible but only “for the purpose of attacking the credibility
of the declarant.” § 1202. Here, the unavailable declarants in
(continued...)
50

Pet. App. D-69

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 51 of 62 Page ID #:2797

1

Petitioner maintains that those portions of the above-

2 referenced evidence of his guilt that came in through Banuelos’s
3 or Ashley’s testimony are undermined by Chappell’s 2016 denial
4 that Farmer and he were “under stress and acting excited” when
5 they spoke to police officers (Opp’n, Ex. 11 at 1) and Farmer’s
6 2016 statement that Banuelos’s testimony about his demeanor when
7 they spoke — that he was “stress[ed], pacing back and forth,
8 acting excited, mad, and physically shaken” — was not true (id.,
9 Ex. 2 at 1).

Petitioner asserts that the 2016 statements, which

10 contradict the officers’ testimony about the victims’ demeanor
11 when they spoke to them five and then 15 minutes after the crimes
12 (see Lodged Doc. 2, 3 Rep.’s Tr. at 1247-48, 1288), are proof
13 that the officers lied to enable the victims’ statements to be
14 introduced into evidence as excited utterances and call the
15 veracity of the rest of their testimony into question (see Opp’n
16 at 1, 10, 12, 20-21).
17

But their 2016 statements are even less credible than their

18 2007 ones.
19 crimes.

By 2016, 11 years had passed since the underlying

The notion that the victims still had a vivid

20 recollection of their emotional state and the perpetrator’s
21 appearance is not persuasive, particularly when both of them had
22
23
24
25
26
27
28

22

(...continued)
question were the two victims, and their 2007 statements that
they did not recognize Petitioner did not contradict or undermine
any of the statements they made to Banuelos. Moreover,
Petitioner sought to introduce the statements to bolster their
credibility, not to attack it.
51

Pet. App. D-70

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 52 of 62 Page ID #:2798

1 trouble remembering details of the crimes even in 2007.23

See

2 Perkins, 569 U.S. at 39 (“[u]nexplained delay in presenting new
3 evidence” of actual innocence “bears on the determination whether
4 the petitioner has made the requisite showing”); Schlup, 513 U.S.
5 at 332 (when deciding actual-innocence claim “court may consider
6 how the timing of the submission and the likely credibility of
7 the affiants bear on the probable reliability of that evidence”);
8 see also Christian v. Frank, 595 F.3d 1076, 1084 n.11 (9th Cir.
9 2010) (recantation found “especially unreliable” because it was
10 made more than a decade after witness testified at trial).
11

There are also significant discrepancies between the 2007

12 and 2016 statements, both of which Petitioner wants us to
13 believe.

For instance, whereas in his 2007 statement Farmer

14 claimed that he did not get a “good look” at the perpetrator
15 (Opp’n, Ex. 9 at 1), he reversed course in his 2016 statement,
16 stating that he recalled the man who robbed him and that
17 Petitioner was not that man (see id., Ex. 2 at 1; cf. Opp’n at 2
18 (asserting, based on Farmer’s 2016 statement, that “[n]o one got
19 a better look at the perpetrator of the crimes than [Farmer]”)).
20 Additionally, Chappell admitted in 2007 that police
21 officers brought him and Farmer to a field showup, where at least
22 one of them identified Parron as being involved in the crimes
23 (id., Ex. 10 at 1); Farmer too “recall[ed] being taken to the
24 location of [the] traffic stop” for a field showup (id., Ex. 9 at
25
26
27
28

23

On top of that, Chappell was 14 years old in 2007. Not
surprisingly, then, as Petitioner advises the Court, habeas
counsel “has uncorroborated information that indicates that Mr.
Chappell’s memory of the events may not be as sharp as Mr.
Farmer’s.” (Opp’n at 3 n.2.)
52

Pet. App. D-71

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 53 of 62 Page ID #:2799

1 1).

But in 2016 Chappell denied being taken anywhere by the

2 police, let alone that either Farmer or he identified Parron.
3 (Id., Ex. 11 at 1.)

Chappell’s 2016 statement was even

4 inconsistent with Farmer’s account of the crimes: in 2016
5 Chappell stated that the perpetrator wore a white t-shirt (id.),
6 but in 2007 Farmer did not deny that he described the perpetrator
7 as having worn a light blue t-shirt.

(Id., Ex. 9 at 1).

These

8 significant contradictions cast doubt on both sets of accounts
9 but particularly on the statements from 11 years after the
10 crimes.
11

And although the 2016 statements were made under penalty of

12 perjury, it’s relevant that by then both victims were
13 incarcerated for serious crimes.

Even if Farmer will soon be

14 eligible for parole (see Opp’n at 23), any concern about
15 potential penal exposure as a result of lying in their
16 declarations was blunted (not to mention the impracticality,
17 which they surely recognized, of anyone proving that they were
18 lying about their recollections of their emotional state or what
19 they saw).

See Williams, 2018 WL 2208041, at *12, *23 (potential

20 exculpatory witness’s testimony “would be open to credibility
21 attacks” because he was “serving a life sentence for committing a
22 felony and, as such, would not be as credible as an objective
23 witness”).
24

Moreover, it’s not surprising that Farmer and Chappell, both

25 longtime incarcerated gang members, would deny being and acting
26 scared after having been confronted by rival gang members.

But

27 any reasonable juror would have questioned the suggestion that
28 they did not experience fear, stress, or excitement after being
53

Pet. App. D-72

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 54 of 62 Page ID #:2800

1 robbed at gunpoint.

In fact, within five minutes of receiving a

2 radio call about the crimes (Lodged Doc. 3 Rep.’s Tr. at 1247) —
3 presumably triggered by the victims reporting them — Ashley
4 responded to the scene, where they “flagged [him] down” (id. at
5 1245).

With barely any time having passed between the robbery

6 and the officer’s response, some level of anxiety and stress was
7 not only natural but expected.

And that the victims apparently

8 called the police about the robbery further undermines the
9 suggestion that they were unfazed.

That inference is supported

10 by evidence from Anabel Cordon — the individual who lent Farmer
11 and Chappell the SUV they were driving — who testified that they
12 told her they were “scared” during the crimes (id. at 1509); and
13 Farmer’s 2016 claim to have been armed during his encounters with
14 Ashley and Banuelos (see Opp’n, Ex. 2 at 1), if true, likely
15 amplified the stress he was under because police officers could
16 have arrested him on that basis.

See Allen v. Woodford, 395 F.3d

17 979, 994 (9th Cir. 2005) (recantation unreliable when “trial
18 testimony implicating [petitioner] is consistent with the other
19 evidence, while [the] recantation is not”).24
20
21
22
23
24
25
26
27
28

24

Petitioner’s claim that the prosecution withheld evidence
of the victims’ gang membership to avoid undermining testimony
that they were scared or excited during the encounter is
meritless. (See Successive Pet. at 74-78.) The prosecution did
not keep the victims’ gang membership secret from the judge
deciding whether their statements could be introduced as excited
utterances. For instance, in contending that they should not be
permitted to invoke their Fifth Amendment privilege, the
prosecutor provided the judge with cases in which the witnesses
in question were “also” gang members. (Lodged Doc. 2, 3 Rep.’s
Tr. at 1201-02.) In his Opposition, Petitioner recasts his
prosecutorial-misconduct claim as the prosecutor suborning
(continued...)
54

Pet. App. D-73

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 55 of 62 Page ID #:2801

1

But even if both men believed they were telling the truth

2 about their state of mind and demeanor on a particular night more
3 than a decade prior, that hardly suggests that the officers lied.
4 (See Opp’n at 1, 10.)

As Respondent points out (see Reply at

5 14), both versions may be true: the officers may have truthfully
6 testified about their perception of the victims’ demeanor and the
7 victims may have honestly remembered their response to the crime
8 as being more stoic.

Or the officers may reasonably have

25
9 interpreted excitement and agitation as fear.

10

In any event, that the officers’ testimony about the

11 victims’ demeanor may have been impeached by the divergent
12
24

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

(...continued)
Banuelos’s alleged perjury about the victims’ demeanor. (See
Opp’n at 21-25.) Even if Banuelos testified falsely, Petitioner
does not point to any evidence that the prosecutor knew that to
be the case. See generally Hayes v. Brown, 399 F.3d 972, 974 (9th
Cir. 2005) (en banc) (holding that prosecutor’s “knowing”
presentation of false evidence violates Due Process Clause).
25

Even if the trial court had been aware of and credited
the victims’ later version of events, Petitioner is wrong that
that would necessarily have prevented admission of the earlier
statements as excited utterances under Evidence Code section
1240. (See Opp’n at 12); People v. Poggi, 45 Cal. 3d 306, 319
(1988) (statements spontaneous even though declarant “had been
calmed down sufficiently to be able to speak coherently”); People
v. Jones, 155 Cal. App. 3d 653, 662 (1984) (statement made by
burn victim 30 to 40 minutes after his injury while he appeared
calm but “dazed” and after he had been given painkiller was
admissible as excited utterance); cf. People v. Lynch, 50 Cal.
4th 693, 754 (2010) (finding that “comprehensive” account made
“hour or two” after crime was not “spontaneous” when victim was
not “excited or frightened” and her “physical condition at the
time” did not “preclude[] deliberation”), abrogated on other
grounds by People v. McKinnon, 52 Cal. 4th 610 (2012). Assuming
the victims here were not and had never been “afraid,” they —
particularly Farmer, who claims to have been armed — may
nonetheless have been excited or agitated when they spoke to the
police.
55

Pet. App. D-74

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 56 of 62 Page ID #:2802

1 accounts is a far cry from proof that the officers fabricated the
2 entirety of their testimony to frame Petitioner.
3 10.)

(See Opp’n at

The jury apparently credited Banuelos’s testimony,

4 including his identification of Petitioner as the man who fled
5 from the Camry, despite counsel’s vigorous efforts to undermine
6 his testimony, particularly the accuracy of his identification.
7 Specifically, during cross-examination counsel pressed that the
8 identification was made after only a secondslong glimpse in the
9 dark and from 30 feet away.
10 1303-07.)

(Lodged Doc. 2, 3 Rep.’s Tr. at

Counsel also pointed out that Banuelos reported seeing

11 a teardrop tattoo on the right side of Petitioner’s face when it
12 was actually on the left and that he was wearing a long-sleeved
13 shirt even though both victims said it was a t-shirt revealing
14 tattoos on the perpetrator’s forearms.

(Id. at 1311-13.)26

15 Subsequently, in summation, counsel highlighted these weaknesses
16 and errors, suggesting that it was “quite impossible” for
17 Banuelos to have identified Petitioner under the circumstances
18 and characterizing his testimony as “clearly mistaken, erroneous
19 and doubtful.”
20

(Id. at 1518-20, 1523-24.)

Plainly, after hearing Banuelos and observing his demeanor,

21 the jury credited his testimony.

That’s not surprising because

22 his purported mistake about what side of Petitioner’s face the
23 tattoo was on paled in comparison to his correct recollection
24
26

25
26
27
28

On redirect examination, when shown a photograph of
Petitioner’s face with a teardrop tattoo on the left cheek,
Banuelos testified it “was possible” that it was on the left side
(Lodged Doc. 2, 3 Rep.’s Tr. at 1314), and then followed up that
he in fact recalled the tattoo being on the left cheek (id.).
Notably, Farmer too apparently initially told Ashley the teardrop
tattoo was on the right. (Id. at 1248.)
56

Pet. App. D-75

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 57 of 62 Page ID #:2803

1 that he had a teardrop tattoo on his face at all.

Similarly, his

2 testimony that Petitioner was wearing a long-sleeved shirt was
3 not necessarily inconsistent with the victims’ testimony that
4 they saw tattoos on his forearms; after all, Petitioner may have
5 rolled down his sleeves before Banuelos saw him.

And to the

6 extent Banuelos was mistaken, his insistence that Petitioner was
7 wearing a long-sleeved shirt when he knew the victims had told
8 Ashley otherwise and that the teardrop was the only tattoo he saw
9 despite photographic evidence of Petitioner’s other tattoos (see
10 Opp’n at 39) undercuts Petitioner’s suggestion that his testimony
11 was perjured or that he improperly altered his testimony on
12 redirect examination.

After all, if Banuelos had been lying, he

13 presumably would have conformed his descriptions of Petitioner to
14 match the evidence from the outset.

See Sawyer v. Whitley, 505

15 U.S. 333, 349 (1992) (“[L]atter-day evidence brought forward to
16 impeach a prosecution witness will seldom, if ever, make a clear
17 and convincing showing that no reasonable juror would have
18 believed the heart of [the witness’s] account of petitioner’s
19 actions.”).
20

Under these circumstances, it can’t be said that no

21 reasonable factfinder would have credited Banuelos’s
22 identification testimony even if Dr. Shomer had testified and
23 emphasized many of the same weaknesses pointed out by trial
24 counsel.

(See Opp’n at 18.)

Indeed, Finch v. McKoy, 914 F.3d

25 292 (4th Cir. 2019), cited by Petitioner, illustrates this point.
26 There, the Fourth Circuit found that Schlup’s more lenient
27 actual-innocence standard was satisfied when postconviction
28 evidence from an eyewitness-identification expert established
57

Pet. App. D-76

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 58 of 62 Page ID #:2804

1 that the sole eyewitness’s identification of the petitioner was
2 the result of an unduly suggestive lineup.

Id. at 297-98.

But

3 Finch’s holding was buttressed by newly discovered evidence that
4 the eyewitness had admitted being uncertain of his identification
5 and had “cognitive issues, memory trouble, and problems with
6 short-term recall.”

Id. at 300.

Moreover, the only evidence

7 corroborating the identification was undermined by a
8 postconviction recantation that expressly inculpated a police
9 witness in suborning perjury.

Id.

Here, despite potential

10 weaknesses in his testimony, Banuelos’s identification of
11 Petitioner, from which he never wavered, was corroborated by
12 significant proof of Petitioner’s guilt that he has failed to
13 undermine on multiple rounds of state and federal habeas review.
14 See Pizzuto, 673 F.3d at 1009 (even if “[n]o reasonable juror
15 . . . would have found [prosecution witness] credible, had the
16 newly discovered evidence been available and presented at trial,”
17 other unchallenged evidence provided sufficient basis on which
18 reasonable factfinder could find petitioner guilty).
19

The other evidence of Petitioner’s purported actual

20 innocence advanced in the Successive Petition is similarly
21 unavailing.

For instance, Petitioner claims that counsel failed

22 to present the testimony of Penn, his girlfriend, who could have
23 provided an alibi.

But Penn’s credibility was susceptible to

24 attack given that she identified herself as his girlfriend.
25 (Opp’n, Ex. 12 at 1); see Rowland v. Baca, No. CV 11-6055-AG
26 (OP)., 2013 WL 1858883, at *6–7, *10 (C.D. Cal. Jan. 3, 2013)
27 (holding that counsel may have made “tactical decision not to
28 present” “biased” and “less persuasive” testimony of petitioner’s
58

Pet. App. D-77

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 59 of 62 Page ID #:2805

1 girlfriend and that her alibi testimony did not establish
2 petitioner’s actual innocence), accepted by 2013 WL 1858627 (C.D.
3 Cal. Apr. 28, 2013).

More importantly, her testimony would have

4 been potentially devastating for the defense — her statement
5 placed Petitioner with codefendant Brown the night of the crimes
6 (Opp’n, Ex. 12 at 1), a revelation that would have severely
7 undermined the defense’s misidentification theory given that she
8 admitted her guilt and pleaded guilty to the crimes.

(See Lodged

9 Doc. 2, 2 Rep.’s Tr. at 5); Strickland, 466 U.S. at 690
10 (“[S]trategic choices made after thorough investigation of law
11 and facts relevant to plausible options are virtually
27
12 unchallengeable.”).

13

None of the other arguments Petitioner raises about the

14 strength of the evidence, all of which indisputably could have
15 been raised before he filed the initial Petition, change the
16 actual-innocence calculus.

For instance, the loss or destruction

17 of the surveillance tape collected from the gas station is
18 unfortunate, but Detective Williams testified at both the
19 preliminary hearing and trial that he watched it and was unable
20 to “identify any particular person or any particular vehicle” in
21 it (Lodged Doc. 2, 3 Rep.’s Tr. at 1329), and there is no basis
22 to believe that he was lying or that the tape would have been
23 exculpatory.

To the contrary, defense counsel’s cross-

24
27

25
26
27
28

Likewise, it was likely strategic for counsel not to
object on hearsay grounds to Banuelos’s testimony that Richmond
had told police officers she had lent the Camry to Petitioner.
(See Lodged Doc. 2, 3 Rep.’s Tr. at 1311.) If counsel had
objected, the prosecution would likely have called Richmond or
those officers to testify, thereby highlighting a critical piece
of evidence against Petitioner.
59

Pet. App. D-78

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 60 of 62 Page ID #:2806

1 examination of Williams seemed to imply that he had viewed the
2 tape and agreed that it was impossible to identify anyone on it.
3 (Id. at 1335.)

Similarly, multiple witnesses testified that

4 three blue-steel revolvers were recovered from the Camry’s trunk.
5 (Id. at 1230-31, 1298-99, 1329.)

That two of them were destroyed

6 before trial does not undermine the strength of that evidence.
7 And although Parron testified and denied ever identifying
8 Petitioner as his accomplice, as the trial court recognized, it
9 would have been apparent to any reasonable juror that his
10 testimony, including his assertions that he never spoke to the
11 police and did not remember anything about the crimes even though
12 he had pleaded guilty to them, was obviously incredible and
13 “tantamount” to invoking his Fifth Amendment privilege against
28
14 self-incrimination.

(See id. at 1258.)29

Indeed, had Farmer and

15 Chappell testified consistent with their 2007 and 2016
16
17
18
19
20
21
22
23
24
25
26
27
28

28

In an obvious attempt to exculpate Petitioner, the only
thing Parron professed to remember about the crimes was that he
had committed them with “some females” (one of whom was Brown),
not a male and a female (Lodged Doc. 2, 3 Rep.’s Tr. at 1209) —
this despite both victims saying that the perpetrators were two
males and a female.
29

Petitioner’s related suggestion that Brown was given a
plea deal not to testify (see Opp’n at 45 n.28) is baseless. As
the prosecutor explained, she pleaded guilty soon after she was
arrested for a “very minimal sentence[]” because the victims were
“absolutely noncooperative in this case,” and she was already
serving her sentence at the time of Petitioner’s trial. (Lodged
Doc. 2, 2 Rep.’s Tr. at 5-6.) And as noted, Petitioner in fact
benefited from her invocation of the Fifth Amendment because she
had apparently identified Petitioner in a photo lineup as the
person who was in the Camry with her that night and had committed
the carjacking, evidence that was never admitted when she refused
to testify. (Lodged Doc. 17 at 23.)
60

Pet. App. D-79

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 61 of 62 Page ID #:2807

1 statements, the jury may well have concluded the same thing about
2 them.
3

Given the considerable inculpatory evidence and the

4 relatively gossamer allegedly exculpatory and impeachment
5 evidence, Petitioner fails to show by clear and convincing
6 evidence that “no reasonable factfinder” would have found him
7 guilty had the new evidence been known at trial.
30
8 § 2244(b)(2)(B)(ii).

RECOMMENDATION31

9
10

IT THEREFORE IS RECOMMENDED that the District Judge accept

11 this Report and Recommendation, grant Respondent’s motion to
12 dismiss, and direct that judgment be entered denying the
13 Successive Petition and dismissing this action with prejudice.
14
15
16 DATED: September 24, 2019
17
18
19
20
21
22
23
24
25
26
27
28

30

An evidentiary hearing is not necessary to resolve
Respondent’s motion. (See Opp’n at 27-28.) The Ninth Circuit
has routinely found that when, as here, “the files and records of
the case conclusively show” that a successive petition “does not
meet the second or successive [petition] requirement[],”
dismissal without an evidentiary hearing is proper. United
States v. Villa-Gonzalez, 208 F.3d 1160, 1165 (9th Cir. 2000)
(per curiam). Here, the Court has accepted the allegations in
the three new declarations as true and still found that relief is
unavailable. Thus, no evidentiary hearing is warranted. See
Cox, 525 F. App’x at 543 (holding that evidentiary hearing was
unnecessary when, assuming eyewitness’s proffered testimony was
newly discovered and credible and that he “told the truth as he
perceived it,” standard for second or successive petition was not
met).
31

Because Petitioner has failed to satisfy § 2244(b), the
Court need not address Respondent’s timeliness and exhaustion
arguments.
61

Pet. App. D-80

Case 2:17-cv-09318-JAK-JPR Document 37 Filed 09/24/19 Page 62 of 62 Page ID #:2808

JEAN ROSENBLUTH
U.S. MAGISTRATE JUDGE

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
62

Pet. App. D-81

Petitioner’s Appendix E

Case 2:17-cv-09318-JAK-JPR Document 51 Filed 04/01/20 Page 1 of 4 Page ID #:2928

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

DAMEN RABB,

12

Petitioner,

13

v.

14

M. ELIOT SPEARMAN, Warden,

15
16
17

Respondent.

) Case No. CV 17-9318-JAK (JPR)
)
)
) ORDER DENYING MOTION FOR
) RECONSIDERATION
)
)
)
)
)

On January 30, 2020, the Court granted Respondent’s motion

18

to dismiss Petitioner’s authorized Successive Petition and

19

dismissed this action with prejudice; it also denied a

20

certificate of appealability.

21

for reconsideration of both rulings.

22

On February 27, Petitioner moved

Petitioner recognizes that reconsideration requires newly

23

discovered evidence, an intervening change in controlling law, or

24

a demonstration that the Court committed “clear error” such that

25

its ruling was “manifestly unjust.”

26

to rely on the third factor, arguing that “reconsideration is

27

appropriate to prevent a manifest injustice.”

28

only argument he makes in an effort to show that the Court

(See Mot. at 1.)

(Id.)

He appears

But the

1

Pet. App. E-82

Case 2:17-cv-09318-JAK-JPR Document 51 Filed 04/01/20 Page 2 of 4 Page ID #:2929

1

clearly erred is that “Maurice Farmer and De’Shawn Chappell” —

2

Petitioner’s crimes’ two victims — “say that Mr. Rabb is

3

innocent.”

4

2016, more than 10 years after the crimes, Farmer said when shown

5

an undated photograph of Petitioner that that was not the man who

6

robbed him, and Chappell said things that conflicted with

7

officers’ accounts of his statements and demeanor right after the

8

carjacking.

9

accepting that the victims believed what they were saying, a jury

(Id.)

That is not exactly what happened; rather, in

(R. & R. at 21.)

But as the Court explained, even

10

would be unlikely to credit their after-the-fact accounts for a

11

variety of reasons.

12

innocence claim).)

13
14

(See id. at 46-61 (analyzing actualThe Court did not clearly err.

The rest of the motion is devoted to arguing that Petitioner
should receive a certificate of appealability

15

on the issues of whether [Petitioner] was diligent,

16

whether the factual predicate for his claims could not

17

have been discovered previously through the exercise of

18

due diligence, and whether he had plead [sic] facts

19

sufficient to entitle him to discovery and a hearing to

20

prove that the facts underlying the claim, when viewed in

21

light of the evidence as a whole, would be sufficient to

22

establish by clear and convincing evidence that, but for

23

constitutional error, no reasonable factfinder would have

24

found him guilty of the underlying offenses.

25
26

(Mot. at 3.)
As an initial matter, in his original request, Petitioner

27

asked for a COA on two issues he does not mention in his motion

28

for reconsideration.

(Objs. at 54-55.)

As the Court pointed

2

Pet. App. E-83

Case 2:17-cv-09318-JAK-JPR Document 51 Filed 04/01/20 Page 3 of 4 Page ID #:2930

1

out, he had not previously raised those issues and thus a COA for

2

them was not appropriate (Order Denying COA at 2-3), and he has

3

apparently now abandoned them.

4

issues, he originally sought a COA only on whether a hearing and

5

discovery were necessary before his claims could be denied.

6

(Objs. at 55.)

7

should receive a COA on questions concerning his diligence (see

8

Mot. at 3) because he never previously requested one.

9

Nutraceuticals, Inc. v. Mucos Pharma GmbH & Co., 571 F.3d 873,

Beyond those two abandoned

Thus, the Court declines to consider whether he

See Marlyn

10

880 (9th Cir. 2009) (holding that reconsideration is not

11

appropriate when parties “raise arguments . . . for the first

12

time when they could reasonably have been raised earlier in the

13

litigation” (citation omitted)).

14

Petitioner quotes Lambright v. Stewart, 220 F.3d 1022, 1025

15

(9th Cir. 2000), for the proposition that a COA should issue

16

unless a claim is “utterly without merit.”

17

recognizes (see id.), Lambright, in a parenthetical, simply

18

quoted a Seventh Circuit case that so held.

19

Lambright is no different than the standard set by the Supreme

20

Court: a petitioner must make a “substantial” showing of the

21

denial of a constitutional right.

22

473, 483 (2000) (citation omitted); see Lambright, 220 F.3d at

23

1024.

24

(or in his Successive Petition or opposition to the motion to

25

dismiss, for that matter) meets that standard.

(Mot. at 2.)

As he

The holding of

Slack v. McDaniel, 529 U.S.

Nothing Petitioner says in his motion for reconsideration

26
27
28
3

Pet. App. E-84

Case 2:17-cv-09318-JAK-JPR Document 51 Filed 04/01/20 Page 4 of 4 Page ID #:2931

1

The motion for reconsideration is therefore DENIED.

2
3
4

DATED: April 1, 2020
JOHN A. KRONSTADT
U.S. DISTRICT JUDGE

5
Presented by:
6
7

_________________________
Jean Rosenbluth
U.S. Magistrate Judge

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
4

Pet. App. E-85

Petitioner’s Appendix F

Pet. App. F-86

~ ]/e- ~flA'tItIN
1

t?#

ANY

r

POL LoVoJ//V G

r

1'H€: fG'a.5~N

1.
M/fIK}~~

PM t'1. t:E te

:r:f\IGV&I{ .5A 'tit"

'('4-;100

A-tJ Y

o/}!'£.;f.

J...

'1H£

;>£'/(.$0";

A-

J. ::rAM
IJfluRIc..£

/'1~

u.s

4.

-r7JLJ)

-n1

5~1f8s

.t:/I<.s-r

1'1~

ON

rOLLtZy

fHE LA'III5
u,v/-rE'j)

I 5

rJ ,.t:;:> €/~

Or r)l'£

511tr~~

-:;:;

or
_

_

w~

H£

J€

-reJoK.

4#Y

PL£,f\J'IY

vV15

or::-

NO

~ 'I

-rH/t'"I
of

r

CA,

wEAt:

wE""

SA IY

PIA/'

,A1'v'.J>

NEve:

£;< c rrEy/

/,A/?--7

W~k

/ l?£N7IFI€;J>

GoP..>

HAy

15

GUNS
-n--/~

115

Vr:-€57tL r;:

C~16.

P (£N /tL '1"'1

5rArtZ'

colflfEcJ

or:-

0

jJt::;e~(,) t? Y

l"HJ:

t..lN.J> €

AN:;:]>

CAL/':O!?#lA/

7/1A-1"

'(0

r

~

,fir£'

rot?£'6o/JJ 6

"i'He: 8£57

Or

~y

•

£XE c- LIfO

A-r

e:

o~ A""€"~/~.tr/

rt<v~ ,A-tJp

k tJOWLf?;YG r;

;.I&,ve:"/(

!3Ro fi,:P WA'Y

I. J/£L LA I{ IZ'

_

/'1Ak//</G

mer

5A-lP

/Jt/L..Ic.1E

8£A~~ IH~

o~

HA,A./J

-rH£ C-A~I'<'!'

/tC4I/11C

--T/-IA-"} wA.5

'liM€:.

f'1~Mt!:1€f<..

A"'J?

IJl'ifllV£.

t:.OMfc£'IlZc(

A

--If/'£.
'::J:

v ,.J;p£l(

.4

"I;Po AI

cAlC ~ AC-K£:P

..sE:~

j1(\/;J?

AM

__

--r-.5#/~

4r1y'v-/H£:/ff!'

:I

AAtz>

jlJt)7 /?tI1CHE€ ~

Po

_

HI.5 /( /GHr ,4/l'Hj

t7,c

\/11110

'Ie?

1'7.

\lV'iE :rY&ill,cleJ>

M~

A~1'1,

'ifle PQ~/C £

"'/OLY

,0 __

rA'1/oo.5,

wiil7C

ANy

~#

,-t£~r

_____

,o/'o/PTv/\/ /'1'1.

0

C-A~5A?-KO

8(£/1116

:r

S£.GING

-t'HC

"IA-7'it/o

()!"/ If 1.5

K/~ O? 51GN.

v-JeAf()/\/ c>

v€:/I.!

A-

BRIAN

r87/rY

'vvo V4:J>

vVlI~

HA:P

0 rI'~

-rrr~:

!?-ec.,A'I.-'ArJ't

61

rni

\N

ST47E: {'1f 150N

C AL;PAji?lft

:2~ :;'0/6

1t?I?JL

il-lC

- - - - - - - - 4 - +1

A-r

f()M~~ANrL

CHA-PP£LL~ M~"'--

CCtLI PA-,7?/A

tJ '"

57AT£

1'"H /3

),.!.s 7"

::PAY

oJC" ~/L/

;LO/b/

f~J50,J.

BY: 1k( ~~Y) Ck~?et1

'

Pet. App. F-87

Pet. App. F-88

Pet. App. F-89

Teardrop tattoo

Pet. App. F-90

Petitioner’s Appendix G

Case 2:11-cv-05110-JAK-JPR Document 47 Filed 10/25/12 Page 1 of 3 Page ID #:618

Pet. App. G-91

Case 2:11-cv-05110-JAK-JPR Document 47 Filed 10/25/12 Page 2 of 3 Page ID #:619

Pet. App. G-92

Case 2:11-cv-05110-JAK-JPR Document 47 Filed 10/25/12 Page 3 of 3 Page ID #:620

Pet. App. G-93

Petitioner’s Appendix H

Case: 13-55057, 03/29/2016, ID: 9918873, DktEntry: 88-1, Page 1 of 3

FILED

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

MAR 29 2016
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

No. 13-55057

DAMEN RABB,
Petitioner - Appellant,

D.C. No. 2:11-cv-05110-JAK-JPR

v.
MEMORANDUM*
STU SHERMAN,
Respondent - Appellee.

Appeal from the United States District Court
for the Central District of California
John A. Kronstadt, District Judge, Presiding
Submitted March 7, 2016**
Pasadena, California
Before: PREGERSON, PAEZ, and NGUYEN, Circuit Judges.
Damen Rabb appeals from the district court’s order denying his habeas
corpus petition after he was convicted of two counts of carjacking and two counts

*

This disposition is not appropriate for publication and is not precedent
except as provided by 9th Cir. R. 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Pet. App. H-94

Case: 13-55057, 03/29/2016, ID: 9918873, DktEntry: 88-1, Page 2 of 3

of second degree robbery. We have jurisdiction under 28 U.S.C. § 2253, and we
affirm.
Rabb claims that the state trial court violated his right to confront two
witnesses by improperly allowing them to assert the privilege against selfincrimination. The California Court of Appeal denied this claim, determining that
one witness’s invocation of the privilege was adequately supported by concerns
over an unrelated murder case, and that the other’s invocation of the privilege,
although inadequately supported by the record, was nonetheless harmless given the
strength of the evidence against Rabb. In both instances, the California Court of
Appeal reasonably applied clearly established law. 28 U.S.C. § 2254(d). As for
the first witness, it was reasonable for the Court of Appeal to uphold the trial
court’s decision on the grounds that the witness’s testimony could be used against
him in the penalty phase of his murder trial. See Hoffman v. United States, 341
U.S. 479, 486 (1951). As for the second witness, there was ample evidence against
Rabb such that any error in allowing the witness to invoke the privilege did not
have a “substantial and injurious effect or influence in determining the jury’s
verdict.” Brecht v. Abrahamson, 507 U.S. 619, 637 (1993). This evidence
included a statement by a co-perpetrator implicating Rabb, an officer’s testimony
identifying Rabb as a suspect who fled from him after he pulled over the vehicle
2

Pet. App. H-95

Case: 13-55057, 03/29/2016, ID: 9918873, DktEntry: 88-1, Page 3 of 3

used to commit the crime, and a statement from Rabb’s girlfriend that Rabb had
borrowed the car used to commit the crime.
The California Court of Appeal also reasonably concluded that Sergeant
Banuelos’s testimony about statements made by the two witnesses did not violate
Rabb’s Confrontation Clause rights. The right to confront non-testifying witnesses
is triggered when the court admits hearsay statements that are testimonial in nature.
Crawford v. Washington, 541 U.S. 36, 68 (2004). Here, the trial court admitted
statements made by the victims just fifteen minutes after the carjacking, while
some perpetrators were still potentially armed and fleeing in a stolen car. The
California Court of Appeal reasonably determined that the statements were
directed to an ongoing emergency, not to a future prosecution, and thus they were
nontestimonial. See, e.g., Michigan v. Bryant, 562 U.S. 344, 377-78 (2011).
Because the Confrontation Clause only guarantees defendants the right to confront
witnesses when testimonial hearsay is introduced, Rabb’s claim fails.
We decline to address the two uncertified questions presented in Rabb’s
opening brief as Rabb has not shown that those issues were properly raised below.
Ninth Circuit Rule 22-1(e).
AFFIRMED.

3

Pet. App. H-96

Petitioner’s Appendix I

Case: 17-70600, 03/01/2017, ID: 10338162, DktEntry: 1-2, Page 1 of 6

Form 12.

Application for Leave to File Second or Successive Petition Under
28 U.S.C. § 2254 or Motion Under 28 U.S.C. § 2255
(New, 7/1/02; Rev. 7/1/16 )
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
P.O. Box 193939
San Francisco, California 94119-3939

Docket Number (to be provided by Court)
Applicant Name

Damen D. Rabb

Prisoner Registration Number

P82951

Address

High Desert State Prison, cell D6-224, P.O. Box 3030, Susanville, CA
96127
Name of Respondent (Warden) M. Eliot Spearman

Instructions - Read Carefully
(1) This application, whether handwritten or typewritten, must be legible and signed by the applicant under
penalty of perjury. An original must be provided to the Clerk of the Ninth Circuit. The application must
comply with 9th Circuit Rule 22-3, which is attached to this form.
(2) All questions must be answered concisely. Add separate sheets if necessary.
(3) If this is a capital case, the applicant shall serve a copy of this application and any attachments on
respondent and must complete and file the proof of service that accompanies this form. If this is not a capital
case, service on the respondent is not required.
(4) The proposed 28 U.S.C. § 2254 petition or 28 U.S.C. § 2255 motion that applicant seeks to file in the
district court must be included with this form.
(5) Applicants seeking authorization to file a second or successive section 2254 habeas corpus petition shall
include copies of all relevant state court decisions if reasonably available.

You Must Answer the Following Questions:
(1) What conviction(s) are you challenging?
Carjacking and Robbery (§215(a); §211; §12022(a)(1); §12022.53(b);
§186.22(b)(1)(C); §1170.12(a)-(d); §667(b)-(i); §667(a)(1); §667.5(b)).

(2) In what court(s) were you convicted of these crime(s)?
Los Angeles Superior Court - Criminal Justice Center Dept. 105
210 West Temple Street Los Angeles, CA 90012-3210

Pet. App. I-97

Case: 17-70600, 03/01/2017, ID: 10338162, DktEntry: 1-2, Page 2 of 6
(3) What was the date of each of your conviction(s) and what is the length of each sentence?
June 13, 2007 - 75 years to life

For questions (4) through (10), provide information separately for each of your previous
§§ 2254 or 2255 proceedings. Use additional pages if necessary.
(4) Has the judgment of your conviction or sentence been modified or amended? If yes, when and by what
court?
No.

(5) With respect to each conviction and sentence, have you ever filed a petition or motion for habeas corpus
relief in federal court under 28 U.S.C. § 2254 or § 2255?
Yes X

No
(a) In which federal district court did you file a petition or motion?
Central District of California
(b) What was the docket number?
2:11-cv-05110-JAK-JPR
(c) On what date did you file the petition/motion?
June 17, 2011

(6) What grounds were raised in your previous habeas proceeding?
(list all grounds and issues previously raised in that petition/ motion)
Fifth Amendment right to confront witnesses was violated when witnesses were permitted not to
testify; Confrontation right was violated by the introduction of police testimony of the alleged
statements of the non-appearing witnesses; 8th and 14th Am. violations by imposition of multiple
sentences; Unconstitutional denial of funds for expert.

(7) Did the district court hold an evidentiary hearing?

Yes

No X

(8) How did the district court rule on your petition/motion?
District court dismissed petition/motion? If yes, on what grounds?

X District court denied petition/motion;
District court granted relief; if yes, on what claims and what was the relief?

Pet. App. I-98

Case: 17-70600, 03/01/2017, ID: 10338162, DktEntry: 1-2, Page 3 of 6
(9) On what date did the district court decide your petition/motion?
October 24, 2012

(10) Did you file an appeal from that disposition?

Yes X

No

(a) What was the docket number of your appeal?
13-55057

(b) How did the court of appeals decide your appeal?
Affirmed the denial of relief.

(11) State concisely each and every ground or issue you wish to raise in your current petition or motion for
habeas relief. Summarize briefly the facts supporting each ground or issue.
(1) Petitioner is innocent of the crime: A sworn declaration from the primary victim clears Mr. Rabb of involvement
in the carjacking and robbery. (2) Trial Counsel Was Ineffective Because He Failed to Put on a Defense Case: Trial
counsel failed to present evidence of Petitioner's innocence, failed to put on critical witnesses, and was not
mentally present during the presentation of the prosecution's case. (3) Appellate Counsel Was Ineffective: Appellate
counsel failed to challenge the ineffective assistance of trial counsel and failed to raise the wrongful exclusion of
investigator Mendoza's 2007 interviews of the two victims; (4) The Trial Court Violated Petitioner's Constitutional
Right to Confront Witnesses When it Admitted The Victims' Statements Through Police Officers: De'Shawn Chappell's
Fifth Amendment invocation was impermissible. (5) The Prosecution Intentionally Misled the Jury, the Court, and the
Defense: The prosecution misled the jury to believe that the victims were not gang members. (6) Cumulative error.

(12) For each ground raised, was it raised in the state courts? If so, what did the state courts rule and when?
(Attach a copy of all relevant state court decisions, if available)

Claim three was raised in the California Court of Appeal on direct appeal and in the California Supreme
Court in a Petition for Review. The other claims were not raised in the state courts.

(13) For each ground/issue raised, was this claim raised in any prior federal petition/motion?
(list each ground separately)
Claim three was raised in Mr. Rabb's federal petition.

(14) For each ground/issue raised, does this claim rely on a new rule of constitutional law?
(list each ground separately and give case name and citation for each new rule of law)
No.

(15) For each ground/issue raised, does this claim rely on newly discovered evidence? What is the evidence
and when did you discover it? Why has this newly discovered evidence not been previously available to you?
(list each ground separately)
The short answer to the questions are found in the attachment, but the newly discovered evidence is described in detail
in the attached Petition at Sections I and II, incorporated by reference as though set forth fully herein.

Pet. App. I-99

Case: 17-70600, 03/01/2017, ID: 10338162, DktEntry: 1-2, Page 4 of 6
(16) For each ground/issue raised, does the newly discovered evidence establish your innocence?
How?
The new evidence absolutely establishes Petitioner's innocence. (See Petition Sections I and II.) Mr. Farmer stood face
to face with his assailant as the man reached into Mr. Farmer's pocket to take his money before taking the car he was
driving. There is no better eyewitness than Mr. Farmer, and only now has Petitioner had the means to collect a sworn
statement under penalty of perjury from Mr. Farmer that Mr. Rabb was not the man who robbed him. This is the absolute
best evidence on the question of Mr. Rabb's innocence.

(17) For each ground/issue raised, does the newly discovered evidence establish a federal
constitutional error? Which provision of the Constitution was violated and how?
See attachment.

(18) Provide any other basis for your application not previously stated.
After appointment in the Ninth Circuit, undersigned counsel repeatedly begged this Court to stay and remand
pursuant to Crateo. Counsel twice filed motions and re-raised Mr. Rabb's innocence in the Opening Brief, the
Reply and a petition for rehearing. Mr. Rabb is actually innocent and this is his last chance at spending his
life in prison for a crime he did not commit. It would be the truest travesty of justice for him never to have
any court review the evidence of his innocence and the plethora of constitutional violations that the evidence
proves. This application should be granted because this case represents the exact type of extraordinary
circumstance that merits a successive petition.

Date: February 28, 2017

Signature:

/S/ Brian M. Pomerantz

In capital cases only, proof of service on respondent MUST be attached. A sample proof of service is
attached to this form.
Attach proposed section 2254 petition or section 2255 motion to this application.

Pet. App. I-100

Case: 17-70600, 03/01/2017, ID: 10338162, DktEntry: 1-2, Page 5 of 6

15.

Grounds 1, 2, 4, 5, and 6 all rely on the same newly discovered evidence.
Although Mr. Rabb has been proclaiming his innocence for a decade, he
was only able to obtain a sworn declaration from the victim (Mr. Farmer) on
March 4, 2016 when Habeas Counsel was able to obtain the newly
discovered evidence. (See Pet. Exh. 2.) Because both Mr. Rabb and Mr.
Farmer are and have been incarcerated for the pendency of Mr. Rabb’s
incarceration, and because Mr. Rabb did not have state habeas counsel or
funds to hire an investigator, he had no way to previously obtain a
declaration from Mr. Farmer. In the newly obtained declaration, the first
sworn statement from Mr. Farmer on the matter, he states that he remembers
the man that robbed and carjacked him at gun point, and that after looking at
a photograph of Mr. Rabb (Pet. Exh. 1), that is not the person that robbed
and carjacked him. Mr. Farmer further stated that the police lied when they
said that he was scared and not calm and that he was not stressed, excited,
mad, or physically shaken. (Therefore his alleged statements should not
have qualified as excited utterances - which is how they were admitted.) He
also said that the assailant never said anything about gangs.

17.

The newly discovered proof of Mr. Rabb’s innocence establishes federal
constitutional error in Grounds 1, 2, 4, 5, and 6. Ground One: Mr. Rabb Is
Factually Innocent - Mr. Rabb’s wrongful conviction was the result of
violations of the 5th, 6th, 8th, and 14th Amendments of the U.S.
Constitution because Mr. Rabb’s constitutional rights to due process, to the
effective assistance of counsel, to equal protection, and to be free from cruel
and unusual punishment, were all violated by his incarceration for crimes
that he did not commit. Ground Two – Trial Counsel Was Ineffective - Mr.
Rabb’s 5th, 6th, 8th, and 14th Amendment rights to due process, to the
effective assistance of counsel, to equal protection, and to be free from cruel
and unusual punishment, were all violated by trial counsel’s ineffectiveness
in obtaining proof of his innocence and getting it admitted at trial. Ground
Four: the Trial Court Violated Mr. Rabb’s Constitutional Right to Confront
Witnesses When it Admitted the Victims’ Alleged Statements Through
Sergeant Banuelos - Mr. Rabb’s 5th and 14th Amendment rights to due
process and equal protection, the 6th Amendment’s right to confrontation,
and the 8th Amendment’s right to be free from cruel and unusual
punishment, were all violated by the trial court’s improper admission of
witness statements through Sgt. Banuelos. Ground Five: The Prosecution
Intentionally Misled the Jury, the Court, and the Defense - Mr. Rabb’s 5th,
6th, 8th, and 14th Amendment rights to due process, to the effective

Pet. App. I-101

Case: 17-70600, 03/01/2017, ID: 10338162, DktEntry: 1-2, Page 6 of 6

assistance of counsel, to equal protection, and to be free from cruel and
unusual punishment, were all violated by the prosecutorial misconduct.
Ground Six: Cumulative Error encompasses all of the above referenced
violations.

Pet. App. I-102

Petitioner’s Appendix J

Case: 17-70600, 07/13/2018, ID: 10941742, DktEntry: 16-1, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUL 13 2018
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DAMEN RABB,

No.

17-70600

Applicant,
v.

ORDER

M. ELIOT SPEARMAN,
Respondent.
Before:

CANBY, W. FLETCHER, and CALLAHAN, Circuit Judges.

We have reviewed the application for authorization to file a second or
successive 28 U.S.C. § 2254 habeas corpus petition, the response, and the reply.
The application makes a prima facie showing for authorization under 28 U.S.C.
§ 2244(b)(2)(B), and is granted.
We express no opinion as to the merits of the applicant’s claims or whether
the procedural requirements of 28 U.S.C. §§ 2244(d) and 2254 are satisfied.
The Clerk shall transfer the proposed section 2254 petition filed at Docket
Entry No. 1, to the United States District Court for the Central District of
California. The proposed petition shall be deemed filed in the district court on
March 1, 2017, the date on which it was filed in this court. See Orona v. United
States, 826 F.3d 1196, 1198-99 (9th Cir. 2016) (AEDPA’s statute of limitations
period is tolled during pendency of an application).

Pet. App. J-103

Case: 17-70600, 07/13/2018, ID: 10941742, DktEntry: 16-1, Page 2 of 2

The Clerk shall also serve on the district court this order and the application,
response, and reply filed at Docket Entry Nos. 1, 11, and 14.
Upon transfer of the proposed petition, the Clerk shall close this original
action.
No further filings will be entertained in this case.
GRANTED; PROPOSED PETITION TRANSFERRED to the district
court.

2

17-70600

Pet. App. J-104

Petitioner’s Appendix K

Case: 13-55057

pRESTRICTED
am- 01/14/2013
u

7
at >2-11f-4LovedDktEntry:
Page: 1 of 28

ID: 8473559

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION TWO

B206611

THE PEOPLE,
Plaintiff and Respondent,
v.

(Los Angeles County
Super. Ct. No. BA290495)
COURT OF APPEAL - SECOND DIS -

/P 11 EL,

DAMEN RABB,

FEB I 0 2010

Defendant and Appellant.

JOSEPH A, LAN=

Clerk
Deputy Clerk

APPEAL from a judgment of the Superior Court of Los Angeles County.
Robert S. Bowers, Jr., Judge. Affirmed.

- Valerie G. Wass, under appointment by the Court of Appeal, for Defendant and
Appellant.

Edmund G. Brown, Jr., Attorney General, Dane R. Gillette, Chief Assistant
Attorney General, Pamela C. Hamanaka, Assistant Attorney General, Steven D.
Matthews and Shawn McGahey Webb, Deputy Attorneys General, for Plaintiff and
Respondent.

FLEB

- SOUTHERN DIVISION
LODGED
CLERK, U.S DISTRICT COURT

\.00■11RAL

1 5 26a
1
CALI —ORNIA

DEPUIN I

Pet. App. K-105

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 2 of 28

A jury convicted Damen Rabb also known as Damon Rabb (appellant) of two
counts of carjacking (counts 1 & 2; Pen. Code, § 215, subd. (a))1 and two counts of
second degree robbery (counts 3 & 4; § 211). The jury found that appellant personally
used a firearm during the offenses, that a principal was armed with a firearm during the
offenses, and that appellant committed the offenses for the benefit of, at the direction of,
and in association with a criminal street gang with the specific intent to promote, further,
or assist in criminal conduct by gang members.
In a separate proceeding, the trial court found that appellant had suffered two prior
felony convictions that qualified as strikes under the Three Strikes Law (§§ 1170.12,
subds. (a)-(d); 667, subds. (b)-(i)) and as serious felonies under section 667, subdivision
(a)(1), and that appellant had served a prior prison term (§ 667.5, subd. (b)). On each
count, the trial court sentenced appellant to 25 years to life for the substantive offense
plus 10 years for the personal firearm use enhancement. The trial court ordered counts 1
and 2 to run consecutively, ordered count 3 to run concurrently with counts 1 and 2, and
stayed count 4 pursuant to section 654. Additionally, the trial court imposed a five-year
term for the serious felony enhancement and struck sentences on the remaining
enhancements.
At the time of appellant's trial, the victims of the carjacking and robbery were in
custody on unrelated charges. They invoked their Fifth Amendment right against selfincrimination and refused to testify at appellant's trial. On appeal, appellant contends the
trial court committed reversible error by: (1) admitting statements made by the victims to
a police officer shortly after the charged crimes took place as "spontaneous statements"
under Evidence Code section 1240; (2) not determining whether the victims had a valid
Fifth Amendment right before allowing the victims to avoid testifying at trial;
(3) denying appellant's request for additional funds to secure expert testimony on

All further statutory references are to the Penal Code unless otherwise indicated.
2

Pet. App. K-106

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 3 of 28

psychological factors affecting eyewitness identifications; and (4) not staying punishment
on count 3 pursuant to section 654. We affirm.
FACTUAL BACKGROUND
On September 19, 2005, at approximately 1:30 a.m., Los Angeles Police
Department (LAPD) Officer David Ashley received a radio call broadcast that possible
crimes had occurred at a gas station on the corner of Figueroa Street and Vernon Avenue.
Within five minutes of receiving the radio call, Officer Ashley arrived at the location and
was flagged down by Maurice Farmer (Farmer) and DeShawn Chappell (Chappell).
Farmer, who appeared nervous and upset, told Officer Ashley that a man had pointed a
gun at him, asked him where he was from, and then took his car. Farmer described the
assailant as a Black male wearing a light blue T-shirt, medium build, five feet six inches
tall, with light skin, braids in his hair, a tattoo of a teardrop under his right eye, and a
tattoo of a hand and finger on his forearm. Farmer also told Officer Ashley that a green
Toyota Camry was involved in the incident. Officer Ashley immediately broadcasted the
information he received from Farmer to LAPD units and stayed at the gas station with
Farmer and Chappell.
Around the same time, at approximately 1:30 a.m., LAPD Sergeant Frank
Banuelos was on routine patrol. He saw a green Camry speeding with its lights off.
After the green Camry failed to stop at a red light, Sergeant Banuelos initiated a traffic
stop. The stop occurred on West 45th Street, approximately one mile away from the gas
station where Farmer's car had been taken. Sergeant Banuelos parked approximately 30
feet away from the stopped Camry and illuminated the area with his police vehicle's
overhead lights and spotlight.
The driver and a passenger exited the green Camry. The passenger stared at
Sergeant Banuelos for two to four seconds and then ran away. Before the passenger fled,
Sergeant Banuelos had the opportunity to observe that the passenger was a heavyset
Black male wearing a light blue long sleeved shirt, and had light skin, braided hair, and a
tattoo of a teardrop on his right cheek. Sergeant Banuelos radioed for assistance in
3

Pet. App. K-107

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 4 of 28

setting up a perimeter and then detained the driver, who was later identified as Kendra
Brown (Brown). As the sergeant was placing Brown into custody, Brown spontaneously
asked him whether her detention was related to what happened "at the gas station."
Sergeant Banuelos asked Brown what gas station she was referring to, and she identified
the gas station on Figueroa Street and Vernon Avenue.
Sergeant Banuelos immediately called the LAPD communications division to
inquire about whether there had been a request for service at a gas station on Figueroa
Street and Vernon Avenue and was connected through to Officer Ashley. Officer Ashley
explained that he was at that location investigating a carjacking and that the suspect
vehicle was a green Camry. Sergeant Banuelos left Brown with another unit at the 45th
Street location and drove to the gas station. He arrived at the gas station approximately
15 minutes after the incident had occurred.
According to Sergeant Banuelos, both Farmer and Chappell appeared under
"stress" from the incident. They were pacing back and forth and appeared
"excited . . . mad, [and] physically shaken." Sergeant Banuelos testified that he had
difficulty calming them down in order to speak with them. Sergeant Banuelos spoke with
Farmer first, who told Sergeant Banuelos that he had been robbed of his vehicle and some
personal property at gunpoint. Sergeant Banuelos testified that Farmer told him the
following: Farmer was pumping gas into his Chevrolet Equinox when a green Camry,
driven by a woman, approached him. A man (the assailant) exited the Camry, pointed a
gun at Farmer, and asked Farmer where he was from. Meanwhile, another man carrying
a gun, exited the Camry from the rear right passenger door and acted as a lookout.
Farmer told the assailant that he was not a gang member. The assailant pointed the gun at
Farmer, said to Farmer "It's that 40's life," and then took $15 from Farmer's person.
After the assailant took the $15 from Farmer, the assailant instructed Chappell to get out
of the Equinox. The assailant asked Chappell whether Chappell had any property and
Chappell responded in the negative.

4

Pet. App. K-108

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 5 of 28

Chappell told Sergeant Banuelos that the assailant had pointed a gun at him and
had instructed him to get out of the Equinox. Chappell complied and the assailant
boarded the Equinox and drove off. The lookout reentered the green Camry and that car
drove off as well. Chappell stated that during the incident, he was afraid that he would
die.
According to Sergeant Banuelos, both Farmer and Chappell described the assailant
as a Black male with a blue shirt, braids, a tattoo on his face, and a tattoo on his forearm
of a hand making a gang sign.
Back at the 45th Street location, LAPD Officer Eddie Martinez was standing by
with Brown in custody. A man, later identified as Earl Parron (Parron), walked up to the
scene and asked the officers "what was going on." Parron, who is Black, had broken
leaves on his sweater. Officer Martinez and his partner decided to detain Parron because
Sergeant Banuelos had told them that a Black male had fled from the scene earlier and
Parron appeared as though he might have been running or possibly hiding based on the
broken leaves on his sweater. When Sergeant Banuelos returned to the 45th Street
location, he indicated that Parron was not the man that he saw fleeing from him earlier
when he pulled over the green Camry.
Around the same time, Officer Ashley transported Farmer and Chappell to the
45th Street location for a field showup. According to Officer Ashley, as soon as Farmer
and Chappell approached the location, they saw the green Camry and yelled: "That's the
car, that's the car." Farmer and Chappell also told Officer Ashley that they recognized
Brown as the driver of the green Camry and Parron as the lookout. They further told
Officer Ashley that Parron and the assailant were carrying blue steel revolvers. Officers
searched the green Camry and found three loaded blue steel revolvers in the trunk.
That night, Sergeant Banuelos learned that the green Camry was registered to a
person named Tequila Richmond (Richmond). He sent two officers to Richmond's home
address. The officers asked her about the whereabouts of her vehicle and she told them
that the green Canny belonged to her and that she had loaned it to "Damen Rabb," her
5

Pet. App. K-109

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 6 of 28

boyfriend. Sergeant Richmond asked station officers to run a check on that name and
they sent him a booking photograph of appellant. At trial, Sergeant Banuelos testified
that the person in the booking photograph, i.e., appellant, was the person that fled from
him on the night of the incident.2
On September 20, 2005, the next day, officers located the Equinox in an area
where Brown had told them they would find it.
Also, on that day, LAPD Detective Theodore Williams interviewed Parron, who
was in custody, after Parron had waived his Miranda3 rights. According to Detective
Williams, Parron told him the following: On the day of the incident, Parron, Brown, and
appellant were at the gas station on Figueroa Street and Vernon Avenue when they saw
Farmer and Chappell. Appellant stated that he wanted to talk with Farmer and Chappell,
and instructed Parron to act as his "backup" in case problems arose. Both appellant and
Parron were carrying handguns at the time. Parron saw appellant approach Farmer and
Chappell, board the Equinox, and drive off. Detective Williams prepared a six-pack
photographic display that contained appellant's photograph and presented it to Parron.
Parron circled appellant's photograph and identified appellant as the individual who took
Farmer's Equinox at gunpoint. During the interview with Detective Williams, Parron
appeared nervous and scared. Parron subsequently entered a plea of no contest to one
count of carjacking. Appellant was arrested sometime after the incident in question.
At the time of trial, Farmer and Chappell were in custody on murder charges for
unrelated incidents. Outside the presence of the jury, both individuals invoked their Fifth
Amendment right against self-incrimination and the trial court ruled that they would not

The booking photograph depicts a teardrop tattoo on the left side of appellant's
face, and not the right side as Sergeant Banuelos had originally recalled. At trial,
Sergeant Banuelos was shown the booking photograph and testified that with the benefit
of the photograph, he recalled that the teardrop tattoo was indeed on the left side of
appellant's face.

2

3

Miranda v. Arizona (1966) 384 U.S. 436 (Miranda).
6

Pet. App. K-110

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 7 of 28

be required to take the witness stand at appellant's trial. Brown, who was in custody
pursuant to a plea agreement, also invoked her Fifth Amendment right against selfincrimination outside the presence of the jury and refused to testify.
At trial, Parron testified that he did not recall who he was with on September 19,
2005, nor did he recall being at the gas station on Figueroa Street and Vernon Avenue on
that date. Parron testified that he was not acquainted with appellant and did not recognize
appellant. Parron denied ever speaking with Detective Williams and denied identifying
appellant in a photographic display. Parron admitted to being a member of the Rolling
40's Neighborhood Crips gang.
LAPD Officer Brian Richardson, the prosecution's gang expert, testified that the
Rolling 40's Neighborhood Crips is a criminal street gang whose primary activities
include the commission of various crimes that are listed in section 186.22, subdivision
(e). According to Officer Richardson, appellant was a member of the Rolling 40's
Neighborhood Crips on September 19, 2005, and his acts of carjacking and robbery
benefitted that gang because the stolen car would have assisted in other gang shootings
and homicides, and the stolen money would have furthered the purchase of weapons and
drugs. The prosecution showed Officer Richardson photographs of tattoos on appellant's
face, torso, and arms. Officer Richardson confirmed that appellant had a tattoo of a
teardrop underneath his left eye and a tattoo of a hand making a gang sign on his arm.
During the prosecution's case, the trial court read the following instructions to the
jury: "The court is taking judicial notice and hereby advising the jury that Maurice
Farmer was called as a witness in this case outside the presence of the jury, and that
Maurice Farmer, with the advice of his counsel, refused to testify, basing his refusal on
his constitutional privilege against self-incrimination.
"The court is taking judicial notice of and is hereby advising the jury that
DeShawn Chappell was called as a witness in this case outside the presence of the jury,

Pet. App. K-111

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 8 of 28

and that DeShawn Chappell, with the advice of counsel, refused to testify, basing his
refusal on self-incrimination."4
On behalf of the defense, private investigator Daniel Mendoza (Mendoza) testified
that in May of 2007, he interviewed Parron while Parron was in custody. During the
interview, Parron told Mendoza the following: On the night of September 19, 2005,
Parron consumed two grams of marijuana, two ecstasy pills, and a bottle of vodka at a
party. After Parron was detained, the police coerced him into making certain
incriminating statements. Parron denied knowing appellant and stated that he did not
recognize appellant's photograph.
DISCUSSION
I. Spontaneous Statements
A. Appellant's Argument
Appellant concedes that the statements made by Farmer and Chappell to Officer
Ashley five minutes after the incident were admissible as "spontaneous statements" under
Evidence Code section 1240. He contends, however, that the statements Farmer and
Chappell made to Sergeant Banuelos were not admissible as spontaneous statements
because the declarants made the statements 15 minutes after the incident when there was
no longer an ongoing emergency.
B. Relevant Authority
"A statement may be admitted, though hearsay, if it describes an act witnessed by
the declarant and [w]as made spontaneously while the declarant was under the stress of
excitement caused by' witnessing the event. (Evid. Code, § 1240.)" (People v. Gutierrez
(2009) 45 Ca1.4th 789, 809 (Gutierrez).) "`To render [statements] admissible [under the
spontaneous declaration exception] it is required that (1) there must be some occurrence
startling enough to produce this nervous excitement and render the utterance spontaneous

The trial court gave a similar instruction with regard to Brown's refusal to testify.
Appellant does not contend that the trial court's decision to allow Brown not to testify
was erroneous.
8
4

Pet. App. K-112

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 9 of 28

and unreflecting; (2) the utterance must have been before there has been time to contrive
and misrepresent, i.e., while the nervous excitement may be supposed still to dominate
and the reflective powers to be yet in abeyance; and (3) the utterance must relate to the
circumstance of the occurrence preceding it.' [Citationsl" (People v. Poggi (1988) 45
Ca1.3d 306, 318 (Poggi).)
"The word 'spontaneous' as used in Evidence Code section 1240 means 'actions
undertaken without deliberation or reflection. . . . [T]he basis for the circumstantial
trustworthiness of spontaneous utterances is that in the stress of nervous excitement, the
reflective faculties may be stilled and the utterance may become the instinctive and
uninhibited expression of the speaker's actual impressions and belief.' (People v. Farmer
(1989) 47 Cal.3d 888, 903, overruled on another point in People v. Waidla (2000) 22
Ca1.4th 690, 724, fn. 6.)" (Gutierrez, supra, 45 Ca1.4th at p. 811.)
"The crucial element in determining whether an out-of-court statement is
admissible as a spontaneous statement is the mental state of the speaker." (Gutierrez,
supra, 45 Ca1.4th at p. 811.) "The nature of the utterance—how long it was made after
the startling incident and whether the speaker blurted it out, for example—may be
important, but solely as an indicator of the mental state of the declarant." (People v.
Farmer, supra, 47 Ca1.3d at p. 903.)
C. Analysis
. When the record is viewed in light of the factors articulated by the Supreme Court
in Poggi, we conclude that the statements made by Farmer and Chappell to Sergeant
Banuelos 15 minutes after the charged crimes occurred were properly admitted as
"spontaneous statements" under Evidence Code section 1240. The parties dispute
whether the trial court admitted the statements in question under Evidence Code section
1240 or some other ground. However, because we conclude the statements qualify as
"spontaneous statements" under Evidence Code section 1240 and were admissible for
this reason, the trial court's reasoning for admitting the statements is beside the point at

9

Pet. App. K-113

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 10 of 28

this juncture. (People v. Geier (2007) 41 Ca1.4th 555, 582 ["we review the ruling, not the
court's reasoning and, if the ruling was correct on any ground, we affirm"].)
First, there was certainly an "occurrence startling enough to produce . . . nervous
excitement and render the utterance spontaneous and unreflecting." (Poggi, supra, 45
Cal.3d at p. 318.) Farmer and Chappell were held up at gunpoint and both believed that
their lives were at risk. Second, they made their statements to Sergeant Banuelos just 15
minutes after they had been held up when their "nervous excitement" undoubtedly still
dominated their reflective powers. (Ibid.) Farmer and Chappell appeared under "Stress"
from the incident, were pacing back and forth, and acted "excited . . .Mad, [and]
physically shaken." According to Sergeant Banuelos, "it was difficult for [him] to
actually calm them down and talk to them." Third, their statements described what
occurred, provided a physical description of the assailant, and related directly to the
circumstances that led to their call for police help. (Poggi, supra, at p. 318 ['the
utterance must relate to the circumstance of the occurrence preceding it'"].)
Appellant argues that too much time, i.e., 15 minutes, elapsed between when the
incident occurred and when Farmer and Chappell spoke to Sergeant Banuelos to qualify
their statements as spontaneous. As the Supreme Court explained in Gutierrez, however,
"[t]he crucial element in determining whether an out-of-court statement is admissible as a
spontaneous statement is the mental state of the speaker" and not necessarily the time
between the statement and the incident it describes. (Gutierrez, supra, 45 Cal.4th at
p. 811.) As discussed above, both Farmer and Chappell were still nervous and excited by
the time Sergeant Banuelos arrived at the gas station and he had difficulty calming them
down before he spoke to them. In any event, the time that elapsed in this case, 15
minutes, is less than other periods of time that have still resulted in spontaneous
statements. (See, e.g., Poggi, supra, 45 Ca1.3d at p. 319 [witness's statements made 30
minutes after attack held spontaneous]; People v. Saracoglu (2007) 152 Cal.App.4th
1584, 1589 ["no more than about 30 minutes had gone by" between the underlying
incident and the witness's statement; court held statement was "spontaneous" and noted
10

Pet. App. K-114

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 11 of 28

that "[m]uch longer periods of time have been found not to preclude application of the
spontaneous utterance hearsay exception"].)
Appellant also argues that by the time Farmer and Chappell spoke to Banuelos,
Brown and Parron were already in custody and thus there was no ongoing emergency.
There is nothing in the record, however, that indicates Farmer and Chappell knew Brown
and Parron were in custody at the time they spoke with Sergeant Banuelos. What matters
is the mental state of the declarant, and here Farmer and Chappell were likely under the
impression that the individual who threatened their lives, as well as his cohorts, were at
large when they spoke to Sergeant Banuelos 15 minutes after the incident had occurred.
In sum, we conclude the trial court properly admitted the statements made by
Farmer and Chappell to Sergeant Banuelos as spontaneous statements under Evidence
Code section 1240.
II. Crawford5 Issue
A. Appellant's Argument
Appellant contends that even if the statements made by Farmer and Chappell to
Sergeant Banuelos fell within the hearsay exception for spontaneous statements, their
admission nonetheless violated his Sixth Amendment rights under the Confrontation
Clause.
B. Relevant Authority
In Ohio v. Roberts (1980) 448 U.S. 56, 66, the Supreme Court held that an
unavailable witness's hearsay statement could be admitted without violating the Sixth
Amendment's Confrontation Clause if the statement bore "adequate `indicia of
reliability,'" such as if it fell "within a firmly rooted hearsay exception" or bore
"particularized guarantees of trustworthiness."
In Crawford, supra, 541 U.S. at p. 59 the Supreme Court reconsidered its ruling in
Ohio v. Roberts and held that if a hearsay statement is testimonial in nature, it is

5

Crawford v. Washington (2004) 541 U.S. 36, 59 (Crawford).
11

Pet. App. K-115

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 12 of 28

admissible only "where the declarant is unavailable, and only where the defendant has
had a prior opportunity to cross-examine" the declarant. The Supreme Court was careful
to note that its decision implicated only testimonial hearsay and "[w]here nontestimonial
hearsay is at issue, it is wholly consistent with the Framers' design to afford the States
flexibility in their development of hearsay law—as does [Ohio v.] Roberts, and as would
an approach that exempted such statements from Confrontation Clause scrutiny
altogether." (Crawford, supra, at p. 68.) The Supreme Court declined to spell out a
comprehensive definition of 'testimonial' but noted that "[w]hatever else the term
covers, it applies at a minimum to prior testimony at a preliminary hearing, before a
grand jury, or at a former trial; and to police interrogations." (Ibid.)
In Davis v. Washington (2006) 547 U.S. 813 (Davis), the Supreme Court
explained further what it considered to be nontestimonial and testimonial statements. It
held that "[s]tatements are nontestimonial when made in the course of police
interrogation under circumstances objectively indicating that the primary purpose of the
interrogation is to enable police assistance to meet an ongoing emergency." (Id. at p.
822.) On the other hand, "[t]hey are testimonial when the circumstances objectively
indicate that there is no such ongoing emergency, and that the primary purpose of the
interrogation is to establish or prove past events potentially relevant to later criminal
prosecution." (Ibid.)
Building on the United States Supreme Court's decisions in Crawford and Davis,
our Supreme Court in People v. Cage (2007) 40 Ca1.4th 965 (Cage) identified several
"basic principles" to assist courts in determining whether a particular statement is
testimonial. The court explained that a testimonial statement need not be given under
oath, but it must have some "formality and solemnity characteristic of testimony" and
"must have been given and taken primarily . . . to establish or prove some past fact for
possible use in a criminal trial." (Id. at p. 984.) On the other hand, "statements elicited
by law enforcement officials are not testimonial if the primary purpose in giving and
receiving them is to deal with a contemporaneous emergency, rather than to produce
12

Pet. App. K-116

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 13 of 28

evidence about past events for possible use at a criminal trial." (Ibid.) "[T]he primary
purpose for which a statement was given and taken is to be determined 'objectively,'
considering all the circumstances that might reasonably bear on the intent of the
participants in the conversation." (Ibid.)
C. Analysis
With this background in mind, we turn to the issue presented in this appeal,
whether the spontaneous statements made by Farmer and Chappell to Sergeant Banuelos
were testimonial in nature. If they were testimonial, then they were subject to the
requirements of Crawford. If they were not testimonial, then their admissibility was
governed by "hearsay law . . . and . . . exempted . . . from Confrontation Clause scrutiny
altogether." (Crawford, supra, 541 U.S. at p. 68.)
People v. Corella (2004) 122 Cal.App.4th 461 (Corella) is instructive. In that
case, the victim called 9-1-1 immediately after the defendant had hit her. Sometime later
(the opinion does not specify the time elapse), a police officer responded to the scene.
(Id. at p. 465.) The victim, who was crying and distraught, told the officer that the
defendant had punched her several times on various parts of her body. (Ibid.) The trial
court admitted the victim's statements to the officer as spontaneous statements under
Evidence Code section 1240. (Corella, supra, at p. 464.) On appeal, defendant argued
that the admission of the victim's statements violated his Sixth Amendment right to
confrontation as interpreted by Crawford. (Corella, supra, at p. 465.) The Court of
Appeal rejected the defendant's argument. It reasoned that even though Crawford
included responses to "police interrogation" in its definition of testimonial statements, the
"spontaneous statements [made by the victim] describing what had just happened did not
become part of a police interrogation merely because Officer Diaz was an officer and
obtained information from [her]." (Corella, supra, at p. 469.). The court explained that
"[p]reliminary questions asked at the scene of a crime shortly after it has occurred do not
rise to the level of an 'interrogation" and that "[s]uch an unstructured interaction

13

Pet. App. K-117

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 14 of 28

between officer and witness bears no resemblance to a formal or informal police inquiry
that is required for a police 'interrogation' as that term is used in Crawford." (Ibid.)
Turning to the nature of spontaneous statements generally, the Corella court stated
that "it is difficult to identify any circumstances under which [an Evidence Code] section
1240 spontaneous statement would be 'testimonial' because "statements made without
reflection or deliberation are not made in contemplation of their 'testimonial' use in a
future trial." (Corella, supra, 122 Cal.App.4th at p. 469; see also People v. Brenn (2007)
152 Cal.App.4th 166, 178 [statements made by stabbing victim to responding officer
while assailant was still at large were spontaneous statements under Evidence Code
section 1240 and nontestimonial because the officer was there to assist the victim and not
to prepare for trial, and questioning was informal, brief, and unstructured].)
In People v. Pedroza (2007) 147 Cal.App.4th 784 (Pedroza), another instructive
case, the victim told three different responding officers that her husband had burned her.
The Court of Appeal held that her statements to the officers were spontaneous statements
and nontestimonial because the primary purpose of the officers' inquiries were to meet an
ongoing emergency and "the statements were hardly taken under the calm circumstances
of a formal interrogation." (Id. at p. 794.) "They were not the result of a tape-recorded
statement taken at a police station, as in Crawford, or a handwritten account prepared in a
room with an officer nearby, as in Hammon [v. Indiana (2006) 547 U.S. 813]. Nor did
the statements purport to describe past events that occurred some time ago." (Ibid.)
Like the statements made by the victims in Corella and Pedroza, the primary
purpose of the statements made by Farmer and Chappell to Sergeant Banuelos were to
assist him in responding to an ongoing emergency. When Sergeant Banuelos arrived at
the gas station, which was just 15 minutes after Farmer and Chappell had been held up at
gunpoint, the assailant, who was armed and driving a stolen vehicle, was at large. Farmer
and Chappell, who feared for their lives when the incident occurred, were undoubtedly
still afraid that the assailant would return. They were nervous, agitated, and hard to calm
down. Their descriptions of what occurred and the physical appearance of the assailant
14

Pet. App. K-118

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 15 of 28

"were hardly taken under the calm circumstances of a formal interrogation." (Pedroza,
supra, 147 Cal.App.4th at p. 794.) Moreover,•unlike the interrogation in Crawford,
which took place at the police station some time after the incident, the responses elicited
by Sergeant Banuelos occurred at a gas station when Farmer and Chappell were still
under the stress of what had happened to them.
In sum, when we 'objectively' consider "all the circumstances that might
reasonably bear on the intent of the participants in the conversation," it is clear that the
"primary purpose in giving and receiving [the statements by Farmer and Chappell was] to
deal with a contemporaneous emergency, rather than to produce evidence about past
events for possible use at a criminal trial." (Cage, supra, 40 Cal.4th at p. 984.)
Accordingly, the statements were not testimonial in nature and thus not subject to the
requirements of Crawford.
III. Victims' Invocation of the Fifth Amendment
A. Appellant's Argument
Appellant argues "the trial court committed reversible error by allowing the
victims to assert a blanket privilege against self-incrimination without requiring them to
be sworn and respond to questions so that it could determine whether each victim had a
valid Fifth Amendment privilege."
B. Summary of Proceedings Below
Before trial commenced, the prosecution explained to the trial court that both
Farmer and Chappell were in custody on unrelated "murder charges[.]" The prosecution
stated its intention to call Farmer and Chappell as witnesses but warned the trial court
that both witnesses had indicated an unwillingness to cooperate. The trial court stated
that it wanted to hear from the victims and their counsel to determine whether they would
be testifying at appellant's trial.
Chappell appeared first before the trial court. Chappell's counsel was present, but
the prosecution was not. Chappell's counsel stated that he was "fully aware of the
circumstances of Mr. Chappell's murder case" and in his assessment, Chappell's
15

Pet. App. K-119

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 16 of 28

testimony in appellant's case would not "in any way" incriminate Chappell. When asked
by the trial court whether he intended to testify, Chappell maintained, despite his
counsel's advice: "No. I'm not going to testify. I'm not going to testify." The trial
court adjourned the proceeding, stating that the prosecution should be present before any
formal invocation of the Fifth Amendment by Chappell.
Farmer then appeared before the trial court represented by counsel, this time with
the prosecution present. Farmer's counsel stated that Farmer was currently awaiting "a
district attorney decision on a special circumstance case" and that Farmer's possible
testimony at appellant's trial "raise[d] some rather sensitive issues." Farmer's counsel
went on to explain that he did not know whether the prosecution in Farmer's case would
seek the death penalty and thus the defense had to deal with "potential penalty phase"
issues if Farmer were to testify in appellant's case. Counsel maintained that there were
"issues" related to appellant's case "that would pose a problem for [Farmer], if he were to
testify[.]" For these reasons, counsel had advised Farmer not to testify at appellant's
trial.
The prosecution argued that it had a right to call Farmer as a witness and that
Farmer could then assert his Fifth Amendment guarantee "on a question by question
basis" while on the witness stand. The prosecution also made clear that it would not seek
to obtain immunity for either Farmer or Chappell in exchange for their testimony at
appellant's trial. The trial court then asked Farmer: "Mr. Farmer, I have to ask this for
the record. The bottom line is this. Rather than have you come into open court in front
of the jury, at this point in time, it is my understanding that if called to testify as a witness
in this matter, you would take the oath to tell the truth, but thereafter questions posed to
you, you would refuse to answer on the basis you believe those answers might tend to
incriminate you; is that accurate?" Farmer replied: "Yes." The trial court accepted
Farmer's invocation of the Fifth Amendment based on his counsel's representations that
testifying at appellant's trial might possibly incriminate him.

16

Pet. App. K-120

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 17 of 28

Chappell later appeared before the trial court, this time with the prosecution
present. The trial court asked Chappell: "Is it accurate to say, if called to testify in this
matter, you would take the oath and if questions were put to you, you would thereafter
refuse to answer the questions? Is that a fair statement, sir?" Chappell replied: "Yeah."
With that response, the trial court made a finding that "Mr. Chappell, if called to testify
as a witness in this matter, would in fact invoke his Fifth Amendment right against selfincrimination." The trial court indicated that its decision was based on the same
reasoning that it had applied in Farmer's case.
The trial court then declared both Farmer and Chappell unavailable for trial and
indicated to the prosecution that it was free to read prior statements by Farmer and
Chappell into the record. The prosecution clarified that Farmer and Chappell did not
testify at the preliminary hearing and that the prosecution intended to admit the
statements Farmer and Chappell made to both Officer Ashley and Sergeant Banuelos as
spontaneous statements.
C. Relevant Authority
The Fifth Amendment to the United States Constitution and article I, section 15 of
the California Constitution guarantee the privilege against self-incrimination. (People v.
Seijas (2005) 36 Ca1.4th 291, 304 (Seijas) ["It is a bedrock principle of American (and
California) law, embedded in various state and federal constitutional and statutory
provisions, that witnesses may not be compelled to incriminate themselves"].) The
privilege against self-incrimination consists of "two separate and distinct testimonial
privileges . . . In a criminal matter a defendant has an absolute right not to be called as a
witness and not to testify. [Citations.] Further, in any proceeding, civil or criminal, a
witness has the right to decline to answer questions which may tend to incriminate him in
criminal activity [citation]." (Cramer v. Tyars (1979) 23 Cal.3d 131, 137.)
The privilege against self-incrimination "must be accorded liberal construction in
favor of the right it was intended to secure." (Hoffman v. United States (1951) 341 U.S.
479, 486.) "California's Evidence Code states the test broadly in favor of the privilege:
17

Pet. App. K-121

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 18 of 28

`Whenever the proffered evidence is claimed to be privileged under Section 940 [the
privilege against self-incrimination], the person claiming the privilege has the burden of
showing that the proffered evidence might tend to incriminate him; and the proffered
evidence is inadmissible unless it clearly appears to the court that the proffered evidence
cannot possibly have a tendency to incriminate the person claiming the privilege.' (Evid.
Code, § 404, italics added.)" (Seijas, supra, 36 Cal.4th at p. 305.)
"It is 'the duty of [the] court to determine the legitimacy of a witness' [s] reliance
upon the Fifth Amendment. [Citation.]' (Roberts v. United States (1980) 445 U.S. 552,
560, fn. 7.)" (People v. Lopez (1999) 71 Cal.App.4th 1550, 1554 (Lopez).) "To avoid the
potentially prejudicial impact of having a witness assert the privilege against selfincrimination before the jury, we have in the past recommended that, in determining the
propriety of the witness's invocation of the privilege, the trial court hold a pretestimonial
hearing outside the jury's presence." (People v. Mincey (1992) 2 Ca1.4th 408, 441; see
also Lopez, supra, at p. 1555 ["Initial inquiries intended to test the validity of the claim
should be conducted outside the presence of the jury"].) While recommended, such a
pretestimonial hearing is not "required." (People v. Hill (1992) 3 Cal.4th 959, 992.) In
determining whether a valid privilege exists, the court should "consider the context and
circumstances in which [the privilege] is claimed." (People v. Ford (1988) 45 Cal.3d
431, 441 (Ford).)
"If the court finds a valid privilege exists, it can either limit the questions the
parties may ask before the jury or excuse the witness, if it becomes clear that any
testimony would implicate the privilege." (Lopez, supra, 71 Cal.App.4th at p. 1555.)
"Once a court determines a witness has a valid Fifth Amendment right not to testify, it is,
of course, improper to require him to invoke the privilege in front of a jury; such a
procedure encourages inappropriate speculation on the part of jurors about the reasons for
the invocation." (Id. at p. 1554.)

18

Pet. App. K-122

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 19 of 28

D. Analysis
At the outset we note that the People argue that appellant has waived this issue by
failing to object to the trial court's ruling below. While it is true that appellant did not
object below, the prosecution did object to the trial court's ruling and this was sufficient
to make an adequate appellate record and preserve the issue for review. (People v.
Brenn, supra, 152 Cal.App.4th at p. 174.)
We turn now to the trial court's acceptance of Farmer's invocation of the Fifth
Amendment privilege.
Outside the presence of the jury, Farmer's counsel explained in a pretestimonial
hearing that Farmer was in custody for murder and was possibly facing the death penalty.
Counsel represented to the trial court that if Farmer were to testify in appellant's case,
Farmer's testimony might "raise some rather sensitive issues" and could "pose a
problem" for Farmer in the penalty phase of his murder prosecution. The prosecution
also made clear that it had no intention of seeking immunity for Farmer in exchange for
his testimony at appellant's trial. Although Farmer's counsel did not provide significant
detail on how Farmer's testimony might incriminate Farmer, he did specify that if Farmer
were to testify, Farmer's testimony could detrimentally affect the penalty phase of
Farmer's murder prosecution. Given that a trial court should reject a witness's invocation
of the Fifth Amendment only when it "`clearly appears to the court that the proffered
evidence cannot possibly have a tendency to incriminate the person claiming the
privilege,' the trial court properly accepted Farmer's invocation of the Fifth Amendment
under these circumstances. (Seijas, supra, 36 Cal.4th at p. 305.)
Appellant criticizes the trial court for failing to place Farmer under oath and
asking Farmer specific questions to determine whether Farmer's invocation of the Fifth
Amendment was valid. Although examining a witness under oath is certainly advisable
(see, e.g., Ford, supra, 45 Ca1.3d at p. 441), our research reveals no case, and appellant
cites no such case, that holds it is reversible error if a trial court fails to examine the
witness under oath. The trial court has the duty to determine the validity of the witness's
19
Pet. App. K-123

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 20 of 28

invocation of the Fifth Amendment (Roberts v. United States, supra, 445 U.S. at p. 560,
fn. 7), and as explained above, the trial court did so in Farmer's case.
Chappell's invocation of the Fifth Amendment, however, poses a different
situation. Neither Chappell nor his counsel made any representations that Chappell's
testimony at appellant's trial would prove possibly prejudicial or incriminating for
Chappell. In fact, Chappell's counsel stated that he was fully aware of the circumstances
of the murder charge against Chappell and he could not see "in any way" how Chappell's
testimony at appellant's trial could be harmful. After Chappell indicated that he would
not testify at appellant's trial, the trial court made no further inquiry as to the context and
circumstances under which Chappell was invoking the Fifth Amendment. (Ford, supra,
45 Ca1.3d at p. 441.)
The People contend that "inasmuch as Chappell and Farmer faced the same
charges and possible penalty, the trial court could fairly conclude that issues related to
appellant's case would be equally problematic for Chappell." The record, however,
merely indicates that both Chappell and Farmer were in custody on "murder charges" and
that Farmer possibly faced the death penalty. We have found nothing in the record to
suggest that Farmer and Chappell were charged with the same murder or murders, or that
their respective murder charges were related.
In sum, we conclude it was error for the trial court to allow Chappell to assert the
Fifth Amendment without additional inquiry.
The error, however, was harmless beyond a reasonable doubt. Had the trial court
conducted additional inquiry into the reasons for Chappell's invocation and determined
that Chappell had a valid Fifth Amendment privilege, then it would have allowed
Chappell to avoid invoking that privilege before the jury. (Lopez, supra, 71 Cal.App.4th
at p. 1554 ["Once a court determines a witness has a valid Fifth amendment right not to
testify, it is, of course, improper to require him to invoke the privilege in front of a
jury"].) Had the trial court determined that Chappell did not have a valid privilege, then
it would have compelled Chappell to take the witness stand. Once on the witness stand,
20

Pet. App. K-124

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 21 of 28

if Chappell refused to testify, the trial court could have declared him in contempt of
court, and the jury could have drawn a "negative inference" from his refusal to testify.
(Ibid.) There was, however, overwhelming evidence of appellant's guilt to overcome any
negative inference from Chappell's refusal to testify. Specifically, Farmer's descriptions
of the assailant to Officers Ashley and Sergeant Banuelos, which were properly admitted,
was almost identical to the observations that Sergeant Banuelos made of the passenger
who fled from the green Camry. The owner of the green Camry stated that she had
loaned the vehicle to appellant, and appellant's booking photograph was identified by
Sergeant Banuelos as the person he saw fleeing from the green Camry. Moreover,
Fanner stated that the assailant was carrying a blue steel revolver and that same type of
gun was found in the green Camry that appellant was seen fleeing from. Finally, Parron,
appellant's accomplice in the matter, identified appellant to Detective Williams as the
person who took Farmer's Equinox at gunpoint. Thus, whatever "negative inference" the
jury would have drawn from Chappell's refusal to testify, there was ample evidence from
which the jury could have concluded that appellant was the assailant beyond a reasonable
doubt.
IV. Funds for Expert Witness
A. Appellant's Argument
Appellant contends the trial court committed reversible error by denying his
request for additional funds to hire an expert on the psychological factors affecting
eyewitness identification.
B. Summary of Proceedings Blow
Several months before the start of trial, appellant filed an application for the
appointment of an expert psychologist. In support of that application, defense counsel
averred that he had consulted with a psychologist, Dr. Robert Shomer, and that
Dr. Shomer, if called as a witness, would testify generally about the psychological factors
that likely affect the reliability of eyewitness identification. The trial court, presided over

21

Pet. App. K-125

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 22 of 28

by Judge Stephen Marcus, granted appellant's application and approved $1,800 in
expenses to retain Dr. Shomer.
Approximately a month before trial, appellant filed an application for additional
funds to retain the services of Dr. Shomer. In support of the application, defense counsel
averred that the trial court had approved only $1,5006 in expenses and Dr. Shomer
required an additional $500 to testify at trial. Judge Marcus denied appellant's
application for additional funds.
The day before jury selection began, defense counsel explained that he "wanted to
put on the record" the fact that Dr. Shomer would not be testifying at appellant's trial
because Judge Marcus denied the request for an additional $500. The trial court (now
presided over by Judge Bob Bowers) noted that the Superior Court's panel of expert
witnesses publication listed Dr. Shomer's hourly rate at $150 per hour. In the trial
court's view, it was reasonable for Judge Marcus to approve $1,500, which was sufficient
to cover the costs of Dr. Shomer reviewing the case and testifying at trial. Defense
counsel maintained that Dr. Shomer worked on a flat-fee basis and would not testify
unless the trial court approved an extra $500.
Two days later, while jury selection was still taking place, the trial court
announced it had done more research on the issue of appellant's request for additional
funds and had discussed the matter with Judge William Pounders, the chair of the Expert
Witness Committee. After clarifying that appellant intended to use Dr. Shomer's expert
testimony to challenge Sergeant Banuelos's identification of appellant's booking
photograph as the person he saw fleeing from the green Camry, the trial court concluded
that appellant was not entitled to expert services at all under People v. McDonald (1984)
37 Cal.3d 351 (McDonald). The trial court reasoned that although the officer's
identification was an element of the prosecution's case, it was not the "key" element of
Defense counsel explained that Judge Marcus had approved $1,800 in expenses in
court. However, according to counsel, Judge Marcus called counsel the next day and
informed him that the approval of $1,800 was a "mistake" and that the proper amount
was $1,500.
22
6

Pet. App. K-126

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 23 of 28

the case and there was other evidence that gave independent reliability to the
identification.
C. Relevant Authority
Evidence Code section 730 provides: "When it appears to the court . . . that expert
evidence is or may be required by the court or by any party to the action, the
court . . . may appoint one or more experts to investigate, to render a report as may be
ordered by the court, and to testify as an expert at the trial of the action relative to the fact
or matter as to which the expert evidence is or may be required. The court may fix the
compensation for these services, if any, rendered by any person appointed under this
section, in addition to any service as a witness, at the amount as seems reasonable to the
court."
"[C]ourt-ordered defense services may be required in order to assure a defendant
his constitutional right not only to counsel, but to the effective assistance of counsel."
(Corenevsky v. Superior Court (1984) 36 Ca1.3d 307, 319.) "Mt is only necessary
services to which the indigent defendant is entitled," however, "and the burden is on the
defendant to show that the expert's services are necessary to his defense." (People v.
Gaglione (1994) 26 Cal.App.4th 1291, 1304.) "The decision on the need for the
appointment of an expert lies within-the discretion of the trial court and the trial court's
decision will not be set aside absent an abuse of that discretion." (Ibid; People v. Hurley
(1979) 95 Cal.App.3d 895, 899 ["However, the decision to grant a defendant's request
for the appointment of such an expert remains within the sound discretion of the trial
court"].)
D. Analysis
Appellant argues that it was an abuse of discretion for the trial court to deny his
request for additional funds to secure the testimony of Dr. Shomer. According to
appellant, "here, as in McDonald, the eyewitness identification was critical because it
was the foundation of the prosecution's case against appellant." The error was
prejudicial, according to appellant, because it "prevented the defense from presenting
23

Pet. App. K-127

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 24 of 28

evidence that may have cast reasonable doubt on the accuracy of Banuelos's
identification of appellant as portrayed in the prosecution's case."
Appellant's attempt to analogize his case with McDonald, supra, 37 Cal.3d at
p. 377, is misguided. In McDonald, the only evidence linking the defendant to the
charged crimes of murder and robbery was eyewitness testimony. Six eyewitnesses
identified the defendant as the assailant with varying degrees of equivocation, and one
eyewitness categorically testified that defendant was not the assailant. (Id. at p. 355.)
The defendant had a strong alibi—six witnesses testified that he was not in the state on
the day the crimes were committed. (Ibid.) Under these circumstances, the Supreme
Court held that it was an abuse of discretion for the trial court to preclude expert
testimony on the psychological factors that could affect the accuracy of eyewitness
testimony. (Ibid.)
In doing so, the Supreme Court emphasized "that the decision to admit or exclude
expert testimony on psychological factors affecting eyewitness identification remains
primarily a matter within the trial court's discretion" and that "such evidence will not
often be needed." (McDonald, supra, 37 Ca1.3d at p. 377.) Only in circumstances where
"an eyewitness identification of the defendant is a key element of the prosecution's case
but is not substantially corroborated by evidence giving it independent reliability," would
it be error for the trial court to exclude qualified expert testimony on psychological
factors that could affect the accuracy of the identification. (Ibid.)
The Supreme Court revisited the issue of expert testimony on eyewitness
identification some years later in People v. Sanders (1995) 11 Cal.4th 475 (Sanders). In
that case, the defendant was convicted of multiple murders that occurred during the
robbery of a fast food outlet. On appeal, the defendant, citing to McDonald, argued that
it was an abuse of discretion for the trial court to exclude expert testimony on
psychological factors affecting eyewitness testimony. (Sanders, supra, at p. 508.)
Rejecting the defendant's argument; the Supreme Court explained that the defendant's
case differed from McDonald in several significant respects: First, the eyewitness
24

Pet. App. K-128

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 25 of 28

testimony in the defendant's case, unlike in McDonald, was "strong and unequivocal."
(Sanders, supra, at p. 509.) Second, unlike in McDonald, the eyewitness identification
was "corroborated by other independent evidence of the crime," such as evidence that the
defendant was in possession of a weapon that was consistent with the weapon used in the
crime and evidence that the defendant had solicited help with robbing the fast food outlet
in the past. (Sanders, supra, at p. 509.) Third, the defendant, unlike in McDonald,
presented no alibi defense. (Sanders, supra, at p. 509.)
Here, as in Sanders and unlike in McDonald, the eyewitness testimony was certain
and unequivocal. Sergeant Banuelos identified appellant as the man he saw running from
the green Camry without hesitation. Furthermore, there was independent evidence that
appellant had committed the charged crimes. Farmer described the assailant as having
tattoos of a teardrop on his face and a hand making a gang sign on his arm. Appellant
had both these tattoos at the time of his arrest. During the field showup, Farmer and
Chappell identified a specific vehicle (the green Camry) as the vehicle that was involved
in the incident. The registered owner of that vehicle told officers that she had loaned the
vehicle to appellant. Once in custody, Parron waived his Miranda rights and told
Detective Williams that he was the lookout and that appellant was the person who took
Farmer's vehicle and property at gunpoint. Parron even circled a photograph of appellant
in a six-pack display. Finally, appellant presented no alibi defense. Under these
circumstances, it was not an abuse of discretion for the trial court to refuse additional
funds to secure the testimony of Dr. Shomer.
Even if erroneous, the trial court's ruling was not prejudicial. It is not reasonably
probable that a result more favorable to appellant would have been reached in the absence
of the ruling. (Sanders, supra, 11 Ca1.4th at p. 510; People v. Watson (1956) 46 Ca1.2d
818, 836.) During trial, defense counsel vigorously-cross-examined Sergeant Banuelos
about his ability to observe appellant from a distance of 30 feet with limited lighting
provided by the police vehicle. During his closing argument, defense counsel argued that
"it is quite impossible to positively identify the facial features of the suspect and more so
-25
Pet. App. K-129

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 26 of 28

to see, to identify that the suspect has a teardrop, the size, one-eighth of an inch on his
cheek, from 30 feet away, dark at night. Even though there were some lights illuminated,
it is pretty much impossible." Counsel went on to argue that Sergeant Banuelos's
concern with his own safety likely affected his ability to observe the fleeing passenger
and that ultimately, "that identification by Sergeant Banuelos [was]. very, very doubtful,
and it's clearly erroneous." Furthermore, the trial court instructed the jury that in
assessing eyewitness testimony, it should consider numerous factors that affect the
accuracy of the identification, such as "the circumstances affecting the witness's ability
to observe, such as lighting, weather conditions, obstructions, distance, and duration of
observation[,]" and whether the witness was "under stress" at the time. In sum, given
defense counsel's argument and cross-examination, and the trial court's instruction, it is
not reasonably probable that appellant would have received a more favorable result had
Dr. Shomer testified about the reliability of eyewitness identification.
V. Section 654
In relevant part, section 654, subdivision (a) provides: "An act or omission that is
punishable in different ways by different provisions of law shall be punished under the
provision that provides for the longest potential term of imprisonment, but in no case
shall the act or omission be punished under more than one provision."
"'Whether a course of criminal conduct is divisible and therefore gives rise to
more than one act within the meaning of section 654 depends on the intent and objective
of the actor. If all of the offenses were incident to one objective, the defendant may be
punished for any one of such offenses but not for more than one.' [Citation.]" (People v.
Latimer (1993) 5 Ca1.4th 1203, 1208.) "Multiple crimes are not one transaction where
the defendant had a chance to reflect between offenses and each offense created a new
risk of harm." (People v. Felix (2001) 92 Cal.App.4th 905, 915.) "'It is defendant's
intent and objective, not the temporal proximity of his offenses, which determine whether
the transaction is indivisible. [Citations.] . . . [I]f all of the offenses were merely
incidental to, or were the means of accomplishing or facilitating one objective, defendant
26

Pet. App. K-130

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 27 of 28

may be found to have harbored a single intent and therefore may be punished only once.
[Citation.]' [Citation.]" (People v. Hicks (1993) 6 Ca1.4th 784, 789.)
A defendant's intent and objective are questions of fact for the trial court. (People
v. Coleman (1989) 48 Ca1.3d 112, 162.) Consistent with that, case law establishes that
'there must be evidence to support a finding the defendant formed a separate intent and
objective for each offense for which he was sentenced. [Citation.]' [Citation.]" (Ibid.)
Our task is to review factual determinations under the substantial evidence test.
(Kennedy/Jenks Consultants, Inc. v. Superior Court (2000) 80 Ca1.App.4th 948, 959.) If
the trial court did not make any express findings regarding the defendant's intent, the
judgment still must be upheld if it is supported by the evidence. (People v. Nelson (1989)
211 Cal.App.3d 634, 638.)
Appellant argues that the trial court should have stayed execution of the sentence
on count 3 (the robbery of Farmer) "because appellant committed the robbery and
carjacking during an indivisible course of conduct, in which he harbored only a single
intent and objective."
Substantial evidence supports the trial court's finding that appellant harbored two
different intents and objectives when he committed the crimes of carjacking (count 1) and
robbery (count 3) against Farmer. Appellant approached Farmer while he was pumping
gas. He pointed a gun at Farmer and asked Farmer where he was from. After Farmer
replied that he did belong to a gang, appellant began searching Farmer's person for
property. Appellant stated "It's that 40's life" and then took $15 from Farmer's person.
Appellant went on to tell Farmer to step away from the Equinox and then instructed
Chappell at gunpoint to exit the vehicle as well. This evidence supports a finding that
appellant had two separate intents and objectives in committing the crimes in question.
The first was to take cash from Farmer; the second was to take Farmer's vehicle. The act
of taking Farmer's cash was extraneous to and independent of the act of taking Farmer's
vehicle, and neither was incidental to the other.

27

Pet. App. K-131

Case: 13-55057

01/14/2013

RESTRICTED

ID: 8473559

DktEntry: 2-11

Page: 28 of 28

DISPOSITION
The judgment is affirmed.
NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS.

ASHMANN-GERST
We concur:

, P. J.
BOREN

, J.
DOI TODD

Pet. App. K-132

